<html>
<title> - HEARINGS ON THE NOMINATION OF HON. RICHARD C. HOLBROOKE TO SERVE AS U.S. AMBASSADOR TO THE UNITED NATIONS</title>
<body><pre>[Senate Hearing 106-225]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-225
 
  HEARINGS ON THE NOMINATION OF HON. RICHARD C. HOLBROOKE TO SERVE AS 
                 U.S. AMBASSADOR TO THE UNITED NATIONS

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                        JUNE 17, 22, AND 24, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                                <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                      U.S. GOVERNMENT PRINTING OFFICE
 57-735 CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              

                        Thursday, June 17, 1999

                                                                   Page

Biden, Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     4
Boxer, Barbara, U.S. Senator from California, prepared statement 
  of.............................................................    34
Helms, Jesse, U.S. Senator from North Carolina, opening statement     1
Holbrooke, Hon. Richard C., nominee to be U.S. Ambassador to the 
  United Nations.................................................    10
    Prepared statement of........................................    16
Moynihan, Daniel Patrick, U.S. Senator from New York, statement..     9
Warner, John W., U.S. Senator from Virginia, statement...........     7

                         Tuesday, June 22, 1999

Biden, Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    47
Helms, Jesse, U.S. Senator from North Carolina, opening statement    45
    Prepared statement of........................................    46
Holbrooke, Hon. Richard C., nominee to be U.S. Ambassador to the 
  United Nations.................................................    59
    Prepared statement of........................................    60
Johnson, Harold J., Associate Director, International Relations 
  and Trade Division, General Accounting Office, accompanied by 
  Mr. Tetsuo Miyabara............................................    47
    Prepared statement of........................................   122

                        Thursday, June 24, 1999

Ashcroft, John, U.S. Senator from Missouri, prepared statement of   110
Biden, Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    86
    Prepared statement of........................................    87
Helms, Jesse, U.S. Senator from North Carolina, opening statement    85
Holbrooke, Hon. Richard C., nominee to be U.S. Ambassador to the 
  United Nations.................................................    89
    Prepared statement of........................................    89

                                Appendix

Responses of Harold J. Johnson, General Accounting Office, to 
  additional questions submitted by Senator Rod Grams............   119
Article submitted by Senator Boxer from the New York Times 
  entitled, ``Deny Rape or Be Hated: Kosovo Victims' Choice''....   135

                                 (iii)



THE NOMINATION OF HON. RICHARD C. HOLBROOKE TO SERVE AS U.S. AMBASSADOR 
                         TO THE UNITED NATIONS

                              ----------                              


                        THURSDAY, JUNE 17, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:15 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Lugar, Hagel, Smith, Grams, Frist, 
Biden, Sarbanes, Kerry, Feingold, Wellstone, Boxer and 
Torricelli.

OPENING STATEMENT OF HON. JESSE HELMS, U.S. SENATOR FROM NORTH 
                            CAROLINA

    The Chairman. The committee will come to order to begin 
consideration of the nomination of Richard C. Holbrooke to 
serve as U.S. Ambassador to the United Nations and as a member 
ipso facto of the President's cabinet.
    Mr. Holbrooke's nomination was announced by the President 
on June 17, 1998, but it was not forwarded to the Foreign 
Relations Committee until February 10, 1999, almost 1 year 
later. The delay was caused by an 8-month-long criminal 
investigation of Mr. Holbrooke by the Department of Justice for 
alleged violations of U.S. ethics-in-government while he worked 
for Credit Suisse First Boston, and they always have initials 
after this, CSFB.
    In February, Mr. Holbrooke paid a $5,000 fine to the U.S. 
Government to settle that case and it took the Department of 
Justice 8 months to settle the case against Mr. Holbrooke and 
this committee obviously will be challenged to do so within the 
day's hearings alone.
    The Justice Department's task was to determine whether Mr. 
Holbrooke violated the law. The committee has a broader 
mandate. We are obliged to determine not only whether Mr. 
Holbrooke followed the law, but also whether he exercised good 
judgment of the kind reasonably expected of and by a member of 
the President's cabinet.
    U.S. ethics-in-government laws are based on a simple 
premise, that government service must not be a means to advance 
private interests. According to the executive branch's own 
Office of Government Ethics, such laws are designed to ensure 
that executive branch decisions are neither tainted by, nor 
appear to be tainted by, any question of conflict of interest 
on the part of the employees involved in the decisions of 
government.
    Now then, I can understand that some of these laws may be 
difficult to interpret for the average government employee, but 
Mr. Holbrooke cannot scarcely be regarded as an average 
government employee. He had the entire Credit Suisse legal team 
at his disposal, not to mention the counsel of the State 
Department Legal Advisor's office to help him walk whatever 
ethical minefields may have existed, if any. But time and time 
again, Mr. Holbrooke chose either not to seek ethics advice or 
to ignore it when it was given.
    To most government employees, Mr. Holbrooke's life, when he 
left the State Department in February 1996 must have appeared 
ideal. He was paid an annual salary of at least $1.35 million 
by Credit Suisse First Boston while working long hours for the 
U.S. Government as a special government employee from 1996 to 
1999.
    In addition to this impressive annual salary, he 
supplemented his income during those last 3 years with almost 
$900,000 by speaking with audiences and writing about the very 
issues that were part of his duties while he was special 
government employee to the U.S. Department of State.
    Now, the ethics laws of this government are very 
straightforward regarding what is expected of every senior 
government level employee in these circumstances. First, after 
leaving government, every employee--Mr. Holbrooke included in 
that, must observe a 1-year cooling off period. And he obliged 
to observe a 1-year cooling period under that law and that 
statute, but the law broadly forbids any business contacts with 
officials, for and including in Mr. Holbrooke's case, U.S. 
Ambassadors stationed all around this world.
    Second, senior government employees, including special 
government employees like Mr. Holbrooke, cannot earn outside 
income, making speeches or writing articles on issues directly 
related to their area of professional responsibility.
    And the law barring contacts with an official foreign 
agency is there for a very clear reason. It is intended to 
prohibit unfair or undue influence or even the appearance of 
undue influence by such officials over their former colleagues 
and subordinates.
    Now, when Mr. Holbrooke began traveling abroad for his new 
employer, Credit Suisse First Boston, he appears to have made 
no effort to observe the legally prescribed cooling off period. 
In fact, when Mr. Holbrooke called U.S. Ambassadors in Germany, 
they hosted receptions, they precipitated meetings and even 
accompanied him to meet with the country's top government 
leaders.
    Mr. Holbrooke sought to justify these numerous meetings 
with foreign leaders in the company of senior U.S. officials by 
arguing that he was wearing, as he put it, his government hat 
as a special envoy for Bosnia. In other words, he would not say 
on behalf of the $1.35 million employer, CSFB. He was there on 
behalf of the U.S. Government simply to discuss U.S. foreign 
policy interests. So each meeting, he contends, was not covered 
by government ethics laws.
    But U.S. embassies did not see things quite so clearly. 
Indeed, some of them professed confusion over the nature of Mr. 
Holbrooke's professional role after he left the State 
Department.
    And I suggest a simple way to determine which hat Mr. 
Holbrooke was wearing: Who paid the bill for his trip. In most 
cases, CSFB, not the State Department, picked up the tab. And 
Mr. Holbrooke says the CSFB had nothing to gain by these 
meetings, and of course, Richard Holbrooke had nothing to gain 
either. In which case, we must conclude the CSFB was simply 
being a good corporate citizen, underwriting Mr. Holbrooke's 
diplomacy on behalf of the American Government.
    Then there is the matter of Mr. Holbrooke's income from 
articles and speeches. In 1996 to 1999, Mr. Holbrooke continued 
to speak to private organizations and corporations about the 
Clinton administration's foreign policy, whatever that is, 
especially Bosnia, and he earned enormous fees for these 
speeches, according to the record.
    But here again, the law is simple and clear, it seems to 
be, a U.S. Government employee, including special government 
employees, may not receive compensation from any source other 
than the U.S. Government for teaching, speaking, or writing, or 
matters that relate to the employee's official duties.
    Yet, throughout his tenure as the President's special envoy 
for Bosnia, Mr. Holbrooke capitalized on his post-Dayton 
Accords representation. In 1996 he was paid almost $200,000 in 
speaking fees and another $150,000 in publishing fees. One 
article, ``Backsliding in Bosnia'' was published May 20, 1996 
by Time magazine and it dealt exclusively with Bosnia and 
implementation of the Dayton Peace Accord. Time magazine paid 
him $3,000 for the article and he continued to receive such 
fees right up until January 1999. Indeed, over a 3-year period, 
his speaking fees earned him roughly $900,000.
    Now, Mr. Holbrooke could have avoided such conflict by 
seeking and following the advice of either CSFB lawyers or the 
State Department legal adviser, but the fact is Mr. Holbrooke 
rarely asked for legal advice to be sure he followed the 
appropriate rules. In the one documented instance in which Mr. 
Holbrooke did request the advice of the Office of the Legal 
Adviser, he didn't like the advice he was given and he simply 
disregarded the written counsel.
    Finally, beyond the laws of conflict of interest, Mr. 
Holbrooke was presumably obliged to follow the directives of 
the Executive orders 12731 and 12674, as well as Executive 
12834 issued by President Clinton on January 20, 1993, his 
first day in office. The Clinton order required all senior 
appointees to sign a pledge to which they agreed to forego 
lobbying any officer or employee of the executive agency that 
employed him for 5 years. Lest we forget, this Presidential 
order was issued with promises by President Clinton to have 
what the President then called or described the most ethical 
administration ever. Mr. Holbrooke signed that pledge, and the 
information before the committee indicates that the pledge was 
implemented, so here we are.
    I am being candid because I feel it is my obligation to be. 
I understand that Mr. Holbrooke denies that he violated either 
the letter or the spirit of any law, and I understand that he 
feels aggrieved by the scrutiny of the Justice Department as 
well. And this hearing will provide him with an opportunity to 
answer publicly once and for all the serious ethical questions 
arising from the State and Justice Departments' investigations. 
He will get a fair hearing, and we will take as long as 
necessary to work through these issues.
    Now, as Senator Biden knows, we have planned an additional 
2:30 meeting this afternoon if it proves necessary to continue 
this morning's hearing. Senator Biden and I intend to move to 
executive session immediately following the public question and 
answer period so that where the specific privacy of other 
individuals may be involved, Mr. Holbrooke will have the 
opportunity to answer in private.
    One final personal note. I continue to hear that the 
chairman of this committee held up this nomination. I want it 
to be known that we invited, we begged, we pleaded with the 
White House and the Justice Department to furnish documents 
relative to this case. The White House frankly said we were not 
going to get them. The Justice Department said nothing. It was 
not until a month ago that the President of the United States 
called me late one night from Germany and said how about the 
nomination? I said you will get the nomination just as soon as 
we get the papers. He said what papers? I told him. He said by 
God, you will get them tomorrow, and we did.
    The Chairman. Senator Biden.

 OPENING STATEMENT OF HON. JOSEPH R. BIDEN, U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Mr. Chairman, let me say the press has been 
asking me the last year, you and the chairman have such 
different philosophies, how come you never disagree? Well, get 
ready. We have become and have been close personal friends, and 
we made an agreement early on in our careers and early on in 
this relationship that when we agreed to disagree, we'd be 
agreeable in the disagreement.
    It will not surprise you that I disagree with the 
perception that you have about Mr. Holbrooke's ethical conduct, 
and I hope in this hearing, and I know you will provide the 
opportunity that context can be provided for a number of the 
assertions that have been made, and I in no way question your 
motivation. I in no way question, I might add, by the way, you 
could not have held this hearing much earlier, even if you 
didn't ask for those documents because there were ongoing 
investigations at the Justice Department and at the State 
Department. So I, for one, do not fault you for delaying the 
hearing. There are a lot of other reasons why we got to this 
point.
    Let me indicate, though, at the outset, that after having 
reviewed an incredibly voluminous record here, I will state my 
conclusion at the outset. I have reached a conclusion that 
there is nothing in the background or conduct of Mr. Holbrooke 
that would justify him not being confirmed based upon any of 
his behavior relative to the Ethics in Government Act or any 
other ethical conduct, any other accusation relating to 
conduct.
    I believe the President has made an excellent choice. In my 
view, Mr. Holbrooke is one of the most able diplomats that this 
administration has put forward and quite frankly, has been put 
forward in the 27 years that I have been in the U.S. Senate.
    This country has been, and I think will continue to be, 
very well served by having a person of Mr. Holbrooke's 
character represent us at the United Nations and quite frankly 
at this juncture in our history.
    Mr. Holbrooke's record as a diplomat stretches back into 
the early 1960's when he entered the Foreign Service and was 
immediately assigned to the embassy in Vietnam. In the late 
1960's he served with one of the giants of this century, 
Averell Harriman, as a member of the delegation to the Paris 
peace talks.
    In the Carter administration, he served with distinction as 
Assistant Secretary of State for East Asian and Pacific Affairs 
and at the time he was the youngest person ever appointed to be 
an Assistant Secretary of State.
    When President Clinton took office, Ambassador Holbrooke 
re-entered government service as our Ambassador to Germany, but 
this was very short-lived, when in September 1994 he was called 
back to Washington to become an Assistant Secretary of State 
for European and Canadian Affairs.
    The key challenge facing him upon his return to the United 
States was a conflict in Bosnia, an issue that in those earlier 
days I spent a lot of time bending his ear on and he was always 
patient to listen--which by then had been raging since 1972. As 
Assistant Secretary, Mr. Holbrooke helped design and implement 
a strategy that culminated in the signing of the Dayton Accord 
in 1995 which brought an end to the war in Bosnia.
    It cannot be denied that the Dayton Accord process was a 
singular achievement, I believe, for American diplomacy for 
which many people deserve credit, including three fine 
government servants who gave their lives in the tragic accident 
in Mount Igman outside of Sarajevo. But I'm convinced that 
Dayton would not have succeeded without Ambassador Holbrooke's 
tenacity and imagination, quite frankly, and the determination, 
tenacity and creativity he brought to the job served this 
Nation well.
    Along the way to Dayton, he and his team also resolved a 
long-standing diplomatic dispute that seems now not to be a big 
problem, but it was a big deal then, and that is the dispute 
regarding the former Yugoslav Republic of Macedonia.
    Three and a half years ago after Dayton, peace continues to 
prevail in Bosnia, though much remains to be done. But the dire 
predictions of the doomsayers I think will be proven wrong. The 
war has not resumed and not a single American, thank God, has 
been killed in military encounters.
    Since leaving full-time government service in February 
1996, Ambassador Holbrooke has continued to serve the country 
as unpaid advisor and diplomatic troubleshooter for European 
security matters and Balkan policy.
    In 1997, the President asked him to take on an additional 
task of Special Presidential Envoy to Cyprus. All the easy 
jobs. Even while his nomination for the United Nations was 
pending earlier this year, at a time when most nominees would 
have resisted any assignment that may have jeopardized the 
nomination, Ambassador Holbrooke agreed to Secretary Albright's 
request which I actually ran by you, if I am not mistaken, Mr. 
Chairman, to travel to Belgrade to make a last-ditch effort to 
avert the conflict in Kosovo.
    Let me state it plainly. We need Ambassador Holbrooke at 
the United Nations and we need him there now. Although the U.N. 
Security Council is no longer the dangerous place that our 
colleague, Pat Moynihan described in his book over two decades 
ago, it is very tough territory, with many challenges to U.S. 
interests by some of the other permanent members of the 
Council.
    The agenda for the United States and the U.N. and the 
Security Council is a long one, from U.S. reform to Iraq to 
Kosovo. Ambassador Holbrooke is a determined defender of 
America and America's interests and I am confident that he is 
just the person we need in New York, particularly at this time.
    Let me now turn to the primary subject of this hearing. The 
formal nomination of Mr. Holbrooke was delayed until February 
of this year because ethics investigations undertaken not by 
this committee but by the Department of State inspector general 
and the Department of Justice. As a result of these 
investigations, Ambassador Holbrooke paid a $5,000 fine in 
civil penalties to settle allegations that he violated the 1-
year no contact limit set forth in section 207, subsection (c) 
of title 18 of the United States Code.
    Although Ambassador Holbrooke did not and does not believe 
he violated the law, he settled this matter in order to avoid 
further delay in the nomination that would have resulted had 
the Justice Department pursued a civil lawsuit.
    As a matter of fact, for full disclosure, he called me to 
ask what he should do about that. I told him that I believe 
that absent a settlement, this could drag on and it was his 
decision to make, obviously, but I believe were I he, I would 
settle the matter so this could get to the point where we could 
have this hearing.
    Our task as a committee is not to sit as a court of law, 
relitigating the legal issues involved in Ambassador 
Holbrooke's action, but our task rather is to review these 
matters and decide whether Ambassador Holbrooke, who has been 
confirmed by the Senate on three previous occasions, should be 
disqualified from confirmation because of these matters.
    And I think you stated it accurately, Mr. Chairman, what 
our role of our scope of responsibility is. I've closely 
reviewed the matter investigated by the inspector general. The 
record that has been assembled during this review is 
voluminous, running several thousand pages.
    I believe strongly that none of these matters even approach 
the level where they should be considered as disqualifying. I 
left the Judiciary Committee as--I didn't leave it as chairman. 
I left as chairman because the Republicans won, but I left as 
the ranking member because I was sick and tired of 
investigating other people, literally. But here I was back, 
with my old hat on after 17 years of experience as the chairman 
and ranking member of Judiciary, plowing through investigative 
reports and I'll say again. I strongly believe that none of 
these matters even approach the level where they should be 
considered as disqualifying.
    I do not dismiss the ethics charges lightly. The laws were 
written for a good reason. But I do not believe for 1 minute 
that Richard Holbrooke is an unethical person. I do believe, 
however, that Richard Holbrooke is a dedicated public servant 
and I find it incongruous with his character and his commitment 
to the public good to suggest that he intended to violate the 
law.
    The record before the committee demonstrates Ambassador 
Holbrooke's dedication to public service.
    Over the course of three decades, he has made immeasurable 
contributions to American foreign policy and U.S. security and 
over the last 3 years he spent an extraordinary amount of his 
time serving the government without receiving a dime of 
compensation. It should be noted that although if he in fact 
violated the laws, it could be argued he benefited from the 
appointment.
    The truth of the matter is this was not like the government 
was paying him to do any of this. It was like it used to be 25, 
30 and 40 years ago, I say to the Senator from Virginia, when 
men of stature and standing would divert from their primary 
responsibilities and take on for no pay service requested of 
them from their President.
    Mr. Chairman, we have a right and a duty to examine these 
matters. I believe the committee has done so thoroughly and I 
hope this hearing will allow us to close the door on these 
ethical matters. I welcome the nomination and hope the 
committee will move forward expeditiously once we conclude the 
hearing.
    And again, Mr. Chairman, I want to thank you for convening 
these hearings. It has been a long road to this date, but I 
want to emphasize again, you were not the reason for the delay.
    And I would say it another way, which you will not maybe 
view as particularly complimentary. If you had decided you 
didn't want him under any circumstances, we learned from 
experience that that would be a fait accompli. We would not be 
having a hearing. I am not suggesting you are going to vote for 
Mr. Holbrooke. I don't know what you are going to do. But I am 
suggesting that if you wanted to kill Mr. Holbrooke's 
nomination, you demonstrated that you are fully capable of 
doing that, and so the delay here was not of your making, and I 
am happy to say that we are underway and by the grace of God 
and goodwill of the neighbors, maybe we will get this finished 
in a timely fashion so that we can get an up and down vote on 
the floor of the Senate.
    The Chairman. Thank you, I think. We have two witnesses, 
two distinguished Senators prepared to come here today to talk 
about our nominee. Pat Moynihan of New York got tied up in 
another thing that he is obligated to do, so we welcome Senator 
Warner of Virginia. You may proceed, sir.

     STATMENT OF HON. JOHN W. WARNER, UNITED STATES SENATE

    Senator Warner. I thank you, Mr. Chairman and members of 
the committee. I earlier met with Senator Moynihan. He is 
appearing before the Finance Committee for the purpose of 
introduction of the prospective Secretary of the Treasury and 
his statement that I ask be placed in the record ahead of mine 
as the distinguished Senator from New York.
    The Chairman. Without objection, so ordered.
    Senator Warner. Mr. Chairman, I listened very carefully to 
your important remarks and may I say that as the chairman of 
the Armed Services Committee and having been a member of that 
committee for 21 years and having dealt with many, many cases 
in which questions of ethics have arisen, I commend you and 
your staff for looking into this issue with great thoroughness, 
and I'll have further comments on it in my remarks, but I also 
join Senator Biden, with whom I have consulted about this 
nomination for many months, and corroborate without any 
equivocation or statement that you personally or your staff or 
anyone else on this committee contributed to the delay in this 
nomination.
    The proper sequence of events had to take place. They were 
time-consuming, and we are here today, nevertheless. As a 
matter of fact, I think it is almost gratuitous that this 
nomination come before the Senate at this time because I cannot 
think of another individual that I have known in a public 
service career in national security matters, Armed Services 
matters over 30 years who is better qualified or has had more 
experience to take on this position at this critical time in 
America's history.
    I say that very forthrightly, Mr. Chairman, because 
obviously, throughout this nominating process, I said to 
myself, yes, Dick Holbrooke is a friend of several years, but 
he is not a constituent. Why would you want to come and, so to 
speak, put my credibility on the line when I do not know all 
the facts. But I decided it was in the interests of the country 
to do so, and that is why I appear here today.
    I remember very well in September 1991 I flew into Sarajevo 
on a C-130 bringing in food and witnessed for the first time 
the conflict in the Balkans. From that day forward, and after 
many, many trips to that region, southern Europe, I am still 
perplexed as to why and how these fights between these people 
predicated largely on religious background, ethnic diversity 
continue not only to plague that region of the world but indeed 
the whole world, to some extent.
    I think that situation is the most serious facing the 
United States and its security today, paralleled only perhaps 
by strategic balances between the former Soviet Union, now 
Russia, and China.
    Therein is a problem that is going to be with us for many 
years. I don't know of any other individual who has spent more 
time trying to resolve the problems in that area, not only from 
the standpoint of America's security, but that of our European 
allies, than Richard Holbrooke, and it is for that reason that 
I am happy to come here today and pleased to sit beside him and 
say that I think he is eminently qualified and that I would 
hope that eventually this committee would confirm this 
distinguished American.
    Senator Biden went through his record. I think the members 
of the committee have it before them. It is extraordinary. I 
wonder how in a relatively short lifetime he has been able to 
achieve these many public service undertakings and indeed 
undertakings with a wide range of non-governmental 
organizations. Today joined in this hearing room is the 
president of one of the refugee organizations. Refugees is key 
to the solution of this problem and Mr. Holbrooke was 
associated with that organization for many years.
    I noted he made 65 trips to China. Can we think of another 
nation in terms of our own security, whether it be economic 
security or national security that is more important. He brings 
to bear an experience in that region. And I could go on, but I 
want to close with the following observations.
    Hopefully he will undertake this post and bring stronger 
influence in this country into the United Nations. No one has 
tried harder than the chairman of this committee, together with 
others, to bring more reality into that organization, which is 
an essential organization to this world, but at the same time, 
the management, loss of funds, many other issues which are 
better understood to the chairman, have to be improved and 
indeed resolved. I think that individual is the best qualified 
to do that job.
    And last, as we look at the southern region of the Balkans, 
the men and women in the Armed Forces of the United States and 
the 18 other nations that have joined together to bring us 
where we are in Kosovo today, taking great risks in life, 
spending large sums of money.
    We must consolidate that situation. We must bring about 
relief to the people of that region, whether in Kosovo or the 
innocent citizens of Serbia, but in doing so, we have got to 
hold steadfast to the principle we will not bring about 
infrastructure improvement and other improvements other than 
humanitarian until the government of Milosevic is out of there.
    This individual, I think, is best qualified not only to 
represent our country, but to lead other nations in reaching 
that result.
    And furthermore, to impress upon, primarily the European 
members, that the major cost of such reconstruction that is 
undertaken in that region be borne by European nations and 
others. The United States has done its share. I think this 
individual can be a very strong advocate.
    I close, Mr. Chairman, by saying that I brought to bear 
what experience I have had in ethical matters. I have not had 
all the files before me, but I did examine, I did speak with 
them at some length, and I feel that your criteria, whether or 
not he exercised good judgment, is the proper one. He who will 
shortly explain to the committee that there were some errors 
made and he will, I think in a very humble manner, press his 
views on that.
    But I believe that the committee will be able to find in 
his conduct a pattern which is acceptable, and I say acceptable 
because our committee does not have the complexity of this dual 
hat, on the one hand being in the private sector and on the 
other hand, trying to serve, as Senator Biden says, a dollar a 
year type person. We do not have the volume of cases before my 
committee and of course I think that is the challenge of this 
committee is to sort through that.
    Mr. Chairman, I see my distinguished colleague, the senior 
Senator from New York has arrived. We will withdraw your 
statement from the record and let you present it in persona. I 
yield you the floor.
    Senator Moynihan. That will be the chairman's prerogative.
    The Chairman. You are welcomed and may proceed.

STATEMENT OF HON. DANIEL PATRICK MOYNIHAN, UNITED STATES SENATE

    Senator Moynihan. Thank you. Briefly but with much emphasis 
and conviction, I am here to introduce to the committee, who 
vastly needs no introduction as such, but to remark generally 
about the post to which he is going, has been assigned, which 
is to say to be our Permanent Representative to the United 
Nations. That is a curiously ambiguous term. I was Permanent 
Ambassador to the United Nations for 8 months, until I opened 
the New York Times one morning and there was a column by James 
Reston which said that the President and the Secretary of State 
wish he would go, but they don't know how to tell him.
    Sir, that was a very low point in the history of the United 
Nations. The Soviets were on their last expansive mode. They 
had a Third World alliance made up of a big majority in the 
General Assembly, and they used it just to terrorize Western 
interests, Western values, and the values of the other charter 
itself. That has all seceded, but we have--now, we have real 
opportunities. We need a real representative.
    Ambassador Holbrooke has been there from the Mekong Delta 
through service in every manner, position. He was our 
Ambassador to Germany. He was the Assistant Secretary of State 
for European and Canadian Affairs, and he was called back from 
private life to manage the Dayton negotiations which led to the 
peaceful settlement, the settlement in Croatia and Bosnia.
    Now, as U.N. representative, he will be presiding over the 
aftermath of our action, NATO's actions against Serbia, against 
Mr. Milosevic, and the emergence in Kosovo of a hugely damaged 
society with deep animosities. We won't be out of Kosovo for a 
long time, sir.
    In the meantime, what we do there will be at the behest and 
under the supervision, under the surveillance of the United 
Nations. Give me a man on the Security Council who is equal to 
that challenge, and I know no better person than Mr. Holbrooke. 
I thank you for the honor of making a statement.
    The Chairman. We would be delighted for you to stay with us 
for the entire hearing, but I expect you have other things to 
do.
    Senator Moynihan. I'd like to get out of the line of fire, 
sir.
    The Chairman. Mr. Holbrooke, if you would stand please and 
raise your right hand. Do you swear to tell the truth, the 
whole truth and nothing but the truth, so help you God?
    Mr. Holbrooke. I do.
    The Chairman. I will remind you that you will be under oath 
for all hearings before this committee, and for the purposes of 
questions submitted to the committee. And I know you understand 
those obligations. I thank you, sir, and you may proceed with a 
statement.

   STATEMENT OF HON. RICHARD C. HOLBROOKE, NOMINEE TO BE THE 
 REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE UNITED 
    NATIONS WITH THE RANK AND STATUS OF AMBASSADOR, AND THE 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA IN THE SECURITY 
                 COUNCIL OF THE UNITED NATIONS

    Mr. Holbrooke. Thank you, Mr. Chairman, Senator Biden, 
Senator Warner, and Senator Moynihan, and members of this 
distinguished committee, I am deeply honored and profoundly 
humbled to appear before you today. I would like to thank 
President Clinton for nominating me and for his continual 
support. Allow me also to thank you, Mr. Chairman, for the 
patience and fairness with which you and this committee have 
treated me during the long delay to which you referred since 
the President announced his intention to nominate me for this 
position.
    I want to echo what you said in your opening statement, Mr. 
Chairman, in regard to the fact that no part of the delay was 
caused by this committee. Statements to that effect, including 
some that unfortunately came from people in the executive 
branch last year, were misinformed and inaccurate, and you, I 
am sure, know that I never echoed those statements and regard 
the treatment of this committee of me as entirely fair and 
appropriate from the beginning.
    I want to thank the two Senators who just introduced me for 
presenting me; that they both took time to introduce me means 
more to me personally than I can begin to say, especially since 
both of them had senior positions in the executive branch, 
Senator Warner as Secretary of the Navy, Senator Moynihan as 
Ambassador to the United Nations.
    Watching Senator Moynihan taught all of us a great lesson 
about waging peace in what he called a dangerous world, a 
dangerous place, and helped shape my vision of both the promise 
and the pitfalls of the U.N. I think his Ambassadorship while 
short, was a turning point in our realization that the United 
Nations, although full of promise, was deeply flawed, and that 
we had to work on reform.
    Mr. Chairman, let me also speak about the long association 
that I have had with this committee. You are the fifth chairman 
of this committee I have had the honor to testify before, 
starting when I appeared before Senator Sparkman in 1977, for 
the first of three posts for which I was nominated, unanimously 
supported by this committee and unanimously confirmed by the 
Senate. Beyond that, sir, I am fully committed, and have been 
throughout my career, to the principle that Congress must be 
involved throughout the policy process, not just on the crash 
landings, but on the takeoffs, and I have seen a number of 
crash landings on which I think the Congress was not adequately 
consulted.
    If confirmed by the Senate, I would consider myself, as I 
have in the past, responsible not only to the President and the 
Secretary of State, who gave me my operational orders, but to 
this body which has confirmed me. I hope each of you would 
consider visiting the United Nations mission in New York where, 
if confirmed, my door will always be open to you. The staff 
that works for the U.N. mission will always be available and 
your advice always welcome.
    It is very important that the American officials in New 
York get a firsthand understanding of what their elected 
representatives wish them to believe in and do, and that the 
U.N. Secretariat and the other Ambassadors get a better 
understanding of why we have such concerns, concerns which I 
share and will address in a moment.
    Mr. Chairman, if you permit, I would like to briefly 
mention the members of my family who are here today. May I do 
so, sir?
    The Chairman. Oh, absolutely. I wish you would.
    Mr. Holbrooke. Unfortunately, my wife Kati and her son 
Christopher Jennings cannot be here today. They have a long-
scheduled annual mother-son outing. My wife will be here for 
the subsequent sessions. As you observed coming in, a large 
number of other family members are here, and I would like 
briefly to just mention them. I am terribly fortunate that my 
two sons, my pride and joy, are here. David Holbrooke is the 
one who you asked whether he was a basketball player or not. He 
is tall enough, but not good enough for your great teams in 
North Carolina. He is here also with his fiancee, Sara Bosch, 
and I noticed that Sarah's 3-year-old daughter is here and 
behaving very well.
    My second son, Anthony Holbrooke, a refugee worker, is also 
here. My stepdaughter, Elizabeth Jennings is here as is my 
brother-in-law, Andrew Marton.
    In addition, I'd like to just particularly thank my mother, 
who has come here today from New York and is seated right 
behind me, and my father-in-law, Endre Marton. Their lives 
illustrate in a sense part of my lifelong commitment to public 
service. Both are refugees from a Europe torn apart by war and 
by communism. My mother left Germany because a farsighted 
person, her father, my grandfather, in 1933 understood that 
Germany was not going to be a safe place for Jews anymore. She 
came to this country where she met my father, who also had left 
as a refugee from the Bolsheviks at the time of the revolution 
in Russia.
    My father-in-law and my mother-in-law, who is not here 
today, are true heroes of the sort we always celebrate, 
survivors of Budapest under Hitler, and then survivors of 
Budapest under Stalin. As a journalist for the Associated 
Press, Endre Marton was the last journalist filing out of 
Budapest at the time of the revolution in 1956. I am sure many 
of you in this committee will remember, as I do, the famous 
last message from Budapest saying, ``the Soviet tanks are 
coming in, will anyone help us?'' He was the man who sent that 
message, and I am proud he is here today.
    I only wish that my father, who died when I was in high 
school, could be here today also. Excuse me.
    When I was a young boy, my parents often took me to see the 
great buildings of the new organization rise in the East River 
in New York. And--I am sorry, sir, it is very hard to talk 
about my father because he is not here.
    The Chairman. We understand, sir.
    Mr. Holbrooke. My father talked to me about his--perhaps I 
should just submit this for the record. I don't think I am 
going to be able to read the part about my father.
    The Chairman. We'll get together and I'll talk about my 
father as well. I feel the same way about mine. You are 
impressing me on this point.
    Mr. Holbrooke. My apologies. He dreamed--he took me to the 
U.N. when I was a child, along with my mother, as buildings 
were going up on the East River. He dreamed that these would be 
the buildings that would change the world, and it is an 
extraordinary full circle that I stand before you today as a 
nominee to be an American representative to the U.N.
    But that dream he had, that noble dream, is not possible 
anymore. That was an idealism of the 1940's that crashed upon 
the realities that Pat Moynihan and you and so many others have 
pointed out, and which I have encountered myself time and time 
again.
    The goal of American policy should be to strengthen and 
reform the United Nations, not to destroy it, but also to be 
very frank about its shortcomings. Destroying it is not an 
option, and, in the long run, weakening it would hurt us. The 
goal that best serves our interest is to make the U.N. more 
effective, more responsive and more efficient. I pledge to you, 
members of this committee, that if confirmed, I will make this 
issue, U.N. reform, my highest sustained priority.
    Before moving to a more detailed discussion of the United 
Nations, allow me to address briefly the chain of command in 
the executive branch. Although the job for which I am being 
considered today carries with it cabinet rank, the person 
holding it should receive his or her instructions from and work 
for the Secretary of State, the President's senior foreign 
policy advisor and spokesperson. I believe strongly in this 
view, which I expressed for the first time publicly over 18 
years ago in an article, and I have never wavered in that.
    It is especially fortunate that I would be working for 
Madeleine Albright, an old friend with whom I have worked 
closely during two administrations and outside the government 
for over 20 years. In the last 6 years, she and I have stood 
shoulder to shoulder on such critical issues as Bosnia, NATO 
enlargement, Kosovo and U.N. reform, sharing our thoughts in 
private over endless phone conversations and meetings, 
advocating similar positions within the Council of Governments, 
and sharing meals together. She gave a wonderful dinner in 
honor of my wife and me when we got married. She shares with my 
wife, as she puts it, the common bond of being refugees from 
Central Europe. My wife being Hungarian, as I said a minute 
ago, a refugee of the class of '56, Madeleine Albright being 
from a family that left earlier. She was a professional 
colleague of my father-in-law at Georgetown, and they are close 
on most issues. I would be delighted if the Senate confirms me. 
We would be able to collaborate deeper.
    It is precisely because of our position in the world today 
that the U.N. has changed and offers challenges and 
opportunities. During the cold war, most of the strategic 
issues we dealt with could not be addressed within the U.N. 
because of the virulent racism which some nations made use of 
in the U.N. for their own propaganda purposes. I am thinking 
particularly of the ``Zionism equals racism'' resolution, but 
there were other examples as well, and they deeply 
disillusioned people like myself, who began with that initial 
dream. Things aren't quite so bleak today, but an enormous 
amount still remains to be done.
    With the cold war over, we find that almost every issue 
from Kosovo to the many crises in Africa, to East Timor, to the 
Middle East is an important United Nations concern. We need to 
make the system work with us and achieve outcomes that are 
compatible with our national interests and our goals. This is 
not easy, but it is far from impossible. It requires 
leadership, clarity of purpose and strength. It requires the 
resolution of the difficult issues that include arrears 
payments and reform, bloated bureaucracies and budgets. Thanks 
to the efforts of this committee, and especially Chairman Helms 
and Senator Biden, the administration is now in a position to 
solve the arrears problem and advance our reform agenda at the 
U.N.
    I want to affirm today to all of you my full support for 
the legislative package which this committee and the 
administration have agreed upon. And if confirmed, it will be 
my highest priority to get this package fully implemented.
    In addition to the package, I would make one additional 
point beyond the package. I am a hard-line hawk on the issue of 
bureaucratic bloat, whether it is in Washington or New York, 
and I will additionally do everything I can to reduce things 
which don't make sense to me as I walk the halls of the U.N.
    Of deep personal and professional interest to me, in part 
because of my family's history, is the role the U.N. plays on 
the issue of refugees. On a personal note, I have served on the 
board of the International Rescue Committee, as Senator Warner 
mentioned, and as chairman of Refugee International, whose 
president is here today. My son Anthony works for Refugee 
International in Washington. These issues, perhaps because of 
my family background, are of special concern to me. They are 
not going to go away. Each issue is treated with urgency, but 
in fact they go on and on as we have seen in Kosovo, the Sudan, 
Cambodia, and elsewhere, and the U.N. must play a central role 
in dealing with them.
    We also have to play a key role in pushing the U.N. and 
ourselves to deal with issues which don't get enough attention 
but could explode. One that comes to mind is the problem of 
AIDS in India and in Africa, where the doubling rate is so 
large that we have to deal with it or it will undo all of our 
other efforts.
    I have not been satisfied with what I have seen with 
refugees and other things from Cambodia to Bosnia in my 
travels, but my goal is not to weaken them but insist on better 
performance. While some academics call them soft issues, they 
are not. They are the real issues of the future for our 
children and grandchildren.
    The Security Council has also played an important role in 
promoting our interests, and we have to continue to strengthen 
it. The U.N. has also done some good on keeping pressure on 
human rights in some countries, including Iran, Iraq, Burma, 
the former Republic of Yugoslavia by which I do not mean 
Macedonia, I am talking about Belgrade, the Sudan and Cuba. And 
it has authorized the creation of the international war crimes 
tribunals for Yugoslavia and Rwanda.
    I have worked closely with the two chiefs. I talked to 
Ambassador Sheffer only yesterday about the attempt to bring 
criminals to justice. I believe it is vitally important we do 
so, and as you know, sir, I believe that the indictments of war 
criminals are an important part of the policy.
    No area of U.N. activity has been more controversial than 
peacekeeping. I have written elsewhere quite bluntly about the 
serious problems that the U.N. and UNPROFOR confronted in 
Bosnia. The operation did save lives, but it was deeply flawed. 
We paid a portion of that price because we had no control over 
its activities, a fact which I do not think should be permitted 
to happen again. This mission failed to deal with the 
underlying causes of the war and almost destroyed the U.N. 
itself. And it took the NATO bombing, the Dayton peace 
agreement and the NATO-led peacekeeping force to save Bosnia in 
the way that you and Senator Biden and Senator Warner already 
mentioned.
    On the basis of that experience, put me down as a skeptic 
about some forms of U.N. peacekeeping, but not all. The U.N. 
has proved it can deliver the goods in some areas, do some 
good, deliver important successes from El Salvador to 
Mozambique and the former Yugoslav Republic of Macedonia. They 
have had partial success, at a minimum, in reducing tensions 
and stopping fighting in Cambodia and Cyprus. I will work 
closely with our allies on these issues to improve this 
critical function.
    Mr. Chairman, allow me now at the close of my statement to 
comment on the ethics issues which you referred to in your 
opening statement. Since joining the Foreign Service in 1962, I 
have been fully committed to public service, which has been the 
most challenging, rewarding part of my professional life. 
Indeed, for many of the last 37 years, it was my life.
    Like other public servants, I have been extremely sensitive 
to issues concerning ethics and possible conflicts of interest. 
Less than a year after I took up my post as Ambassador to 
Germany in the fall of 1993, Secretary Christopher asked me to 
return to Washington to serve as Assistant Secretary of State 
for European Affairs.
    I agreed, on the understanding that, for family reasons, I 
could stay only a year and would then have to return to New 
York City as a private citizen. I then delayed my departure 
from Washington for an additional 6 months because of the 
negotiations that culminated in the Dayton peace agreement and 
the end of the war in Bosnia. Eventually the time did come to 
leave, but the Secretary of State requested that I remain 
available to the State Department as an unpaid advisor.
    On February 21, 1996, I resigned as Assistant Secretary of 
State and began work as an investment banker for CS First 
Boston with both domestic and international responsibilities. 
At the same time, I became an advisor to the State Department 
on a pro bono basis. This created, as you have noted, a 
potentially complicated situation, but from the outset, I kept 
these two roles separate.
    I was well aware of the fact that I could not ask for 
assistance from any State Department official in regard to my 
business responsibilities. As a career Foreign Service officer, 
and a former Ambassador, I was especially careful not to take 
actions that would undermine the role of American Ambassadors.
    It was therefore common for me as a courtesy to inform 
Ambassadors when I would be traveling in their countries. They, 
in turn, sometimes asked me to meet with government officials 
or journalists in order to explain or promote American foreign 
policy goals, which I was honored and ready to do. 
Additionally, this was part of what I had been asked to do as 
an advisor to the State Department while visiting both East 
Asia and Europe.
    The issue later arose as to whether some of my contacts 
were inappropriate. I believe that these contacts were made in 
my role as an advisor to the State Department, and I so 
asserted in the settlement agreement with the Justice 
Department. For its part, the Justice Department did not allege 
a willful or intentional violation of the law. They found no 
evidence that the contacts in question resulted in financial 
gain to me or to CS First Boston. I settled with the Justice 
Department on a civil settlement in order for the confirmation 
process to move forward. Senator Biden's memory is correct of 
that conversation, and I had similar conversations with other 
Members of the Senate.
    In recent weeks, Mr. Chairman, members of the committee, I 
have reflected long and carefully on these issues, and on what 
caused the delay in scheduling this hearing since this delay 
was, as we have all said, not a fault or result or caused by 
this committee. I knew the law, and I was careful to follow it. 
But I think I did not realize how complicated it would be to 
avoid misperceptions in some areas at some times because of the 
two roles which were different. With regret, I must say that 
carelessness on occasion on my part contributed to these 
misperceptions.
    I recognize further that my recordkeeping and bookkeeping 
were inadequate at times. Hence, the several corrections and 
messages that I have submitted to the committee as I 
continually reviewed the thousands of pages of documents which 
have been turned over. I apologize to the committee and to your 
staff for any inconvenience this has caused you, but as you 
know, as all of you know, I have always turned over to both the 
executive branch and the legislative branch every document 
requested in rapid fashion, seeking to withhold nothing.
    Finally, I wish to assure you that I will pay even closer 
attention to these matters going forward in the future. I 
believe deeply in the need for the executive branch and 
Congress to work closely in the formulation of national 
security policy. If confirmed by the Senate, I look forward to 
continuing this close association.
    I appear before you today with gratitude for your patience 
and your understanding and the fairness with which you have 
treated me and a continued belief that there is no higher 
calling for an American than public service. Thank you, Mr. 
Chairman, and members of this committee, for your kind 
consideration.
    [The prepared statement of Mr. Holbrooke follows:]

            Prepared Statement of Hon. Richard C. Holbrooke

    Mr. Chairman, Senator Biden, members of the Committee: I am deeply 
honored and profoundly humbled to appear before you today. I would like 
to thank the President for nominating me, and for his support. Allow me 
also to thank you, Mr. Chairman, for the patience and fairness with 
which you and this Committee have treated me during the long delay 
since the President announced his intention to nominate me for the 
position of United States Permanent Representative to the United 
Nations. I particularly regret the reasons for the delay of the 
hearing. I am grateful for your consideration and courtesy during this 
protracted period, and for holding this hearing today.
    I wish especially to thank Senators Warner and Moynihan for 
presenting me to your Committee. That they both took time today to 
introduce me means more to me than I can say. I have long relied on the 
wisdom, encouragement and advice of these distinguished public 
servants, both of whom have held senior posts in the Executive Branch 
as well, one as Secretary of the Navy, the other as Ambassador to India 
and to the United Nations. Indeed, watching Ambassador, now Senator 
Moynihan, ``wage peace'' in the world he called a ``dangerous place,'' 
has helped shape my vision of both the great potential and possible 
pitfalls of the UN. I am also intensely grateful for the associations 
that I have had with many other members of this Committee, past and 
present.
    Those associations began in 1977, when this Committee first 
considered me for a senior position in the State Department, the first 
of three times that this Committee, and the full Senate, unanimously 
confirmed me for positions in the service of our nation. In the 
subsequent twenty-two years, I have testified repeatedly before this 
and many other Congressional committees, and have had countless 
informal discussions with members of Congress. I have always been 
committed to the principle that Congress must be consulted and involved 
fully throughout the policy process--that, in the words of the old 
adage, Congress should be in on the take-offs, not just the landings. 
Foreign policy cannot be formulated, let alone succeed, unless it is 
forged in a bipartisan spirit between the two branches. If confirmed by 
the Senate, I would consider myself responsible not only to the 
President and the Secretary of State for whom I work, but also to the 
Congress. I hope each of you would consider visiting the U.S. Mission 
in New York, where my door will always be open to you, the staff always 
available, and your advice always welcome.
    If it is agreeable to the Chairman, I would like to introduce 
members of my family who are here today. Unfortunately, my wife Kati 
Marton and her son, Christopher Jennings, cannot be here today because 
this hearing coincides with a trip to Colorado they make every year. 
But Kati looks forward to being here for the hearing on June 24. I am 
fortunate, however, to be joined today by so many other people who are 
close to me, starting with my pride and joy, my two sons, Anthony and 
David, and David's fiancee Sarah Bosch, my stepdaughter Elizabeth 
Jennings, and my brother-in-law Andrew Marton.
    I am especially pleased that my mother Trudi Kearl, my father-in-
law Endre Marton and my mother-in-law Ilona Marton are all here. Their 
remarkable stories mirror the drama of the century, and have given 
special personal meaning to my efforts as a public servant. My mother 
left Germany, along with her family, as soon as the Nazis took power, 
thanks to the farsightedness of my grandparents, who recognized 
instantly that Hitler meant what he had said about the Jews. My father 
and his mother, my grandmother, had fled Russia earlier when the 
Communists took over, and then left Europe altogether for much the same 
reasons as my mother's family. I only wish that my father, who died 
when I was in high school, could be here today.
    Allow me, Mr. Chairman, also to mention the extraordinary story of 
my parents-in-law, true heroes in the long struggle against Communism. 
Journalists for American wire services, they were both jailed by the 
Hungarian secret police as ``CIA agents'' in the mid-1950s. In October 
1956, Endre and Ilona Marton, now out of jail, were the last 
journalists in Budapest with access to the outside world as the Soviet 
Union crushed the Hungarian Freedom Fighters. It was Endre Marton who 
sent the famous last message to the West pleading for help as the 
Soviet tanks closed in. Then, after taking refuge in the American 
Embassy, they and their two small daughters--one of whom is now my 
wife--were smuggled out of Hungary by the American Embassy. Endre's 
last message from Budapest helped bring many people, including myself, 
into a new awareness of the evils of Communism, and was an important 
part of my own early political awareness.
    When I was a young boy, my parents often took me to see the great 
buildings of the new organization rising on the East River in New York, 
and my father talked to me of his dream that these buildings would be 
the most important in the world, that they would prevent future wars. 
My father did not live to see how far today's reality has deviated from 
those early dreams, how they dissolved in the face of the harsh 
realities of the Cold War, the frequent inability of the international 
community to forge a consensus when faced with crisis, and weaknesses 
inherent in the UN system itself.
    But I never forgot those initial visits and my father's noble 
dreams. I wish that he could have known that those early trips would 
somehow come full circle with your consideration of me for this post. 
For, despite its many shortcomings, the United Nations is still 
important to our national interests. Destroying it is not an option, 
and, in the long run, weakening it would hurt us. The goal that best 
serves our national interest, in my view, is to make the UN more 
effective, more responsive, and more efficient. I pledge to you that, 
if confirmed, I will make this issue--UN reform--my highest sustained 
priority, even while I deal with whatever immediate crisis demands 
attention.
    It would be a great honor to succeed Bill Richardson and Madeleine 
Albright in this post. These two great public servants worked hard on 
reform, and I shall try to live up to their high standards. I would 
also like to mention several other friends and treasured associates, 
some now gone, who have served in this position--my respected colleague 
Tom Pickering; my former boss, the late Henry Cabot Lodge, for whom I 
served as a staff assistant when he was Ambassador in Saigon; the late 
George Ball, with whom I worked closely; former President George Bush, 
who has always been gracious to me; Jeane Kirkpatrick; and my 
colleagues from the Carter Administration, Andrew Young and Don 
McHenry.
    Before moving to a more detailed discussion of the UN, I would like 
to take a minute to mention the chain of command in the Executive 
Branch. Although the job for which I am being considered today carries 
with it Cabinet rank, the person holding it should receive instructions 
from, and work for, the Secretary of State, the President's senior 
foreign policy advisor and spokesperson. This view, which I first 
expressed in writing over eighteen years ago, has never changed. In 
this regard, it is especially fortunate that I will work for Madeleine 
Albright, an old friend with whom I have worked closely during two 
Administrations and outside the government. In the last six years, she 
and I have stood shoulder to shoulder on such critical issues as 
Bosnia, NATO enlargement, and Kosovo, sharing our thoughts in private 
and advocating similar positions within the councils of government. I 
would be delighted that, if the Senate confirms me we may soon have the 
opportunity to deepen our collaboration.
    It is precisely because of our position in the world today that our 
relationship to the United Nations has changed and offers both 
challenges and opportunities. During the Cold War, most of the major 
strategic issues confronting us could not be dealt with inside the UN 
because of the Soviet veto and the virulent racist use which some 
nations made of the UN for their own propaganda purposes. President 
Reagan summed it up well on the fortieth anniversary of the UN, ``We 
acknowledge its successes: the decisive action during the Korean War, 
negotiation of the non-proliferation treaty, and the laudable 
achievements of the UNHCR. [But we] must not close our eyes to this 
organization's disappointments, its failures to deal with real security 
issues, the total inversion of morality in the infamous Zionism-is-
racism resolution, the politicization of too many agencies, [and] the 
misuse of too many resources.''
    Things are not quite so bleak today, although an enormous amount 
must still be done. With the Cold War over, we find that almost every 
major issue, from Kosovo to the many crises in Africa to East Timor to 
the Middle East, has an important UN component. In order to maintain 
our present position in the world, we need to make the UN system work 
for us, to achieve outcomes that are compatible with our goals and 
national interests. As a principal founding member and the 
organization's largest contributor, the United States has the right and 
the obligation to demand a more effective, focused, and disciplined UN.
    This is not easy, but it is far from impossible. It requires 
leadership, strength, and clarity of purpose. It also requires the 
resolution of the difficult set of issues that include arrears and 
reform. Thanks to the efforts of Chairman Helms and Senator Biden, we 
are now in a position to solve our arrears problem and advance our 
reform agenda at the UN. I want to affirm today my full support for the 
legislative package which the Committee and the Administration have 
agreed upon. If confirmed, I will do everything possible to get this 
important package of reforms fully implemented.
    For my part I plan to work hard to create a better relationship 
with the UN. This means: implementing legislation that resolves the 
arrears problem; achieving meaningful reforms in the UN system for a 
more streamlined, more effective organization; lowering the assessment 
rates for U.S. contributions; maintaining strict budget discipline; and 
strengthening the work of the UN in key areas of concern to the U.S.--
especially refugee and humanitarian assistance, promoting democracy and 
human rights, fighting international crime and narcotics, and, of 
course, peacekeeping.
    Of deep personal and professional interest to me, in part because 
of my family's history, is the role the UN plays in addressing the 
needs of refugees. On a personal note, I have served on the Board of 
the International Rescue Committee, and am currently Chair of Refugee 
International. My younger son, Anthony, is also a refugee worker, now 
here in Washington. These issues are, unfortunately, part of our world; 
as we have seen in Kosovo and the Sudan and elsewhere, they will not go 
away. The UN must play a central role in coordinating the many 
international actors involved during large humanitarian crises--such as 
that currently playing out in Kosovo. The UN also plays a key role in 
international efforts to combat AIDS and dramatic environmental 
degradation in Africa. Although I have not always been satisfied with 
what I have seen from Cambodia to Bosnia, I believe the answer is not 
to weaken the UN, but to insist on better performance. I care deeply 
about this issue, and will make it a personal priority. But large, 
expensive international conferences are not the answer. They have seen 
their day.
    The UN Security Council has also played an important role in 
advancing our security interests--from providing the authority to repel 
aggression in Korea in the 1950s, to aiding President Bush in his 
efforts to secure the Gulf War coalition. Perhaps less dramatic, but 
also of great importance, the UN plays a critical role in protecting 
human rights and advancing freedom and democracy. Over the years, the 
UN has kept pressure on countries such as Iran, Iraq, Burma, the Former 
Republic of Yugoslavia, Sudan, and Cuba to treat their citizens with 
the dignity and respect we sometimes take for granted, and has 
authorized the creation of the International War Crimes Tribunals for 
Yugoslavia and Rwanda, so important to our efforts.
    Another set of important issues to me is combating international 
crime and narcotics. At the UN a new, consolidated office with dynamic 
leadership has advanced global cooperation in combating such ills as 
heroin and cocaine production and trafficking. More can, and should, be 
done in this area.
    No area of UN activities has been more controversial than 
peacekeeping. I have written elsewhere quite bluntly about the serious 
problems with UNPROFOR in Bosnia, an operation that, while it saved 
lives, was deeply flawed from start to finish, cost over $5 million a 
day, failed to deal with the underlying causes of the war, and almost 
destroyed UN peacekeeping. It took NATO bombing, the Dayton Peace 
Agreement, and a NATO-led peacekeeping force to save Bosnia. On the 
basis of that experience, put me down as a skeptic about some forms of 
UN peacekeeping--but not all. The UN has proved that it can do 
peacekeeping right, delivering important successes from El Salvador and 
Mozambique to Eastern Slavonia and the Former Yugoslav Republic of 
Macedonia. In addition, the UN has delivered at least partial successes 
in Cambodia and Cyprus, bringing violence to an end in these tortured 
lands. I hope to work closely with our key allies and others in the UN 
to seek ways to build upon these successes and to improve this critical 
function.
    Let us recognize, however, that American leadership and influence 
are the tools necessary to advance our goals and interests at the UN. 
And, it is a fact that our leadership and influence have been weakened 
by the continuing crisis over our arrears. We are caught in a dangerous 
cycle: our ability to gain reforms is weakened by our failure to 
resolve the arrears issue, and the arrears issue cannot be resolved 
without progress on reforms. Together we must cut through this Gordian 
knot, and we must do it now. For my part, I will be fully committed to 
ensuring the success of legislation being worked out between the 
Congress and the Administration.
    Mr. Chairman, I fully recognize the immense challenges facing us at 
the United Nations. At the same time, I recognize that no challenge is 
too great, no problem too large, when American leadership is 
effectively applied. And therefore, Mr. Chairman, if confirmed, I look 
forward to working with you and this committee to ensure strong and 
active American leadership.
    Mr. Chairman, I welcome any questions that you and the other 
members of this Committee may have, and I thank you again for your 
courtesy and consideration.

    The Chairman. Thank you, Mr. Holbrooke. I believe we are 
getting somewhere.
    You understand as chairman of committees, sometimes we have 
unpleasant responsibilities. I have the responsibility of 
having you respond to a great many things that were given to us 
formally and informally, and I made a judgment myself if I were 
in your shoes, would want to take the oath. That is why I asked 
you to do it.
    Now, I suggest we try 10 minutes on the first round to see 
how we get along with the first one. Again, my questions are 
discussing your status as a special government employee while 
you were also working as a vice chairman for Credit Suisse 
First Boston. You touched on this, but let me understand if I 
understand exactly what you said. You told investigators that 
there was a seamless, s-e-a-m, transition for your job as 
Assistant Secretary of Government Affairs with that as a 
special government employee. Now, I would like for you to state 
for the record the exact date that you became a special 
government employee. If you want to be refreshed on that, we 
can delay the answer.
    Mr. Holbrooke. No; I can answer that immediately, Mr. 
Chairman. I appreciate your comment about taking the oath. I am 
happy to do that.
    I became, in my mind, and in the understanding of my 
colleagues of the Department, a special government employee on 
the day after I resigned as Assistant Secretary of State for 
European and Canadian Affairs.
    The Chairman. You are a little bit soft-spoken. If you 
would pull the mike a little bit closer to you.
    Was there any disagreement with your understanding of that 
relationship expressed by anybody?
    Mr. Holbrooke. Not at the time. The inspector general of 
the State Department quizzed me closely on this point because 
of an anomaly that they believe they had found, but that issue 
was completely resolved. Affidavits were submitted from 
Secretary Christopher and other senior officials of the U.S. 
Government saying that they treated me as a special government 
employee,--although they don't usually use that phrase, they 
call it senior advisor consultant--from the day after I left, 
on.
    The Chairman. Now, you told investigators, did you not, 
that your swearing in as a special government employee on 
February 21, 1996 was a mock swearing in while you were having 
a farewell party. Is that what you told them?
    Mr. Holbrooke. No, sir. What I said was, at 5:01 in the 
afternoon, during the party, we went into another room, and I 
took an oath as a senior advisor to the State Department. It 
was a light-hearted kind of atmosphere because in the other 
room people were saying good-bye, but there was nothing mock 
about it. I took it extremely seriously. There are eyewitnesses 
to it, many eyewitnesses, and everyone has the same memory, Mr. 
Chairman.
    The Chairman. I think you may know who gave us the 
information that I have just referred to. You may want to check 
with that individual, straighten out the record if he is 
willing to do so.
    In any event, what led you to believe that you were a 
special government employee immediately after resigning as 
Assistant Secretary of State?
    Mr. Holbrooke. I was so informed by my successor, 
Ambassador Kornblum, by his chief of staff, and by the Deputy 
Secretary. And they began consulting with me, asking me 
questions, asking my advice.
    The Chairman. I don't want to have a debate with you, sir, 
but the State Department in a letter dated to you February 21, 
1996, the day after you retired from the Department said your 
special appointment as a special government employee would 
begin only upon your completion of a financial disclosure 
report. Do you remember that letter?
    Mr. Holbrooke. Yes, sir.
    The Chairman. You submitted that report June 1996 after 
several members of the State Department requested that 
information. On July 15, 1996, you were officially sworn in to 
a 1-year position as an expert advisor to the Secretary on the 
Dayton Peace Accords in Bosnia, European policy concerns, end 
of quote.
    Now then, tell me again, why did you believe that you were 
a special government employee during the period between 
February 21, 1996 and July 15, 1996?
    Mr. Holbrooke. I believed it, Mr. Chairman, because I was 
informed that that was my status by everyone. The papers in 
question I was working very hard to fill out. They were 
extensive.In the meantime, I was being called on, on occasion 
for either advice, not too much in this initial period, but 
some advice, or to do other things on behalf of the U.S. 
Government.
    The Chairman. Who told you? Did Madeleine Albright tell you 
this?
    Mr. Holbrooke. No, sir. At that time she was at the United 
Nations.
    The Chairman. Did Mr. Christopher tell you that?
    Mr. Holbrooke. Mr. Christopher was aware of my status and 
communicated with me either directly or indirectly through his 
chief of staff, and through the Deputy Secretary and through 
the Assistant Secretary of State designate who was succeeding 
me. I believe that it was very widely known that I had this 
role.
    The Chairman. I want to impress a point. I know you 
understand that even as a special government employee, all 
contact between you and U.S. Ambassadors on matters related to 
your corporate interests was prohibited under these laws. You 
get a 1-year cooling off period. You knew that, didn't you?
    Mr. Holbrooke. Absolutely. I knew it. I respected it. As I 
said in my own statement, I respect that law and respectfully 
tried to fulfill it.
    The Chairman. Yet you considered yourself to be a special 
government employee as of February 21, 1996, and on May 20, 
1996 Time magazine published your article ``Back Stabbing in 
Bosnia,'' for which you were paid, I believe, $3,000. Now, the 
law, Mr. Holbrooke, prohibits all U.S. Government employees, 
including special government employees, from receiving 
compensation from any sort other than the government of 
teaching or speaking or writing relating to the employee's 
official duties.
    Now, if you believed yourself to be a special government 
employee for Bosnia when the article was published, why did you 
consider it legal or ethical to be paid by Time magazine?
    Mr. Holbrooke. Mr. Chairman, I did not consider myself a 
special government employee for Bosnia. I was told that I was 
to be a consultant on general European affairs, including 
Bosnia. The article was solicited by Time. I wrote it. It 
expressed my own personal views. It was based entirely on 
public information, and at the time that I wrote the article, I 
did not anticipate traveling to Bosnia.
    The Chairman. If you had to do it over again, would you do 
it? Would you write the article or take the money?
    Mr. Holbrooke. I believe that I should have consulted the 
chief ethics officer and asked him if I should or should not 
accept the honorarium. I would have then done whatever he told 
me to do in accordance with what the regulations meant.
    The Chairman. Well, I don't want to badger you. I didn't 
come here to do that. But we have had a lot of people writing 
to us, people who have been associated with you or worked with 
you, et cetera, and they have raised questions which we have 
looked into as best we can, and I discussed this. We did not 
want to be overbearing, but we thought that we owed it to the 
Senate and to you to raise a question so that you can explain.
    Now, from February 21 until July 15, 1996, either you were 
a private citizen and prohibited from all contact with any 
State Department official on matters relating to corporate 
interests, or you were a special advisor to the Secretary of 
Bosnia and, therefore, prohibited from being reimbursed on 
writing or speaking on matters.
    One last thing. I need to know which law you think you 
violated. He is not here to hear you.
    Mr. Holbrooke. I deeply regret that. I had the honor of 
having a good conversation with him. The message did not come 
out.
    Mr. Chairman, as numerous affidavits submitted to your 
committee made clear, I considered myself a consultant to the 
State Department and was so considered by other people. My 
successor, for example, gave your committee an affidavit that 
stated that, ``on February 21, 1996, I was present at a 
ceremony at which Holbrooke was sworn in as a special advisor 
to the Secretary of State, European matters. It does not 
mention Bosnia. I also received and signed certain papers 
during that ceremony. I was considering that Holbrooke became a 
special advisor as of February 21, 1996.''
    The Chairman. Bosnia is in Europe, is it not? One quick 
question. In the months following your retirement from the 
State Department, you embarked on a number of business trips, 
including an extended tour of Central Europe, Korea, and three 
trips within 8 months to Sweden, and the CSFB paid for the cost 
of travels to these countries?
    Mr. Holbrooke. Yes.
    The Chairman. Let me quote what you told the investigators. 
``Permit me a brief explanation of how I function. I don't 
normally go in to solicit specific transactions. I go in to 
talk to people, and on a particular trip I might see the head 
of the Central Bank or Minister of Finance or the Prime 
Minister.'' Would it be fair to say that CSFB may have 
benefited by your merely talking to these senior leaders?
    Mr. Holbrooke. Mr. Chairman, I do not believe that to be 
the case. The business that the CSFB was involved in and these 
meetings were not related.
    The Chairman. I am going to yield to Senator Biden.
    Senator Biden. Thank you, Mr. Chairman. Because the ethics 
laws are complicated, I think they are complicated, and because 
you are in a complicated position of being a former employee, 
still an unpaid employee, but paid by an investment bank to 
your primary job, the technicality of the rules cuts both ways. 
It can cut in a way that hurts, or it can cut in a way that 
helps your position.
    And I want to state to the chairman of the committee at the 
outset, the reason this is not going to merely be on my part 
point, counterpoint but I am not taking issue with the chairman 
to take issue but to further expand on each of the issues that 
are raised to see whether or not the context clarifies or 
muddles the issue.
    Let me begin with your special employee status. From our--
from the record, and from the committee's investigation, 
Secretary Christopher on February 21, when you were resigning 
and being sworn in at the same time, one room and another room, 
said that from that moment on, he--he thought the weeks and 
months after your departure that he may have had contacts with 
you. He was aware of these continuing contacts with the State 
Department. Talbott said from February 21 on that he relied 
upon Holbrooke for advice regarding significant foreign policy 
matters. I am quoting, ``I regularly benefit from Holbrooke's 
counsel and assistance on issues including Bosnia and NATO and 
other matters in late February 1996 and thereafter,'' et 
cetera.
    Now here, here is the problem. I mean, people sit home and 
you watch this and wonder what's this all about. The issue, if 
I can frame it, is, you technically weren't an employee until 
you filled out your financial forms and an agency within an 
agency said, OK, he can be a special employee. Technically, 
that's what the law says. But practically, from the day you had 
your party saying good-bye there was nothing that stopped. 
Nothing stopped in terms of the consultation of you by everyone 
from Kornblum to Talbott and others in the Department, and so 
the real issue here is did you technically violate? What did 
you think? Were you supposed to think when they were calling 
you, well, I am really not a special envoy, even though they 
called me to ask me to go see someone or to make some comment 
or give some advice. That technically I am not an employee 
until I get these forms filled out. That is really what we are 
talking about here because the only significance is if, in 
fact, you were not a special employee during that period, and 
if you saw an Ambassador, there would be no rationale for you 
seeing an Ambassador, it is implied, other than for you seeking 
help with that Ambassador for your company when, in fact, you 
have seen an Ambassador or any other government official was 
the purpose, you thought, you are arguing during that period of 
fulfilling your responsibility as a special employee, an unpaid 
employee, is that right?
    Mr. Holbrooke. Senator Biden, I never sought any business 
advantage for myself or my firm.
    Senator Biden. I understand. The reason it is confusing to 
the audience I think if they don't know the minutiae of the 
law, and what is the significance of whether or not you were an 
official employee on July 15 or February 21.
    Mr. Holbrooke. I understand--I never sought any business 
advantage, whatever my status, and no person interviewed by the 
inspector general made such an allegation.
    Senator Biden. I understand that.
    Mr. Holbrooke. On your question, I was responding to 
requests by the U.S. Government, the State Department and 
elsewhere. I believe that that was the right thing to do. I 
believed I was doing it as an advisor. You have the affidavits 
that support that contention. I did what the government asked 
and----
    Senator Biden. Not having been a member of the State 
Department and no longer practicing law, let me try to convert 
this to the way people in Wilmington, Delaware, understand it. 
You took a trip, for example, to Slovakia, to carry a message 
to the President of Slovakia during this interim period between 
February 21 and July 15. Now, that trip wasn't paid for by the 
Federal Government, was it?
    Mr. Holbrooke. No, sir.
    Senator Biden. So a reasonable person looking at it on its 
face might say, wait a minute, now, this guy wasn't a special 
envoy. First Boston paid his ticket, so what the heck is he 
doing talking to the President of Slovakia. It must be because 
he is doing it for business reasons.
    Now, the fact is you didn't go there for the purpose of 
seeing the President on your behalf or on the behalf of First 
Boston. You were asked by the U.S. Government to go.
    Now, the point the chairman is making is a legitimate one. 
If you weren't an employee, an unpaid employee of the 
government, then you say wait a minute, what the hell were you 
doing there? It must be for your personal reasons. But that is 
not why you were there, so this issue of whether you were 
officially a special, whatever the heck it is called, special 
employee of the government, whether that occurred on February 
25 or on July 15, whatever the relative dates are is for 
purposes of whether or not you did anything wrong, in my view, 
I would argue is irrelevant. You were asked by the Federal 
Government, the Government of the United States, to go in a 
capacity of representing the government, even though probably 
Kornblum and Talbott and the Secretary of State didn't know at 
that point you had not completed your financial disclosure 
forms, and so you officially weren't there. The only point I am 
trying to make here is the context of these things is 
important.
    It goes to motive. It goes to whether or not you were going 
to do your job for the American Government or you were going to 
Slovakia in this case to do your job for First Boston. It seems 
to me clear you were going to do the job for the American 
Government.
    Now, the second point I would make to you is this Time 
magazine article. This is how things cut both ways. It may not 
have been wise for you not to consult the ethics gurus at the 
State Department, although I am not sure how they clarify 
things very often, having spent a lot of time with the ethics 
gurus at the Justice Department, but even if, as you say, you 
considered yourself a special government employee, the article 
in question doesn't violate the rule because the rule applied 
to you in a quite narrow way, and let's--this is the minutiae I 
am talking about. It bars ``speeches or article for money if 
written, if the writing deals in significant part,'' that is 
the quote, ``or particular matters involving specific parties 
in which the employee has participated or is participating 
personally and substantially.'' By the standard of our own 
technical rules, regardless of whether you were a special 
employee or not, you did not violate the rule.
    This writing about Dayton was a general piece. It was not 
about particular matters involving specific parties; rather it 
was a general piece under which this narrow rule that applied 
to you is permissible.
    Now, I am just trying to point out how this can catch you 
or not catch you. I don't--I doubt whether you sat there and 
thought about the rule when you wrote the article. Maybe you 
did. But I wouldn't have. And said if I write this article is 
this a particular matter of how specific parties participated.
    The reason why the Justice Department said, hey, he didn't 
do anything wrong is because the particular rule, whether you 
know it or not, you particularly satisfied. And--but it shows 
to me how this gets very, very, very complicated, and, as we 
used to say in law school, it emphasizes form over substance.
    Now, the--this notion in the opening statement which is a 
legitimate point to make that you disregarded, simply 
disregarded written advice by the legal advisor from the State 
Department, I want to make it clear what we are talking about 
here. The only advice that you disregarded that I am aware of 
involved the guy sitting behind you who had a crack at Cyprus, 
too, and he is your lawyer. He has been your friend for how 
many years?
    Mr. Holbrooke. Twenty.
    Senator Biden. Twenty years. And the issue is whether or 
not Dick Beattie should have been involved in any way with you 
in any legal matters where you sought his legal counsel, and in 
particular, in negotiating your employment contract with First 
Boston. The record contains a memo to you dated December 20, 
1995 suggesting that you should not use Beattie, then the 
Presidential envoy to Cyprus, but also your long-time lawyer, 
to negotiate any employment or book contracts. The memo was 
written by Thessin, a deputy legal advisor at State.
    Thessin wrote that ``because Beattie was a subordinate of 
Holbrooke and Holbrooke intended to, and because you intended 
to concentrate on Cyprus during your final days in office, he 
believed it would not be prudent,'' end of quote, to use him 
for negotiations for your contract. You didn't take the advice. 
You used him to negotiate your employment contract.
    And the reason you didn't follow the advice from my 
understanding from the record is that he had been a long time 
attorney and personal friend and you considered this a personal 
matter. Moreover as a Presidential envoy, Mr. Beattie, although 
you gave him personal policy guidance, he worked directly for 
the President, not for you.
    So to the best of my knowledge, the only State Department 
or advice coming from anyone in the Justice or legal department 
of either the State or Justice that you disregarded, I think 
you disregarded without violating any law, but you did 
disregard it. You said, I want Beattie. He may be special envoy 
to Cyprus. I may still be doing this. You say it is not 
prudent. No one tells me it is not illegal, I want Beattie. He 
has been my lawyer for 20 years. Is that an accurate assessment 
of the relationship?
    Mr. Holbrooke. Yes, sir. ``Would not be prudent'' is not an 
instruction not to do it. I discussed this issue with Mr. 
Beattie after I received the memo. I never viewed him to be, 
and I am sure he never viewed himself, as my subordinate.
    Senator Biden. He still doesn't.
    Mr. Holbrooke. He was a Presidential emissary for Cyprus, 
and we worked together on the issue. Moreover, he was to be 
compensated by First Boston and not by me. I respect Mr. 
Thiessen enormously as the ethics advisor of the State 
Department, and I followed the other parts of the advice in 
that memo to the letter. But when he said it would not be 
prudent, I think everyone in the State Department understands 
that that is not a formal ruling and Mr. Beattie had been my 
lawyer, and as I said, we discussed this.
    Senator Biden. My time is up. I thank the chairman.
    The Chairman. I think I will give you advance notice that I 
have in hand a copy of the eyes only memorandum of December 20 
written to you by James H. Thiessen, and I am going to comment 
on that later.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Ambassador Holbrooke, the committee has received a memo 
that states the background of the ethics questions that have 
been raised. Chronologically, it indicates that when the 
President announced his plans to nominate you back on June 18, 
1998, events proceeded until July 8, 1998, when apparently a 
letter from an anonymous source arrived at the State Department 
alleging that you had violated Federal conflict of interest 
statutes. This apparently was the genesis of the investigation 
which proceeded for 8 months by the Office of the Inspector 
General of the State Department and the Justice Department.
    I am curious, just from your observation of that process, 
whether you have any idea what would have caused 8 months of 
investigations to ensue at that point. A letter was received, 
apparently from an anonymous source; can you give us any clues 
from your standpoint on what took 8 months to look into?
    Mr. Holbrooke. Thank you, Senator Lugar, for that question. 
I was not, of course, aware of the anonymous letter at the 
time, but once I was aware of it, I can say and I think this is 
fully confirmed, that the specific charges in that letter were 
disproved, and that is quite clear.
    Senator Lugar. How rapidly was that the case? When were 
things approved?
    Mr. Holbrooke. It is difficult for me to answer the larger 
part of your question. Why the process took as long as it did 
is a question I think is more appropriately addressed to those 
people who conducted the investigation. They did their job and 
it is over. It wasn't the most fun I have ever had in my life, 
but I cooperated fully with it, as I intend to cooperate fully 
with this committee, and the cause of the length of time is 
something you have to ask them.
    Senator Lugar. Was the letter itself so voluminous that it 
contains a raft of allegations each of which would call for 
exclusive interviews with individuals? What I am trying to 
ascertain is how did this anonymous letter from apparently 
someone who didn't like you blossom into a monumental issue 
involving thousands of pages?
    Mr. Holbrooke. Again, Senator, the question needs to be 
more promptly addressed to the inspector general. The 
investigation went far beyond the charges in that letter.
    Senator Lugar. Well, I suspect that, and this is not the 
appropriate time to do that because we are hearing your 
statement today and your testimony. I am simply curious as to 
what in the world goes on over in the OIG office of the State 
Department. I think that really is a subject of substantial 
inquiry of public interest.
    It simply appears to me, having now witnessed this sort of 
thing, that our country is not being well served when we cannot 
have an Ambassador to the U.N. for a year simply because 
bureaucrats at the State Department, all feeling they are doing 
their duty, are indulging themselves and making work for 
themselves in this process.
    Now, I say this because you finally have come to the 
conclusion of this when the settlement comes on February 9. 
Essentially the agreement asserts that the communication did 
not result in any financial gain to Holbrooke or his firm.
    The agreement also states your actions might have been in 
the United States national interest. As a matter of fact, after 
all these millions of pages have been addressed, you come down 
to the fact that you made a contact with the South Korean 
Ambassador who invited you to an opening in which CS First 
Boston's first branch was opening in Seoul, Korea. We finally 
get down to South Korea.
    We come down to what happened with Ambassador Laney at the 
branch opening or what didn't happen. In essence, the agreement 
states that the United States has not alleged that there was a 
willful violation nor did it result in financial gains. As I 
recall, Ambassador Laney has already given his side of the 
story, that he did not feel importuned by the process, no 
matter whose office may have been investigating this. You may 
finally come up at this point with an interesting colloquy in 
dealing with South Korean affairs.
    Admittedly, Senator Biden has developed that the Time 
magazine honoraria, in terms of subject matter and duty, that 
these are questions of judgment which are fair game for 
inquiring to date. But the agreement that you signed finally 
says that you asserted at all times you were acting as a 
special government employee, and therefore it was appropriate 
to communicate with State Department and embassy personnel.
    I suspect that is probably right. A normal American looking 
at all of this would say you have been sent out to these places 
as a troubleshooter. I think arguably the best negotiator this 
administration has. It is clear that you probably would want to 
talk to some of these people and if you didn't want to talk to 
them, they sure wanted to talk to you. This would require a 
monitoring of your phone lines to keep out all the people from 
the State Department, from the private sector, from the press, 
from everybody who would want to talk to you continuously 
throughout all of these missions to Cyprus or Bosnia, or 
wherever you were. These were high-risk missions in terms of 
your diplomatic representation and this is a reason why too 
many people weren't asked to take them. You were being asked to 
take them.
    In the midst of all of this, somebody who doesn't like you 
very much is suggesting that, given this pause of a year, and 
this special representation situation, you exercised bad 
judgment, that you made some contacts which you should not have 
made. That is, I suppose, a fair question on which all of us 
must make judgment, as we all will, in voting for you or not 
voting for you. But I just simply want to use this as a 
colloquy in which I have done most of the talking to indicate 
that it is important to me as a matter of public interest what 
goes on in the OIG business.
    We have had some problems in trying to confirm a Director 
of the CIA. It ended up with committee members walking on eggs 
for fear we were going to offend someone there working through 
a George Tenet's nomination. We needed a Director of the CIA. 
That is what the country needed. As a matter of fact, he was 
absolutely clean. But the country did not have the service of 
this individual for a period of time because of these 
procedures. Something is occurring here in our government that 
is not good. Your nomination brings it to the front in my 
judgment.
    Having said that, my own view of you is that you are an 
extraordinary diplomat. Your service to the country has been 
remarkable. I wish that in all cases that you had used 
impeccable judgment but I know of no person in our government 
who ever has. I suspect in this particular instance that you 
have had to prove more than most of us ever will, and in my 
judgment, you have done so very well, so I will support your 
nomination.
    I am delighted that you are here and that you have survived 
the process to date. I appreciate the chairman's calling the 
hearing because it gives us an opportunity to have some clean 
air and water on the whole process, and I hope you will be 
successful.
    Mr. Holbrooke. Thank you very much, Senator Lugar, for 
those kind remarks. I would just like to make one brief 
technical comment. I appreciate your comments on my general 
service because, during these three and a half years, I was 
carrying out whatever was requested of me. As you pointed out, 
these missions weren't a lot of fun and they involved danger, 
and, at least in one case, getting shot at last year in Kosovo. 
But there is one technical point I'd like to clarify, and that 
is the ribbon cutting in Seoul. I did not ask Ambassador Laney 
to go to that ribbon cutting ceremony. He is a great 
Ambassador, and I have great admiration for him. As the person 
who headed the Seoul office of First Boston noted in an 
affidavit, ``I was arranging a ribbon cutting ceremony at a 
CSFB branch in Korea to be held in May 9th. In connection with 
this ceremony, I contacted the U.S. Embassy and did so entirely 
on my own and having done so entirely on my own. Ambassador 
Holbrooke did not suggest or request that I contact the 
Embassy. I was responsible for making all the arrangements 
concerning the ribbon cutting ceremony, including those 
relating to Ambassador Laney's participation.'' Thank you.
    Senator Lugar. Thank you.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. I am 
pleased to welcome Dick Holbrooke before the committee. I have 
read through all of this material and have thought about it. It 
seems to me if we are not careful we are going to get to the 
point where we lose an important asset, I think Dick Holbrooke 
is an important asset and am concerned we might discover we 
can't use him on behalf of the national interests of our 
country. Obviously what happened here is, you left full-time 
government employment, but there were many people in the 
government who thought that you had the knowledge and an 
expertise that they wanted to continue to draw upon. Let me be 
clear on a couple of things. I can't find evidence anywhere 
that in any of these meetings or contacts you discussed the 
private corporate business you were engaged in. Is that 
correct?
    Mr. Holbrooke. That's correct.
    Senator Sarbanes. I have looked through the record and 
don't see any instance of anyone saying this meeting was 
arranged with some government official of some country and 
Holbrooke used it as an opportunity to push his private 
company. I can't find that anywhere. I have looked for it 
pretty carefully.
    Let me just follow this Korean issue for a moment. How long 
have you known Kim Young Sam, the President of Korea?
    Mr. Holbrooke. I first met Kim Young Sam in 1978 when I was 
at the State Department, and he was a private citizen in Korea.
    Senator Sarbanes. And were you at that time the Assistant 
Secretary for the area?
    Mr. Holbrooke. Yes, sir.
    Senator Sarbanes. As I understand it, part of your job was 
to ensure his safety, is that correct?
    Mr. Holbrooke. Yes, sir. He was in great danger during that 
period. I was working hard to promote democracy in Korea and 
elsewhere, and he was in danger of being jailed. I played a 
supporting role in the policies under both the Carter and 
Reagan administrations that evolved Korea's democracy and led 
to his becoming President.
    Senator Sarbanes. Ambassador Laney says, in this affidavit 
he gave, that you were, `` well-known to Koreans as a former 
Assistant Secretary of State for East Asia and Pacific Affairs, 
who had played an important role in U.S.-Korean relations at a 
difficult period during the late 1970's. In particular, he had 
been instrumental in formulating policies to help protect 
several leading dissidents in Korea from either jail or death. 
One of them we assisted was President Kim Young Sam of Korea. 
Ambassador Holbrooke's trip,'' this was your trip out to Korea, 
``provided the embassy with an unusual opportunity. He would 
make a major speech at the Asia Society--the first any American 
official had made in Asia concerning the new European policy; 
he could discuss European policy with senior Korean officials; 
he could discuss Korean and German unification; and all of this 
would show the Koreans that we considered them an important 
ally of the United States.''
    Now, you didn't need Laney to arrange a meeting with Kim 
Young Sam. Actually you could have arranged a meeting yourself. 
I mean, you had a previous long-standing relationship with him. 
Is that correct?
    Mr. Holbrooke. Yes, sir.
    Senator Sarbanes. Well, I make that point because Winston 
Lord, who was then the Assistant Secretary of State for the 
region, said that he discussed with you, ``the importance of 
communicating the evolving policies of the U.S. in Europe to 
leaders in Asia. Ambassador Holbrooke and I agreed that it 
would be especially useful for him to communicate such policy 
to Asians because he is a former Assistant Secretary for East 
Asian and Pacific Affairs himself. He was very well-known in 
the region. This was particularly true in Korea because of his 
long and intimate involvement there, including his personal 
relationship with President Kim Young Sam.''
    Winston Lord goes on to say, ``as a former Ambassador, I 
believe strongly that if Ambassador Holbrooke had visited an 
important leader in Asia without involving the American 
Ambassador to the country in question, it would have been 
improper as well as potentially damaging to the interests of 
the U.S. and the position of that Ambassador. In my view, the 
most appropriate way to arrange such a meeting would be to 
allow the Ambassador to arrange it directly--if he chose to--so 
that it would reflect most favorably on that Ambassador's role 
as the focal point of all significant contacts with senior 
officials.'' In fact, when you communicated with the 
Ambassador, you asked if he thought it was appropriate to 
arrange a meeting. So it raises a possibility that if you had 
ignored the Ambassador, it in effect would have undercut his 
position with the Government of Korea, and with this newly 
elected President, for whose protection you had fought for some 
20 years earlier.
    This thing is getting incredibly involved and complicated, 
but in such a way that we are not really able to do what is 
obvious. Your visit to Korea was important. The embassy sought 
to use it to further their purposes and the interests of the 
country. In fact, had you not at least offered to work through 
the embassy channels, it would have severely undercut the 
Ambassador in his position in the country.
    Now, I think it is very important for that to be 
understood. I could go through a similar exercise with respect 
to Swedish allegations that exist.
    Now, I can't understand why it took so long to run through 
all of this. When the inspector general got an anonymous 
letter, was that letter then furnished to you by the inspector 
general?
    Mr. Holbrooke. May I just check with counsel? It was not.
    Senator Sarbanes. Well, that was my understanding. That 
gives me a great deal of concern. It seems to me that you 
should have been furnished with these allegations. There wasn't 
a name at the bottom of the letter. I have read the letter. I 
don't think the person would have been identified by the 
concept of the letter. The notion that these charges or 
allegations come floating over and the person against whom they 
are made isn't even furnished the allegations, is something I 
can't understand. Unless you let them do it anonymously, you 
won't receive a copy. In other words it is kind of the 
whistleblower argument. Even that gives me some pause. But 
nevertheless, it seems to me that at a minimum, the content of 
what the person was alleging against you should have been 
furnished to you. Otherwise, you are dealing with some cloud 
out there that you can't get your hands on.
    Now, I don't understand why the inspector general took so 
long. Apparently, they went all over the place. I don't know 
whether the further matters they investigated were sort of 
engendered by the inspector general or whether there were 
further allegations against you. This thing grew into a full-
time occupation for them. Meanwhile, you are held up. We can't 
get your nomination here at the committee. I think the 
committee has moved in a reasonable fashion since we received 
the nomination.
    We received it in February of this year. Since the IG has 
done all of this, we have had to do a certain amount. Here we 
are having the hearing in June and hopefully, this will 
conclude the matter. I think you have rendered over the course 
of your career a terrific service to our Nation.
    I don't think people of this talent ought to simply be 
thrown on a scrap heap, and I very much hope you will work 
through this process in a conscientious and thorough way over 
the next few days so that we may move this nomination forward.
    I think our country's interests are being hurt by not 
having a Permanent Representative at the United Nations. It is 
an extremely important position. There are issues before the 
U.N. that are of very pressing concern for the country, and we 
need to have a Permanent Representative there. You would bring 
confidence, ability and experience to that position, which I 
think would serve the country well.
    Thank you very much.
    Mr. Holbrooke. Mr. Chairman, may I very briefly, first of 
all, thank you, Senator. Two quick points. In regard to the 
anonymous letter, you asked if we received it from the State 
Department. The answer is no, as I said earlier. But the person 
who wrote it, or somebody else, did give it out to several 
journalists, in an effort to further whatever their motives 
were. One of those journalists did give it to us. So after 
about 2 or 3 months, we had a sense of what was in it.
    Senator Sarbanes. Mr. Chairman, that just only makes that 
point so much stronger. Here is this anonymous letter that 
comes in and starts an IG investigation. The IG doesn't forward 
the letter to the person whom the allegations are against. They 
then give it to the press, who I presume came at you to ask 
about the content of the letter. That is no way to do business 
and is not a fair process.
    Mr. Holbrooke. May I make one more----
    The Chairman. Certainly.
    Mr. Holbrooke. I just wanted to make one more comment about 
Korea, Mr. Chairman, in response to Senator Sarbanes' comment. 
If I could just quote from Ambassador Laney's affidavit, his 
statement, which is available to your committee.
    ``If Ambassador Holbrooke had arranged such a meeting, that 
is with President Kim, without my participation, it would have 
been a serious breach in protocol, given his continued role as 
advisor to the State Department and his special stature, both 
of which were known to me personally. Ambassador Holbrooke's 
trip to Seoul was helpful and useful and contributed 
significantly to U.S. and Korean relations.
    ``Holbrooke stressed to me that he needed to keep his 
government-related activities and his other activities entirely 
separate and went out of his way to do so, refusing to use, for 
example, any official embassy vehicles during his visit. At no 
time did he ask, did he do anything or ask me anything that I 
consider either conflict of interest or request made on behalf 
of any person on behalf of the U.S. Government. I am grateful 
for him making this part of this trip. It was helpful.''
    The Chairman. Senator Grams.
    Senator Grams. Mr. Chairman, I am pleased that we are 
proceeding with the nomination of Richard Holbrooke to be the 
Ambassador to the United Nations. I think we are all aware of 
the importance of having that post filled and the fact that we 
can be voting this week on the U.N. reform package as part of 
the State Department reform recognizing the need for us to have 
an Ambassador.
    If Mr. Holbrooke effectively addresses the concerns of this 
committee, I hope his nomination will be placed on the agenda 
the next business meeting June 30. I am certainly going to have 
a longer statement and questions later on for Mr. Holbrooke 
that will be at our hearing at U.N. reform, however, given back 
the questions my colleagues have, I want to yield back the 
remainder of my time.
    The Chairman. Senator Torricelli.
    Senator Torricelli. Mr. Chairman, I'd first like to thank 
you for conducting this hearing procedure in this matter and 
doing so and the serious nature of which this hearing has been 
held. I should, however, in candor tell you that I more rightly 
should have appeared with Senator Warner and Senator Moynihan 
than here in the position of asking questions.
    I have known Mr. Holbrooke for more than 20 years. As a 
young assistant to Walter Mondale, I traveled with Mr. 
Holbrooke around the world and I saw it even when he was a 
young man the extraordinary talents he brought to this 
government.
    It is, Mr. Chairman, I think now fair to conclude that on 
the basis of the investigations of the last year, Mr. Holbrooke 
is now potentially the most investigated member of the 
executive branch of this government. And on the basis of 
thousands of hours of investigation and the expenditures of 
hundreds of thousands of dollars, we now know that Mr. 
Holbrooke cut a ribbon in Korea, wrote a thoughtful article for 
Time magazine, and traveled throughout Europe for the benefit 
of a private firm having paid some of his expenses while he was 
in furtherance of the interests of the U.S. Government.
    I think it is fair that we should thank him for his service 
in Korea in cutting the ribbon, commend to our colleagues that 
they read the article, and express some gratitude to Credit 
Suisse for paying expenses which more rightfully were owed by 
the taxpayers.
    I think, Mr. Chairman, that like Mr. Lugar, I am left with 
the impression that we are missing the real measure of 
character in this government. The character of an individual 
that is necessary to be in service to the U.S. Government is 
not measured by seeking the most narrow interpretation of 
regulations against an endless search for any facts that might 
in their most extreme interpretation be seen at variance.
    Mr. Holbrooke, through his career, has more than proven his 
character. He is in that unique position of an individual who 
can actually look at his life and see wars that were not 
fought, villages that were not destroyed, and people who are 
alive because of his service. He has lived a most remarkable 
life.
    It strains credibility to believe that a man who could have 
done so much in the private pursuit of his interests has 
forgone such potential income because of his devotion to this 
government, would have written an article, cut a ribbon, or 
engaged in these few trips for any private benefit.
    I have been, throughout my life, very proud to know Mr. 
Holbrooke as a friend. It has been to the detriment of this 
government through the last year that Mr. Holbrooke has not 
been fully available to the President of the United States and 
the Congress of the United States at the United Nations.
    This government needs Mr. Holbrooke in the United Nations 
far more than Mr. Holbrooke needs to be at the United Nations. 
I am grateful, Mr. Chairman, that you held this hearing because 
it is inexplicable at a time when the United States faces such 
perils from the DMZ in Korea to resolving items in the Balkans 
to a changing nature of our relationship with Russia and China 
that Mr. Holbrooke is not in service to this government.
    I have expressed, Mr. Chairman, to you privately as I have 
publicly my belief to the foreign policy team of the President 
of the United States with matters in the Balkans coming to some 
resolve at least temporarily that that team needs 
strengthening.
    There is no one in this country, Democrat or Republican, 
who I believe would bring more strength to that foreign policy 
team than Mr. Holbrooke. I don't know, I am the most junior 
member of this committee, whether it is of any value, Mr. 
Chairman. I simply want to add that if it is of some help to 
offer testimony to the character, to the service of Mr. 
Holbrooke, I want you to know I know him as well as anyone in 
this government. You will not find someone of better character.
    I also, Mr. Chairman, want you to know that I privately 
have asked him very simply because I share the chairman's views 
on several issues regarding the United Nations, I believe the 
United States has not paid its fair share of the United Nations 
dues through the years. I believe we have paid our share and 
other people's shares. I believe the United Nations has not 
been run efficiently. I believe it does require reform. I 
believe in seeing someone in the United Nations for 
opportunities to save money and be sure it is accountable and 
be sure this Nation is adequately represented. I believe Mr. 
Holbrooke is sensitive to how that money is spent. I believe 
you will never find a stronger personality or a better leader 
to implement those reforms.
    Finally, Mr. Chairman, I want to leave the committee with 
this if I could. I, like Mr. Sarbanes, am very troubled by the 
fact that this government has been without this representation 
and this man has endured this investigation based on an 
anonymous letter. I believe that every department of this 
government has a file in which anonymous letters should be 
filed. It is round, and it is emptied every day.
    We have whistleblower statutes to protect people who make 
allegations but people who have serious allegations should have 
the courage to put their names with them. Finally, I want to 
just ask Mr. Holbrooke a single question which I know he 
answers under oath and on the record which comes to the central 
question of measuring character. And that is simply this. In 
all of this travel, Mr. Holbrooke, in all of these meetings, 
did in any way or your firm ever gain privately by this travel 
or this representation for the reimbursements they were making 
for travel, for the bills that they paid, when you otherwise 
were in the pursuit of the business of the United States 
Government? This comes down really to a single question.
    In the performance of your public responsibilities, was 
there ever in any shape, manner, or form, private gain?
    Mr. Holbrooke. No, sir.
    Senator Torricelli. It seems to me, Mr. Holbrooke, given 
the service you have done to this country for which we are all 
very grateful, the extraordinary character I believe you bring 
to public life, that is the only essential question. No one can 
doubt your abilities to perform this responsibility or the 
needs of the U.S. Government to have you in these 
responsibilities. That, therefore, Mr. Holbrooke is the only 
question that I want to leave with the committee.
    Mr. Chairman, thank you for the benefit of the time.
    The Chairman. Thank you very much.
    Senator Boxer.
    Senator Boxer. Mr. Chairman, I am sorry I had to leave. The 
women of the Senate held a press conference about Social 
Security reform. I am very happy to be back here. I will be 
quite brief. I would ask unanimous consent that my full 
statement be placed in the record, Mr. Chairman.
    The Chairman. Without objection.
    [The prepared statement of Senator Boxer follows:]

              Prepared Statement of Senator Barbara Boxer

    Thank you Mr. Chairman and Senator Biden for holding this hearing 
today.
    I want to welcome Mr. Holbrooke and thank him for appearing before 
this committee today. I, for one, appreciate the patience and fortitude 
you have shown over the past few months and am glad you could join us 
this morning.
    It is so important that we have someone with your stature, your 
experience, and your knowledge of international affairs representing 
U.S. interests in the United Nations.
    This nation owes you a debt of gratitude for your selfless devotion 
and public service to this nation over the course of your career. Let 
me just name a few of the positions you have held over the past four 
decades.
    After joining the Foreign Service in 1962, Mr. Holbrooke was a 
delegation member to the Paris Peace Talks on Vietnam. He later served 
as Peace Corps Director in Morocco, Assistant Secretary of State for 
East Asian and Pacific Affairs, Assistant Secretary for European and 
Canadian Affairs, U.S. Ambassador to Germany and as a Special Envoy to 
both Cyprus and Kosovo.
    And, of course, everyone knows of the key role Mr. Holbrooke played 
in ending the hostilities in Bosnia through the Dayton Peace Accords.
    He has represented American interests throughout the world, and 
this experience will serve him well as U.N. Ambassador.
    Because of his service to this country, Mr. Holbrooke has received 
countless awards. Among these are the Humanitarian of the Year Award 
from the American Jewish Congress and the Distinguished Statesman Award 
from the Anti-Defamation League.
    Mr. Holbrooke, you have been recognized by these and countless 
other organizations for your service and I wanted to add my name to 
those who appreciate your hard work on behalf of the United States.
    Mr. Holbrooke also brings his personal experiences to this 
position. Last June, when he accepted the U.N. nomination, Mr. 
Holbrooke spoke about how when he was eight years old, his father took 
him to the newly constructed buildings of the United Nations.
    His father told him how those buildings would become the most 
important in the world and prevent future wars.
    I'm sure that Mr. Holbrooke's late father would be proud to see his 
capable son representing the United States in those very same 
buildings.
    I do want to say that I have reviewed the matters investigated by 
the State Department Inspector General and the Justice Department and 
am satisfied with their conclusion that Mr. Holbrooke did not engage in 
a willful violation of the law, and that neither he nor his firm 
benefitted from his actions. To that end, I will hold off on any 
questions until the next two hearings dealing with the U.N. and Balkan 
policy.
    Thank you again for appearing before this committee and your 
willingness to continue to serve this country.
    Thank you Mr. Chairman.

    Senator Boxer. I want to echo what Senator Biden said about 
the fact that you had your reasons why you couldn't schedule 
this and the fact that you have called a hearing now is 
something that I am most grateful for. I totally respect your 
views on this matter, and I want to go into explaining why I 
respect them. Although I do come to a different conclusion on 
this particular nominee, I think you raise important questions 
that go beyond this nominee, and I want to address that for a 
moment. After first saying that Mr. Holbrooke, I was extremely 
moved by your statement. I feel that in many ways this 
opportunity for you is in some ways fated, given your 
background, the opportunity to give once again to your country 
in this way in this particular institution that means so much 
to you in terms of its potential, and that I do believe if we 
are able to move this confirmation through, I think you will be 
outstanding because I think you will work--this is my belief, 
tirelessly to move it in the right direction.
    I also want to thank you for what you have done for your 
country. Many people would bypass the opportunity fraught with 
in many ways danger, certainly didn't enhance overall your 
ability to earn funds in the private sector, and I want to pick 
up on the ethics issue in this way, Mr. Chairman, and I am 
saying it more for you in a way.
    For a long time, Members of the Senate and House were able 
to take honoraria, until we voted not to do it any more. And 
the rules on that said you could take up to $20,000 a year, and 
we took that honoraria, most of us, not all of us and we gave a 
speech. It was a bad system we have actually gotten rid of.
    The reason I am bringing it up is this. There was something 
in that rule that said the Senator or Congressperson had to 
look at that and if there was a direct personal way you would 
gain, if there was any other connection, you had to make that 
call. The point is whether it is a cooling off period or the 
law bank the outside payment, their laws, I support. They are 
in some ways vague, and I think the case in point here is a man 
with a tremendous amount of experience, writes an article, I 
think he is right. He should have gone to the ethics people and 
he should have lived by what they said. He made a mistake on 
that. His call was it wasn't a conflict.
    The Ethics Committee may or may not have agreed with him. 
The fact is there is room for this gray area so I think 
sometimes it is a problem in interpretation of these laws, and 
a good person can decide that they are obeying the cooling off 
period and another person could interpret another way. That is 
why I think when we just banned honoraria, it was the way to 
go. I think it is simpler, it is clearer. And so what I want to 
say is I believe this is a good man that is appearing before us 
today. I believe this is a man of honor. I believe he has 
stated in retrospect he could have gotten a little more 
guidance. And I hope that for the good of the country, indeed 
for the good of the world, Mr. Chairman, we will move along 
expeditiously.
    If some people feel that it is a matter of principle that 
they can't go along with this, I respect that, but I would hope 
that the vast majority would. I think that Mr. Holbrooke has 
now some months ahead of him. The months are dwindling as the 
days go by, but I think he will make the most of that time and 
again, I really want to thank you because as Senator Biden has 
said, we have seen you say no before. We know what that is, and 
what you are saying now is maybe, and we appreciate it because 
we think this nominee is worthy and we are ready to fight for 
him.
    Thank you very much.
    The Chairman. Thank you, Senator, for a very eloquent 
statement, as have been the others. Let me clear up two or 
three points.
    One, this hearing was prompted by an anonymous letter. That 
certainly is not true. I don't--I have not seen an anonymous 
letter. I have seen the inspector general's statement. I also 
have read the law. I am not a lawyer and I am honest about 
that, no doubt, I had staff put specific boards up so that you 
can be prompted by them. It is all right to say that well, you 
know, everybody does it. Didn't mean to do it. But the most 
important thing the witness has said this morning, the most 
important thing that the nominee has said this morning is that 
he made some mistakes.
    I believe if that had been the case, there would have been 
no hearing, but I have heard from people in the government, 
responsible people, not necessarily people who love you or 
don't like you. I am not trying to make a judgment on that. And 
I agree that you have served with distinction, certainly with 
sincerity, but I also believe that it is apparent that you have 
violated the law several times, and I believe that justified 
this hearing.
    Now, this hearing was not prompted by, upon pressure from 
anyone. We decided sometime back that maybe the record ought to 
be made clear, and we are in the process of doing that. I read 
in the paper this morning that three Senators had pressed me to 
the point that I could not refuse to schedule this hearing. 
Well, I don't know any Senator who has pressed me to take 
anything but a wet noodle, but their representatives are going 
to get whatever publicity they can get back home having some 
effect. I don't know if they have had any effect here this 
morning, but maybe they have had somewhere else.
    Let me pursue what we were talking about before. One of the 
key trips that the State Department investigators reviewed, 
this was not an anonymous letter. You traveled from April 28 to 
May 12 from Hungary, Bosnia, France, Great Britain and Korea.
    Now, you are an employee of the bank, CSFB paid $5,000 and 
some for the air fare. Are those figures correct?
    Mr. Holbrooke. If that is what we submitted, I accept them, 
Mr. Chairman.
    The Chairman. They are not subject to being argumentative, 
right? Did your employer, CSFB schedule a meeting?
    Mr. Holbrooke. They scheduled some of the meetings. Yes, 
sir.
    The Chairman. Which ones did they not schedule?
    Mr. Holbrooke. I cannot recollect.
    The Chairman. They did not schedule some of them by your 
own statement?
    Mr. Holbrooke. I cannot recollect each meeting and who set 
up each meeting, Mr. Chairman.
    The Chairman. Look, I am trying to help you, sir.
    Mr. Holbrooke. I understand.
    The Chairman. Now, the truth of the matter is, and whether 
it is a terrible violation or not, it is not our judgment, but 
you did use Ambassadors. You had friendships with them 
obviously, and Joe, I expect that I have known a few 
Ambassadors in my life and I believe that when I leave this 
job, I might call on an Ambassador. But the point is that at 
worst, the laws involved that were not adhered to.
    Now, I take it that a representative of the bank indicated 
to you regarding whom you should meet in these countries, did 
that not happen? Yes. I am trying to establish that this 
business did not hurt the bank. It helped it, right?
    Mr. Holbrooke. First Boston suggested and set up some 
meetings for me. They did not ask me to set up meetings through 
American officials.
    The Chairman. Well, I am sure of that. But I am not saying 
that is an unforeseen conclusion. If you were in Bosnia April 
30, 1996, I believe you met with the Prime Minister, the 
Governor of the National Bank, Minister of Economy and Minister 
of Communications. And you told the folks who were 
investigating long before I knew anything about the 
investigation going on that CSFB representatives scheduled your 
meeting with the Prime Minister as a courtesy call on your 
first trip to Europe, that's correct, right?
    Mr. Holbrooke. I stand by what I told the inspectors.
    The Chairman. And when you met with the Prime Minister, 
laying groundwork for future business or were you there on 
behalf of the U.S. Government?
    Mr. Holbrooke. The meeting with the Prime Minister in 
Slovakia was set up by First Boston. As Senator Sarbanes 
already mentioned, there was a negotiation of the treaty and 
there was the overriding issue of NATO enlargement plus Bosnia. 
I had seen the Prime Minister in Hungary without any First 
Boston people present. In fact, you have a memorandum available 
to you in which I specifically rejected an attempt by First 
Boston employees to join that meeting in order to emphasize 
that there would not be, and could not be, any business 
connection to that meeting. In Slovakia, the meeting had been 
set up directly by CSFB. The Hungarian Prime Minister had given 
me a message concerning rather sensitive matters to deliver to 
the Slovakian leader. The Ambassador was new, and I wrote him. 
You have his reply in the files. He obtained permission to join 
this meeting because he felt it would be in the national 
interests and received appropriate approval to do so.
    The Chairman. The question would be why would you have bank 
members present in matters unrelated to bank business? Which 
was it?
    Mr. Holbrooke. They set up the meeting. We gave the 
Ambassador the option to attend.
    The Chairman. Who is they?
    Mr. Holbrooke. In Bratislava, the CSFB person set up the 
meeting but I knew, for the same reasons that Ambassador Laney 
addressed in his affidavit, it would have been genuinely 
deleterious to the stature of this Ambassador who was new, and 
to the national interests, if I were to carry communications 
between the Hungarian Prime Minister and the Slovakian 
leadership without an Ambassador present. I gave the Ambassador 
the option of participating in the meeting which we had set up. 
And it is my understanding, and I believe you have the 
documents, that he then consulted Washington and got approval 
to attend the meeting. I believe that it can be fairly stated 
that this meeting contributed significantly to the ultimate 
resolution of one of the most explosive issues in Central 
Europe, the status of the Hungarian minority in Slovakia and 
advanced our national interests.
    The Chairman. I think what I am trying to emphasize is that 
I can understand all of these things being fully in and the 
inspector general saying we better look at it because this is 
not common practice diplomatically. You want to say something?
    Mr. Holbrooke. May I add one more thing, Mr. Chairman? We 
did not discuss business in the meeting which you are 
addressing, although it is true that a First Boston person or, 
if my memory is correct there may have been two people, were in 
the room because they set up the meeting.That was because I had 
a strict rule, that rule being to obey the law, the law being 
the law we are here to discuss, that we did not discuss 
business in that meeting.
    The Chairman. About the trip to South Korea, and I have 
been there and I have done that, but you had a number of 
contacts with the Korean Government. You wrote the U.S. 
Ambassador in Korea that you would be in the country and may I 
join you in meeting the Korean President. Is that correct?
    Mr. Holbrooke. Yes.
    The Chairman. In addition you corresponded with the U.S. 
Ambassador to develop a guest list. He is a friend of yours. 
You have known him years and years. I understand. But I am 
trying to point out, emphasize for people who may come after 
you that either the law should be changed, or it should be 
obeyed. That is the point I am trying to make. Now, just prior 
to this trip, you also entertained a number of senior State 
Department officials here in Washington. That's correct, isn't 
it?
    Mr. Holbrooke. Yes, sir.
    The Chairman. And one documented expense to your employer, 
the CSFB, in April 1996 you met with then-Assistant Secretary 
of State for East Asia and Pacific Affairs, a good guy who I 
have known, namely Winston Lord. Now, your expense account for 
the bank, signed by you, identified you-- identified the 
meeting as Asian company. That is for the record.
    Mr. Holbrooke. Mr. Chairman, I am a little bit unclear. Are 
we talking about a meeting I had with Ambassador Lord?
    The Chairman. Just prior to the trip you also entertained a 
number of State Department senior officials, in Washington. I 
have got this here in print. This is leading up to the question 
would CSFB pay the bill for entertaining Ambassador Lord if 
expenses were not business-related?
    Mr. Holbrooke. Ambassador Lord and I have been friends for 
a very long time and it was not a business-related meeting. It 
was old friends, social, discussing things that I might 
undertake for him if I were in the region, but it was primarily 
social.
    The Chairman. Nonetheless, the bank paid the billing for 
entertaining.
    Mr. Holbrooke. The bank paid the bill for a meeting for 
entertaining? Is this a meeting that Ambassador Lord was at? I 
do not have a memory of that exact event.
    The Chairman. He was there. I to wish I had been there.
    Senator Biden. Mr. Chairman, are you talking about the 
larger luncheon? Are you talking about a specific meeting with 
Lord? He was with Lord and a number of other people, correct? I 
am just trying to clarify. I see I can't help you. Sorry about 
that.
    The Chairman. The same expense account used specifically, 
deducted those expenses that you discovered were not business-
related. I wonder about the distinction.
    Mr. Holbrooke. I apologize, Mr. Chairman. Please forgive me 
if my memory is incomplete here but I do not believe that 
Ambassador Lord was at the meetings we are discussing. If that 
is an error, I apologize to you. I believe my conversations 
with Lord were in another venue at another time, and were not 
anything expensed to First Boston. If the record shows 
differently, I apologize. May I just consult with counsel for 
one moment?
    The Chairman. Certainly. Certainly. That is why we are 
here.
    Mr. Holbrooke. My counsel informs me that Ambassador Lord 
was not at any of the meals I expensed that were discussed in 
the IG's report, which was also my memory.
    The Chairman. Well, I am talking about the events in 
various places which were paid for by the bank. Sweden, two 
dinners for which the bank paid the bill and on May 29 the U.S. 
Ambassador and others at Erik's Restaurant, I hope that is a 
good steakhouse, your expense account indicated it cost your 
bank $760.92. The bank paid this bill, and it is fair to assume 
that business affairs were discussed.
    Mr. Holbrooke. No, sir. That was not a business meal. This 
is the first time I have been asked about this particular 
dinner, so I hope you will forgive me if my memory is 
incomplete. But my memory is--did you say May 29?
    The Chairman. Yes, sir.
    Mr. Holbrooke. That was my first wedding anniversary.
    The Chairman. We will strike that one.
    Mr. Holbrooke. My wife was----
    The Chairman. All right.
    I assume that you did what she told you. Is the Government 
of Sweden a client of your bank?
    Mr. Holbrooke. The Government of Sweden is a client of my 
bank, the London branch of the bank. It has been so for about 
10 years.
    The Chairman. That is what I understand. On a May 1996 trip 
to Sweden, your assistant at CSFB sent a letter to the 
political officer at the Embassy in Sweden requesting CSFB 
representatives be permitted to attend your meeting with the 
Swedish Undersecretary. The American Ambassador scheduled CSFB 
participation at the meeting.
    All of this was fed into the inspector general. You had 
such a difficult time with those. But you have gone a long way 
with me, sir, at the opening statement that you acknowledge 
that you did things that maybe ought not to have been done. 
Maybe as much as anything else, we are saying to government 
employees, other officials, look at the law and make sure you 
understand what it is. Mr. Biden.
    Senator Biden. Thank you, Mr. Chairman. I am just going to 
make one comment. I think that first of all, we have been 
extremely fair. Second, I think what is sort of coming up here 
is a lot of us, and we got here, I got here in 1973 as one of 
those reformers to reform the ethics in government. I think the 
conclusion a lot of us are coming to is, I am not sure we did 
it the right way. And Senator Sarbanes said it in a more 
articulate fashion. Senator Lugar said it. Let me put this in, 
what I try to do and I realize this may be somewhat homely. But 
I kind of look at this, what is this all about?
    Let me get for the record something straight that has 
confused my mother who is smarter than I am if she is home 
watching this. I mean this sincerely. I am not joking about it. 
Anybody watching this maybe wouldn't know what we know, is that 
if you had gone straight to the President of Korea, straight to 
the Prime Minister of Sweden, straight to any of the people 
that you went to in the past, you would not have violated any 
law under any circumstance for any reason. That is No. 1.
    No. 2, the trouble that is raised by the inspector general, 
and the Senator is correct, all the stuff that was voluntary is 
now strict, and you have got to follow it, is the way the law 
is.
    The Chairman. Sometimes they overreach, too.
    Senator Biden. Sometimes they overreach. And what caused 
any problem here is that it was a government official. I am 
going to say for the record, you are the only guy other than 
possibly George Shultz, Warren Christopher, Henry Kissinger, 
that the presence of an Ambassador demeans your stature. I mean 
that sincerely. I am not joking about that.
    If I wanted to do business for a company in Bosnia to 
reconstruct it, Joe Biden, because of my involvement in Bosnia, 
and because of my relationship with President **Izetbegovic, I 
do not need the Ambassador. I do not need the President. I do 
not need anybody. I pick up the phone and phone as a former 
Senator, Mr. Izetbegovic, I guarantee he will see me. I 
guarantee he will help me if he can. I pick up the phone and 
call Mr. Barak, he will see me. I do not need an Ambassador to 
set that appointment up. As a former Senator, I do not need an 
appointment.
    George Schultz picks up the phone and calls whoever is the 
one in active control in Saudi Arabia, he does not need an 
Ambassador to help him. Now, a lot of second-rate folks coming 
out of the operation need an Ambassador to set up an 
appointment for them. You do not need anybody. And so the irony 
of all ironies here is--the press has missed it, we have all 
missed it--is that the very rule this was set up for was for 
people who needed the Federal Government to intervene on their 
behalf to have some clout with someone abroad. The last thing 
you needed, if the President of Korea, South Korea would not 
have seen you, I would have been dumbfounded, and if he had a 
choice where it was ethically within his power in Korea to help 
you working for First Boston or someone working for Morgan 
Stanley and he did not help you, it would violate any rule of 
human nature that I understand.
    So this is kind of preposterous when you put it in context. 
The last person that needed anyone in Europe, especially brand-
new, spanking-new Ambassadors who didn't even get to meet the 
Presidents of these countries anyway. Some of these guys did 
not even know the people you were meeting.
    Every time I go into a country where I have dealt a lot 
with people, particularly in Europe, the new Ambassador said 
can you take me along to introduce me? I do not need them. And 
the last guy in the world, I can imagine, and I will conclude 
with this. If and when you decide to leave the Senate, Mr. 
Chairman, if you represented anyone who had business in Taiwan, 
if you need anybody in the Federal Government to get you an 
appointment with anybody in the Taiwanese Government, I would 
be dumbfounded. All anyone could do, including the Secretary of 
State of the United States of America if they accompanied you, 
is diminish your clout. And I mean that sincerely. I am not 
joking. I am not joking.
    And so the irony of all ironies here is you are getting 
ripped from pillar to post after having made a couple million 
bucks for taking $3,000 from Time magazine. I love to see 
people take money from the press. I think that is wonderful. I 
love that. And even the reporters kind of like that. They like 
that stingy management giving up money.
    But beyond that, I mean, you needed that like you needed 
another hole in your head, and the second thing is, all of 
these meetings. Why would you want, if I were the chairman of 
the board of First Boston and I found out some little dip 
working for me wrote a letter to say accompany Holbrooke to a 
meeting, I would fire the kid because obviously you are not 
helping me. You are not helping me. And I would be a little bit 
disturbed with you if every time you showed up, you showed up 
with an Ambassador. Because I want to tell you something: if 
you could not get an audience for your company on any matters 
relating to South Korea, when the guy whose life you helped 
save who probably knows you personally better than any other 
foreign official he knows and feels he is indebted to you, if 
you could not get it done alone in a room with him, legally, 
and it would all be legal to do it that way, you sure in hell 
would not have it enhanced by having an Ambassador.
    So I think it is important the American public understands. 
This is what I mean about the minutiae of these rules. They are 
intended to capture second-rate people--second rate; wrong 
phrase. Second-level people who on their own have no specific 
influence, who in the past have tried to use the organs of the 
Federal Government to give them stature and influence to 
benefit their companies.
    This is the exact opposite thing here. You could get an 
appointment with the editors, with the chairman, with the 
ownership of every publication represented at that table before 
any one of those guys at that table could get it. They are 
smiling, but they know it is true. They know it is true. You 
have more swack with their management than they do, the same 
way you have more swack with foreign leaders than any of the 
Ambassadors that you talked to.
    I think it is kind of important that we kind of cut all 
this aside and get right down to it. What was the rule about? 
The rule is about not using the Federal Government to benefit 
you. And so we prohibit it. We put up a wall between the former 
employee and the Government officials. The irony is you can 
leapfrog that wall. You do not need any of them. You do not 
need any of them.
    Which is also part of your problem, I might add. Because 
sometimes you realize you do not need any of them. And one of 
the things I suspect, look, you are not a shrinking violet--
like me.
    You are someone who is accustomed to being effective and I 
think some of your ``mistakes'' were an intuitive knowledge of 
everything I just said to be the case. And my guess is, knowing 
you as long as I have, and I doubt whether you have ever had 
any, I will be presumptuous to say I am your friend, but a good 
acquaintance that is never been more blunt with you than I have 
privately and publicly. But I think the extent to which you 
made a mistake, it was a mistake borne, like for example people 
kept saying, I hope he comes here and he is apologetic. Because 
everybody kind of expected you to kind of come here and say in 
your heart I think you think: What the hell is this all about?
    Part of the reason you think that, I suspect, is rational. 
Because you know you did not need anybody that you contacted in 
the Federal Government to do anything to promote you 
financially or your company. And I suspect you wonder how come 
other people do not understand that, and I suspect you know 
enough to know you cannot say that. But that is the naked truth 
the press and the people should understand. Any potential 
conflict that arose as a consequence of involving a Federal 
Government official in dealing with any foreign government, 
power or individual, was totally unnecessary if your purpose 
was to make money for the company you worked for.
    You did not need them. You do not need them. You engaged 
them because you thought you were doing the right thing. I 
realize that I am putting words in your mouth, but as advice to 
you from a good friend, I will let you let me do it and not 
comment, because I think this is kind of crazy.
    I think the Senator is right. I can picture as each of 
these pieces come in, investigators, bright, serious people 
doing their job, sit down there and saying we want to look at 
all of this and do it all. But the bottom line is, maybe I have 
been a trial lawyer too long, the bottom line is what I would 
say to the jury if this were a jury trial is. Hey, keep your 
eye on the ball here. The question is, was there any motive on 
the part of this individual in any meeting he had with any 
government official that involved an American official, to 
enhance his prospects to make a deal for his company? And the 
answer to that is no, unless you are very stupid, which you are 
not, because you did not need any of them. I will lay you 8 to 
5 every meeting you went to they said hello Dick, hello Mr. 
Ambassador, and by the way, who is the guy you are with and he 
may have been one of our finest Ambassadors. They did not want 
to see him.
    It is the same way when we travel. Ambassadors do an 
incredible job. They are often overlooked, and they are often 
undercut by us as well, but I do not know any country where I 
go into where an Ambassador says I don't have time to go with 
you. They usually say oh God, he is here. I better go, find out 
what he is saying. And maybe by the way he can introduce me to 
somebody I do not know. That is only because I have been in 
there 27 years. You are there because of the significant 
personal relationships and substantive issues you have engaged 
these people on over the years, so I understand how we got 
here. I hope we leave here pretty quickly, and I hope we get on 
to the other point because to conclude, you did not need any 
Ambassador, anybody in the State Department, anybody at all, 
any more than George Schultz needs anybody, Warren Christopher 
needs anybody, or anyone of foreign policy significance needs 
anyone to get to the leaders of countries that they engaged 
when they were engaging in their official capacity.
    And ironically, had you done it that way, had you done it 
that way, and bypassed these guys, even though you were doing 
American business, America's business, there would have been 
nobody able to write any letters with any question about 
whether or not you are benefiting each other. The problem is 
whoever wrote that letter is obviously small-time and does not 
understand the deal, and obviously is not going to be hired by 
First Boston or anybody else when they leave because they sure 
as hell do not know how it works. I yield back to you, Mr. 
Chairman.
    The Chairman. You have an option to take your family to 
lunch or listen to comments by Senators.
    Senator Boxer. I do not have any comment.
    Mr. Holbrooke. Mr. Chairman, it is really your option, sir. 
I am at your disposal and I am prepared to continue, especially 
if my mother can hold out and wait for lunch a little bit.
    The Chairman. I have no further questions, except the few 
that I will submit for the record. And I want to keep the 
record open so that the Senators who are not able to be here 
this morning if they wish can file some questions. I would be 
remiss if I did not ask you if you have anything further to 
say.
    Mr. Holbrooke. Thank you, Mr. Chairman. I would like to 
make a very brief closing statement. First, thank you again for 
holding the hearing. To reiterate again for the record--I 
cannot say it often enough because some of my associates in the 
executive branch misspoke--that none of the delay was caused by 
this committee or this branch of government. Finally, if I may, 
Mr. Chairman, just pick up on the theme that you and your 
colleagues and Senator Biden have just echoed.
    Senator Biden has made a very important point which I did 
not really make adequately. And that was that my sole purpose 
in associating with an American Ambassador in regard to a 
meeting with the head of government of a country was to assist 
the Ambassador. Senator Biden's description of Ambassadors is 
quite accurate. Since I had no intention of discussing business 
in these meetings because these were meetings on policy issues, 
and since I have been an Ambassador and have seen people 
diminish Ambassadors, I invited the Ambassadors because I felt 
we need to build them up. I revere the Foreign Service. I 
revere the government, and I revere the appointed and confirmed 
representatives of our Nation. Ambassadors speak not for the 
Secretary of State and not for the President; they speak for 
the Nation after they have been confirmed by your committee.
    First Boston never gained from any of these meetings. On 
the contrary, as information we have submitted to you shows, 
and there is a lot more, they were not happy with such things 
because I had told them that I would not discuss business in 
such meetings. They all knew that.
    One last point, sir. I would like to come back to your very 
first question, and the spirit in which you raised it. I 
believe strongly that all those who serve in Federal 
Government, elected or appointed, confirmed or not, must 
maintain and respect the public trust. That is what we are all 
here for. That was the spirit in which I and you and the other 
people in this high bench entered public service, as elected or 
appointed officials.
    We have to be incredibly careful about ethical matters. I 
thought I was. I tried to do that. Questions arose because of 
the immense complexities which your questions have so clearly 
raised. But as I said, I may not have been careful enough about 
the appearances, and perhaps some anonymous letter writer, 
somebody else not in the direct flow of contact with me 
misunderstood. But no one that I am aware of with whom I dealt 
directly ever has contradicted what we are talking about here.
    I do not believe that I violated a law or any regulations, 
but I should have been more sensitive, much more sensitive to 
the appearances, even though I did not use official cars, as 
two embassies have stated. People maybe misunderstood. I should 
have been more sensitive to that impression or appearance. I 
assure you that this will be the case going forward--if you 
confirm me as a public servant, who would remain available to 
answer requests of his Government.
    But I thank you again for your kindness, and I want to 
repeat my respect not only for the Senate but for this 
particular committee. This is the one that I first testified 
before 23 years ago, and I am honored to appear before you 
today as chairman. I am glad I can now extend the string from 
Senator Sparkman to you, sir.
    The Chairman. Thank you, sir. Subject to the Judiciary 
Committee's schedule, we are scheduled to hold at least two 
more hearings on your nomination. On Tuesday, June 22 at 2 
p.m., the committee will focus on United Nations reform, and on 
Tuesday, June 24 at 10 a.m., the committee will examine U.S. 
policy in the Balkans. It is a difficult time in a difficult 
world. And if there be no further business, we will stand in 
recess.
    [Whereupon, at 1 p.m., the committee adjourned, to 
reconvene at 2 p.m., June 22, 1999.]



THE NOMINATION OF HON. RICHARD C. HOLBROOKE TO SERVE AS U.S. AMBASSADOR 
                         TO THE UNITED NATIONS

                              ----------                              


                         TUESDAY, JUNE 22, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:20 p.m., in 
room SH-216, Hart Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Lugar, Hagel, Grams, Biden, 
Sarbanes, Dodd, Feingold, Wellstone, and Boxer.

   OPENING STATEMENT OF JESSE HELMS, U.S. SENATOR FROM NORTH 
                            CAROLINA

    The Chairman. The committee will come to order. We have had 
a busy day on the floor, and some Senators are not as rapid as 
Mrs. Boxer and I are. We ran all the way, didn't we. That is 
not the biggest story I will tell all day. I have got a little 
cart out there that I ride in.
    Senator Biden. Your cart is quicker than my legs.
    The Chairman. I would say to Mr. Holbrooke that this is the 
second of the Foreign Relations Committee's hearings regarding 
your nomination. I expect you are already aware of that. I 
hope, indeed I expect we can come to an agreement today about 
your precise plans regarding your tenure at the United Nations 
if and when you are confirmed to represent our country as a 
member of that dysfunctional institution.
    But before you testify, the committee has asked Mr. Jim 
Johnson--and Mr. Johnson, if you will come and take a seat at 
the table. Mr. Johnson is from the General Accounting Office, 
and I think he has a presentation that all of us will consider 
important.
    We are grateful to him for coming, and I am going to try 
to--and these gentlemen here are to make a presentation so that 
those of us who serve on this committee can be better informed 
about the current state of reform at the United Nations. Then 
we will turn to Mr. Holbrooke.
    Now, Senator Biden and I had a discussion on the floor 
today about the United Nations and some of the things that have 
got to happen before I am going to be satisfied with anything 
payable in the arrearages.
    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Senator Jesse Helms

    Mr. Holbrooke, this is the second of the Foreign Relations 
Committee's hearings regarding your nomination to assume the important 
responsibilities of U.S. Ambassador to the United Nations, and as a 
member of the President's Cabinet.
    I hope--indeed, I expect--that we can come to agreement today about 
your precise plans regarding your tenure at the United Nations, if you 
are confirmed to represent our country as a member of that 
dysfunctional institution.
    Before you testify, however, the Committee has asked Mr. Jim 
Johnson of the General Accounting Office (GAO) to make an important 
presentation, so that those of us who serve on this committee can be 
better informed about the current state of reform at the United 
Nations. Then, we will turn to you, Mr. Holbrooke.
    Now then, Mr. Holbrooke, at the outset, let's examine a few 
specific issues we expect you to address today:
    There's been a lot of talk to the effect that Congress need not 
impose reform ``benchmarks'' on the United Nations because Kofi Annan 
has already implemented most of the reforms that the Congress was 
asking for.
    Unfortunately, nothing could be further from the truth. One of Mr. 
Annan's pledges was that he would adopt negative growth budgets. Yet, 
this past December, the United Nations approved a budget for the years 
2000-2001 that exceeds the current 1998-1999 budget by $13 million. Now 
I was amazed to learn that, while the United States representative at 
those negotiations, Ambassador Sklar, called that growth budget a 
``disgrace,'' he failed to exercise the U.S. prerogative to refuse 
consensus on that budget. In other words, the United States could have 
blocked it, but chose not to.
    Mr. Holbrooke, I ask your assurance today that, under your 
leadership, such a fiasco will not be repeated, and that the United 
States will never give consensus to any growth budget at the United 
Nations without seeking and receiving in advance the approval of this 
committee.
    Another reform myth centers on the so-called ``elimination'' of 
almost 1,000 U.N. posts. Now that sounds impressive, and the average 
American would presume that, thanks to the Secretary General's efforts, 
there are now 1,000 fewer people working at the United Nations. Well, 
the presumption would be wrong.
    Most of those 1,000 U.N. posts were eliminated only on paper 
because they were vacant positions. In fact, there are more people on 
the payroll at the United Nations today than before this so-called 
reform. Only in the U.N.'s Orwellian doublespeak can 1,000 ``posts'' be 
eliminated, and yet have more people on the United Nations payroll than 
before the cuts. The facts are: (1) not one single U.N. function was 
eliminated in the Secretary General's so-called consolidation, and (2) 
there are now more senior-level U.N. positions than existed the day 
Kofi Annan took office.
    We will hear more from GAO in a moment, but my point is this: Left 
to its own devices, the U.N. is incapable of reforming itself. Only 
pressure from Congress, and the withholding of the hundreds of millions 
of American taxpayer's dollars, has up to now had any impact on the 
U.N. And only conditioning payment of the U.S. arrears on real and 
concrete reform benchmarks will ensure that those reforms are 
implemented.
    Now, before I turn to our first witness, I have one other matter I 
must address with Mr. Holbrooke--and that is the effort at the United 
Nations to create a permanent International Criminal Court, with the 
authority to indict and try American citizens. I cannot overly 
emphasize the depth of my concern, and that of other Senators, about 
this proposed court.
    In part because of Senate concerns, the administration last summer 
refused to sign the Rome Treaty creating the court. But the delegates 
in Rome not only moved forward with the court, but gave it jurisdiction 
to try American citizens, regardless of whether the United States 
signed, and the U.S. Senate ratified, the Rome Treaty.
    Now I know that there are some in this administration who still 
hold out the hope that this Court can be ``fixed'' and that the United 
States can sign up to the court. And this summer in New York the 
delegates will be meeting again, and they are still hoping to convince 
the United States to join them.
    I am not opposed to the ad hoc war crimes tribunals, created 
through the Security Council (such as the Yugoslav tribunal which 
recently indicted Slobodan Milosevic). But the Rome Treaty is 
irreparably flawed.
    A permanent tribunal such as this, where an independent prosecutor 
is given almost unlimited powers, and where the United States has no 
veto power to stop a politicized prosecution of American servicemen or 
officials, is quite flat out unacceptable.
    Mr. Holbrooke, may I have your firm commitment today that, as U.S. 
Representative to the United Nations, you will do everything in your 
power to oppose the establishment of the permanent International 
Criminal Court? Some of the Court's advocates have suggested we adopt a 
policy of ``benign neglect.'' To the contrary, the United States must 
do everything it can to prevent this court from ever--EVER!--coming 
into existence or being given any legitimacy whatsoever.
    With that, I look forward to your testimony.

    The Chairman. Now, let us proceed with Mr. Johnson and Mr. 
Miyabara.

 OPENING STATEMENT OF JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Mr. Chairman, if I may, I have a very brief 
opening statement, and I apologize. The old joke used to be, I 
am from the Federal Government, I am here to help you. Now it 
is, I am from the GAO and I am here to help you.
    But thank you both for being here. You perform an 
incredible service to the Congress, but I just want to welcome 
Ambassador Holbrooke back. I listened to his statement last 
Thursday with great interest and I was, of course, gratified to 
hear that if he is confirmed, implementing the U.N. arrearages 
and reform package will be one of his highest priorities.
    I might say to the Ambassador that the chairman just pulled 
off another feat, and I mean this seriously. It does not happen 
often. We had the State Department authorization bill on the 
floor, which usually attracts every contentious amendment there 
is in the U.S. Senate at the time. It is kind of like the 
Defense authorization bill.
    And I must say the final vote had only one dissenting vote, 
and one of the important parts of that authorization bill was 
the implementation of the reforms that the chairman is 
insisting upon that the Secretary of State has agreed to, and 
that I support, along with, essentially, full funding of our--
essentially, I say, full funding of our arrearages to the 
United Nations.
    So I am looking forward to hearing from you, Mr. 
Ambassador, on how you will deal with what I suspect is going 
to be laid out here as some of the problems in terms of the 
management that takes place at the United Nations and the 
conditions which we have attached here, because it is a 
critical part of this.
    We are going to have a possibility, at least, we have 
scheduled another hearing on the Balkans, but I warn you, I may 
ask a few questions about that when you come up today, if the 
chairman will allow me. But with that, I welcome you back, and 
I thank the GAO and put in a plug for you all. You do really 
first rate work in everything we ever ask you to do, and thank 
you for being here today.

   STATEMENT OF MR. HAROLD JIM JOHNSON, ASSOCIATE DIRECTOR, 
INTERNATIONAL RELATIONS AND TRADE DIVISION, GENERAL ACCOUNTING 
           OFFICE, ACCOMPANIED BY MR. TETSUO MIYABARA

    Mr. Johnson. Thank you very much. I do have a much longer 
statement that I would like to have inserted in the record.
    The Chairman. It will be done, sir.
    Mr. Johnson. I will try and be as brief as possible.
    We are happy to be here today. You have asked us 
specifically to talk about four areas of reform. The unified 
focus that is now underway, and the organizational structure 
changes, and the decisionmaking process, the budget process, 
control or improved oversight, and program evaluation and, 
fourth, the improved human resource management.
    I must emphasize that our testimony today is based on our 
preliminary analysis. We still have work underway and, as you 
requested, we will provide a more complete report later on this 
fall.
    Reform has a long history at the U.N. For more than 25 
years, member States have been seeking reform at the U.N. and 
demanding tighter budget controls. As a part of this consensus, 
budgeting was adopted with the hope that this would give major 
donors a larger voice in the process of establishing budgets.
    Member States, including the United States and the 
Congress, have demanded greater fiscal discipline, greater 
oversight. Through the hard work of the Congress, as well as 
the executive branch, the Office of Internal Oversight Services 
was created a few years ago. There are other problems that have 
also been in need of reform in human resource management.
    The Secretary General realized several years ago, and I 
believe in 1994 he called the human resource management 
situation at the U.N. in a state of crisis. They were unable to 
determine who they had on board, where they were at, and 
planned for new operations that needed to be undertaken.
    But in summary, as the Secretary General has said and I 
think we agree, reform is a process and not an event. I do not 
want that to sound like a cliche, but, based upon our 
preliminary assessment, we believe the Secretary General has 
undertaken a serious effort to reform the U.N. and improve its 
relevance to member States and enhance its operational 
efficiency.
    Progress has been made in some areas, but overall, the 
initiatives we examined have still not been fully implemented. 
Progress has been made in unifying and focusing the 
organizational structure and the decisionmaking process at the 
U.N. and also the programs that are part of the U.N. proper.
    Our assessment is that this has begun to make the Secretary 
a more cohesive management unit. Actions taken include 
appointment of a Deputy Secretary General to function basically 
as a chief operating officer and to strengthen internal 
coordination. Also, a senior management group composed of Under 
Secretary Generals and the heads of those programs that report 
to the Secretary General was also created. This group meets 
weekly to ensure that U.N. actions are unified and focused on 
the same objectives.
    The new committees include peace and security, humanitarian 
affairs, economic and social affairs, and development 
operations, established to plan and implement focused and 
unified U.N. actions as agreed to by the senior management 
group.
    The Secretary General placed U.N. departments, offices, and 
the funds and programs, into appropriate groups and named a 
convener for each committee from the senior management group 
and expected and demanded that the committees coordinate, plan, 
and implement their activities as teams. In sharp contrast with 
the past, where Under Secretaries operated with great autonomy, 
this new structure provides a regular opportunity to 
communicate, coordinate, focus the work of the departments on 
common program objectives.
    We believe that this new structure, which is now about 2 
years old, is a positive move, but the proof of its success 
will be measured in the field, where programs are actually 
implemented. As I mentioned, because we are in the preliminary 
phase of our evaluation, we have not yet tested this new 
structure's actual impact on improving program delivery and 
effectiveness, but this is one area that we believe needs to 
have a hard look.
    I would also add that this new structure does not include 
the specialized agencies. That comes under a different kind of 
rubric, and specialized agencies like the FAO, the 
International Labor Organization and the others, still operate 
in a rather autonomous way, and overlap and duplication and 
coordination will continue to be a problem in that area.
    The United Nations, while it has maintained essentially a 
no-growth budget for the last couple of bienniums, our 
assessment thus far indicates that no fundamental changes have 
been made to the budgeting process that would be an impetus to 
control the growth of the regular budget.
    The process for developing the budget has largely remained 
unchanged, and adopting budgets by member States consensus does 
not assure controlled growth as hoped for when consensus 
budgeting was adopted in 1986, and supported at that time by 
the United States as part of the Kassebaum-Solomon amendments.
    For example, in developing the budget for the 2000-2001 
biennium, the United States and Japan, which together provide 
over 45 percent of the U.N.'s financial support, objected that 
the preliminary budget ceiling was set at a level higher than 
the previous year's budget. However, no vote was taken to 
record their dissent, and the measure was adopted by consensus.
    Also, the largest donors do not have permanent seats on the 
Advisory Committee on Budgetary and Administrative Questioning, 
commonly known as the ACABQ, where they could be most effective 
in advocating budget restraint. Further, the candidates put 
forward by the United States to become a member of the advisory 
committee have not been elected in the last two elections. 
Consequently, we have no seat.
    Moreover, although the Secretary supports the 
implementation of the results-based budgeting and sunset 
provisions initiative intended to bring more discipline to the 
budgetary process, these measures have not been adopted because 
some members, mainly developing countries, have not supported 
them.
    Results-based budgeting requires program managers to 
identify indicators for judging the substantive impact of their 
programs and justifying their programs' effectiveness based on 
these results. According to senior U.S. and U.N. officials, 
implementing such a system would require a major cultural shift 
among both the members as well as U.N. managers. Also a valid 
system for evaluating program effectiveness would need to be 
put into place.
    At the General Assembly's request, the Secretary General 
has produced several reports in support of this initiative, and 
provided prototypes of a results-based budgeting for sections 
of the Secretariat.
    Although, as I have indicated, much remains to be done in 
this area, some progress has been made in the area of cost 
control. The Secretariat has introduced a program intended to 
cut overhead costs and increase efficiencies, and thus far it 
has reported $13 million in savings for about 600 efficiency 
projects. We have not validated those claims of savings as yet.
    An area where important improvements we believe has been 
made is in the area of oversight, audit and oversight. However, 
even here, the effort should not be thought of as completed. We 
reported to you about a year and a half ago that OIOS has 
resolved its startup and operational problems in an 
organizational atmosphere and environment that has been 
previously without any effective oversight mechanisms. 
Moreover, we found that OIOS is situated to be operationally 
independent, and the head of OIOS reports directly to the 
Secretary General.
    We noted, however, that OIOS is not required to and does 
not submit all reports to the Secretary General and thus on to 
the General Assembly. We suggested that the head of OIOS should 
clarify the criteria for which reports would be submitted. In 
response, the Under Secretary General for Internal Oversight 
said that he would publish titles of all reports in the annual 
report, and has done so since that time.
    I would like to mention that, as of June of last year, OIOS 
had made over 4,000 recommendations and about 73 percent of 
these have been implemented, but again, we have not analyzed 
the recommendations or the actions taken to implement them.
    OIOS has clearly strengthened the audit inspection and 
investigative functions of the United Nations. However, 
progress has been much slower in developing and implementing 
the monitoring and evaluation systems to measure and report on 
programs' performance and effectiveness that would help member 
States make program decisions.
    According to one Under Secretary General, the main reason 
for this lack of program evaluation is the jobs are attached to 
program activities, and there is little incentive to cut jobs.
    To begin addressing what the Secretary General considered 
to be a crisis in human resource management, it recently 
introduced several initiatives and adopted a strategy to carry 
them out. These initiatives included a new performance 
appraisal system, the adoption of a code of conduct, and 
actions to begin human resource planning. However, these 
initiatives have not been fully implemented, and some problems 
have developed in the implementation that has taken place thus 
far.
    For example, a new merit-based appraisal system, introduced 
3 years ago, continues to produce inflated ratings in some 
departments. That should not be considered too unusual. It 
happens in every organization, including our own, I would 
guess, but they are aware of that, and that is something they 
are working on.
    Also, the code of conduct that was adopted last December 
does not provide the Secretariat with clear procedures for 
applying related disciplinary measures for systemic management 
problems or negligence.
    Additionally, the Secretariat has begun using an automated 
data base for its human resource planning. The information 
system is unable to account for and track all staff that work 
for the U.N. Secretariat. It does a pretty good job for those 
that are in the United States, but some overseas employees are 
not accounted for in this particular data base system.
    Senator Biden. What kind of numbers are we talking about, 
when you say compared to overseas versus New York?
    Mr. Johnson. I don't have the exact breakdown. It would be 
about a third, probably, overseas, versus two-thirds.
    Senator Biden. Thank you.
    Mr. Johnson. You have the organizations that are in Geneva, 
Vienna, and Nairobi, as well as some of the peacekeeping 
missions that would be included in that.
    That concludes my prepared remarks, and we will be happy to 
try and respond to your questions.
    [The prepared statement of Mr. Johnson is in the appendix 
on page 122.]

    The Chairman. All right. How about 5 minutes per Senator on 
the first round. If we have a second round we will handle that.
    According to a January 1999 report by the U.N. General 
Assembly, the U.N.'s IG found that a senior administrative 
officer of the United Nations Conference on Trade and 
Development--and you are familiar with that organization----
    Mr. Johnson. Yes, indeed.
    The Chairman [continuing]. ``Used his position to 
perpetrate at least 59 separate instances of theft between 1987 
and 1996 without triggering any meaningful internal alarm of 
the ongoing long-term illegal scheme.''
    Then the report went on to say, ``It is reasonable to 
conclude that, but for his absence for sick leave, he would 
have continued his operation undetected until his retirement, 
which was then imminent.''
    Now, that leads me to ask you, sir, are there adequate 
accounting mechanisms in place to track all United Nations 
funds?
    Mr. Johnson. There are two problems with that situation. 
One is the basic internal control procedures that ought to be 
in place for any financial system. Obviously, those internal 
controls were not in place, and the auditors failed to detect 
that for a long period of time, both the internal audit, as 
well as the external board of audit.
    The other problem that is evident in that situation is 
that, even though the man's supervisor was generally aware that 
there was something wrong in this situation, he did nothing 
about it.
    The Chairman. All right. The same report suggest the Chief 
of Administrative Service who would have been responsible for 
monitoring this appropriation of funds was not fired. Instead, 
he simply was sent to another organization, and my question to 
you, was anyone at the United Nations Conference on Trade and 
Development held accountable for failing to discover the 59 
separate instances of theft during a 9-year period?
    Mr. Johnson. No one that we are aware of, other than the 
perpetrator himself, who was tried and convicted.
    The Chairman. In 1976, the U.S. Congress approved the 
Sunshine Act--I believe you referred to that in your 
statement--which required that all committee meetings be held 
in public except when meetings relate to national security, 
privacy, and/or other specifically identified issues.
    Many Americans might be surprised to learn that to this 
day, all meetings of the United Nations Budget Committee--the 
Budget Committee, the Advisory Committee on Administrative and 
Budgetary Questions, are conducted in secret, and even its 
rules of procedure are not made public. Am I correct about 
that?
    Mr. Johnson. That is correct.
    The Chairman. Well, why do you think the rules of procedure 
are not made public?
    Mr. Johnson. I do not know. They should be. There is no 
reason that I am aware of why they should not be, or why, and 
the budget meetings themselves should not be open. As we 
understand it, the rules and procedures do permit open meetings 
unless there is some unusual circumstance for closing the 
meetings, but there seems to be unusual circumstances in most 
cases, and what makes it even less apparent to the United 
States now, what happens in that committee is that we do not 
have a seat on the committee.
    The Chairman. My question is, obviously, is Kofi Annan 
doing anything about making this transparency to the budget 
process available to the public?
    Mr. Johnson. That is an area that we still need to look 
into, but I would make one comment on that. I think that is an 
area that the members, because of the nature of that advisory 
committee, I believe that is an area that the member States 
need to take specific action on, probably more so than the 
Secretariat.
    The Chairman. Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Mr. Johnson, one of the Secretary General's task force 
reform initiatives--well, there were a number. Let me ask it a 
different way.
    Of the Secretary General's task force reform initiatives, 
what percentage, if you can tell me, do you think have been 
implemented or are in the process of being implemented? Have 
any of these reforms had any impact?
    Mr. Johnson. I would hesitate to put a percentage on the 
ones that have been implemented. The ones that we have looked 
at have not been fully implemented. As I indicated, there 
continues to be a need for work toward achieving the goal.
    Senator Biden. Is the effort sincere?
    Mr. Johnson. Yes, I believe it is. I was going to say that 
the reorganization that took place in the headquarters in the 
Secretariat and its management structure I think is very 
important. I know that there is kind of a feeling among some 
folks that when in doubt reorganize, but when we look at how he 
has reorganized, and the guidance and direction that he has 
provided, it seems to be in a way that will accomplish the more 
focus and more direct attention to specific activities that the 
U.N. undertakes.
    As you know, the U.N. has traditionally been a stovepipe 
organization, with every Secretariat doing their own business, 
and this is an attempt to remedy that.
    Senator Biden. In your testimony you refer to the budget 
outline for the next biennium, and it has been the case, has it 
not, in the past that the budget outline has been trimmed as 
the budget process has proceeded?
    Mr. Johnson. Yes, and State and also the Under Secretary 
for Management has indicated to us that they expect it to be 
trimmed some.
    Senator Biden. Do you have a sense of what impact, if any, 
Japan and Germany's announced opposition to increases in the 
budget may have in this debate?
    Mr. Johnson. It will add some pressure.
    Senator Biden. It would seem to me that it might. I may be 
wrong. I know the Senator from Minnesota is an expert in this 
area, and I mean that seriously, and I do not know whether I am 
right about this, but my impression is that two major 
industrial countries have not in the past, like Germany and 
Japan, independently but at the same time indicated they were 
not going to go for any increases. Maybe they have. I do not 
know. I would assume it would have some impact. At least, I 
hope it would have some impact.
    Mr. Johnson. Well, Japan made a very strong statement about 
not being in favor of that budget outline, but the concern 
always is that since there is no vote, and people and countries 
would rather not call for a vote, sometimes those resolutions 
are passed.
    Senator Biden. Well, I know. What I sense is, and maybe I 
am wrong, and I do not want to give credit or blame to the 
Senate, but I think a little credit is deserved in the sense 
that our friend from Minnesota and the chairman of the 
committee have been pushing on this reform thing for a long 
time. I think in one meeting, if I can say--and I am not 
revealing any confidence--Kofi Annan--and I spent two very long 
meetings with him, one in New York and one here, on the issue 
of reform, and I get the distinct sense that he is getting an 
increasing amount of pressure no longer just from the United 
States but from other major donor nations, and major 
participants here.
    And I get the impression--and there is no doubt there is 
countervailing pressure that comes from a number of countries 
that in the past, particularly small countries that have viewed 
the U.N. as an employer of first resort as opposed to last 
resort, but I hope I am not being overly optimistic if I say I 
sense, and this is a characterization I am making, and you can 
comment on it or not, and I realize my time is up, but I get 
the sense that the Secretariat is much more committed to 
wanting to put reforms in place, and that part of the reason is 
some of the major industrial countries, as well as some of the 
smaller countries who are responsible in their own internal 
budgeting combined want to see this happen, and that is my 
sense.
    Would you like to comment?
    Mr. Johnson. I think that is a fair characterization, and I 
think there are two budget issues that support that 
observation, and that is the support that the Secretariat has 
given, and it has been fairly strong support, for results-based 
budgeting, which is very similar to our results act here as 
well as sunset provision for new programs. They have provided 
strong support for that.
    But of course, some of the smaller countries, as you 
mentioned, are not quite ready to go along with that yet.
    Senator Biden. I thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Dodd, we congratulate you, sir.
    Senator Dodd. Thank you. I appreciate that.
    Well, thank you very much, Mr. Chairman. First of all, let 
me--I want to commend the chairman of the committee----
    Senator Biden. We are not congratulating him on his foreign 
policy acumen. I want you to know that. It is on his very, very 
good taste. I congratulate him on his good luck. It is pure 
luck, is the way I look at it.
    Senator Dodd. Thank you, Joe. Thank you both very much.
    The Chairman. You get an extra minute, sir.
    Senator Dodd. Thank you both. I really want to commend both 
of you for the inclusion of the agreement for the United 
Nations and the funding in the State Department authorization 
bill, and I realize this was not easy, and the administration 
deserves a great deal of credit as well for working out the 
package here that we could adopt today, and I hope will end up 
being adopted by the House.
    And we almost had an opportunity a few weeks ago with the 
chairman's support, I might add, to include the funding request 
and the release of funds in the emergency supplemental, which 
we were unable to get achieved at the time, but this is a very 
important issue, and the two gentlemen here to my right deserve 
a great deal of credit for reaching that agreement.
    My question sort of goes along the line of Senator Biden's 
questions. There has been an assumption, I think, over the past 
several years that the United States--and maybe it is a correct 
assumption, but the United States is really the only country 
that has been insistent on reforming the processes at the 
United Nations, and that but for our insistence this situation 
would have continued to deteriorate.
    I wonder if you might share with us, based upon any of your 
analysis, to what extent other nations have been as concerned 
about this as we have been. Obviously, with 45 percent of the 
cost being picked up by two countries, the bulk of it is 
ourselves and the Japanese, but to what extent do we hear, or 
has the Secretariat heard complaints from other nations in 
terms of the operational inadequacies of the United Nations, 
and to what extent can you tell us that those concerns have 
been raised beyond just the functioning of the United Nations, 
but that would not undercut its underlying purpose in serving 
the peacekeeping role and a variety of other functions.
    Mr. Johnson. I am not sure that I can respond to that on 
the basis of analysis that we have done. We have not 
systematically looked at the support that has come for reform 
from other countries, but on a less analytic level we have read 
a lot of minutes and a lot of transcripts from the Fifth 
Committee and other committees, and I think your basic 
assumption that pressure is building from other countries for 
reform, sometimes not exactly the same reforms that we are 
looking for, or not in the same format that we might adopt, but 
nonetheless, countries are concerned, even some of the smaller 
countries are concerned about seeing to it that the United 
Nations functions in an efficient way and continues to have 
relevance.
    One impression that I get from reading some of these 
documents is that there is a concern out there that if reform 
does not occur at some point, that the U.N. will become 
irrelevant to some of the problems that are confronting the 
world community, and at that time it will be too late.
    Canada has been a strong supporter for reforms, Japan, 
obviously, in the area of budget and other areas, so there is 
support among our friends as well as some of our maybe less 
friendly, but there is support for reform at the United 
Nations, and I think I would take that broader than just the 
U.N. proper in New York. That extends to the specialized 
agencies as well.
    Senator Dodd. I wonder about the European Community 
specifically. Has there been enough insistence, based upon what 
you know from our European allies, for reform efforts? You 
mentioned Canada specifically.
    Mr. Johnson. Well, enough is a rather subjective kind of 
term. There has been movement that the representatives from the 
EU as well as individual countries have pressed for reform. 
Some of what, again, has worked against reform is this whole 
problem of arrears. It is very clear that in reading some of 
the transcripts and some of the documents that even our friends 
tell us we would make much better headway in the area of reform 
if we could resolve that issue and move ahead.
    Senator Dodd. Very good. Thank you, Mr. Chairman.
    The Chairman. Mr. Grams.
    Senator Grams. Thank you very much, Mr. Chairman, and I 
thank you both for taking time to join us today. I appreciate 
the GAO's work.
    But a fundamental problem I think confronting the U.N. has 
been a lack of coordination and cooperation among the various 
organizations within the U.N. system itself, and that results, 
I think, in a lot of duplication of efforts, in efficient 
programs, but the primary goal of the Secretary General's 
reform program was to look at and to define some of the core 
missions of the United Nations and to restructure the 
organization accordingly.
    Now, I am concerned the U.N. appears to be emphasizing new 
priorities, drug interdiction, terrorism, identifying those new 
directions but not curtailing its efforts in any other areas, 
so my question first of all is, has the Secretary General 
proposed to eliminate a single function at the U.N. in order to 
devote more of those resources to the core missions which he 
has outlined recently?
    Mr. Johnson. There are some functions that have been 
reduced in budget and reorganized. Elimination, probably not.
    Mr. Miyabara. They have not actually eliminated any 
programs. The focus of their reorganization was not so much 
streamlining so much as it was to try and get the diverse 
organizations of the U.N. system to work together more 
effectively, and at least through that they hoped there would 
be elimination of duplication and more streamlining, but so far 
the elimination has not taken place.
    Mr. Johnson. I would like to add one comment to that. As I 
indicated in my summary statement, the reorganization that the 
Secretary General has put in place, his management team does 
not extend to the specialized agencies, and that is where a lot 
of the duplication and overlap is seen.
    That does not mean that it does not exist in the funds and 
programs that the Secretariat does have some responsibility 
for, but the specialized agencies are basically autonomous 
organizations on their own, and that issue needs to be resolved 
by the member countries of all of those organizations. It 
probably goes beyond what the Secretary General can do on his 
own.
    Senator Grams. A lot of times in reorganization they 
shuffle the deck but we still have 52 cards, and it might look 
like it from the outside, but they actually accomplish nothing.
    Two years ago the Secretary General created four new 
executive committees to coordinate the implementation of U.N. 
programs and other activities. First, has the U.N. permitted 
the GAO to have full access to this management structure in 
order to now give you the opportunity to evaluate the 
effectiveness of this?
    Mr. Johnson. I do not know yet, since we are still in the 
process of doing this evaluation, but we have met with the 
Deputy Secretary General and had a full briefing on the 
operations and the functioning of the committee structure.
    We have not had copies of minutes. I understand that not 
always written minutes are kept of the meetings, but at this 
point I believe the access that we have gotten to date is 
satisfactory, and we will evaluate how effectively, or at least 
attempt to evaluate how effectively those committees are 
working in an operational sense on the ground.
    And again, that is one area where that has always 
historically been a problem in having even the funds and 
programs work together in the country, and how they pursue 
their objectives in-country, and they can do a lot of talking 
at the United Nations, but----
    Senator Grams. Well, right now you could not cite a 
specific----
    Mr. Johnson. I cannot. Well, I can cite some directions 
that have been given. For example, a good example I think is 
the Executive Committee for Peace and Security developed a 
unified plan for East Timor, and this involved both the 
Departments of Peacekeeping as well as Political Affairs, the 
Human Rights Coordinator, and several other departments, and so 
in at least organizing how they are going to address the 
situation in East Timor they have come together and laid out a 
unified plan. Again, the proof will be in how well that is 
implemented in-country.
    Mr. Miyabara. I should add, there have been some 
difficulties in this that illustrates the problem the U.N. 
system has. One of the executive committees, the Development 
Executive Committee, has actually done some work in Guatemala, 
and at least one of the messages that came back from--I think 
there were something like 16 U.N. organizations in Guatemala. 
One of the messages that came back when they tried to put 
together the U.N. development assistance framework there was 
that individual agency results were more important than system-
wide results.
    Now, I should add also that this is one of the more 
important things the U.N. is trying to do, but at least the 
initial indications are that they will have problems in doing 
this, and that I think underscores our point at the beginning 
that the reforms have not been fully implemented.
    I will give you one other quick example, too. The Committee 
on Economic and Social Affairs recently undertook a study, and 
that was to look at some of the major publications the United 
Nations does. The study came back and said that there was 
considerable duplication and overlap in the studies, and they 
recommended trying to reduce some of those.
    For example, there are two population studies that come 
out, and the committee said, well, I think you should think 
about reducing a number of those studies, because they seem to 
overlap, and the Executive Committee actually decided not to 
recommend any changes at all, and so I think there are 
indications that, while they are moving forward, there will be 
difficulties in doing so.
    Senator Grams. Thank you.
    The Chairman. Thank you very much.
    Senator Boxer.
    Senator Boxer. That is OK, Mr. Chairman. I will wait until 
Mr. Holbrooke testifies. I have a question for him, but I will 
pass.
    The Chairman. Very well.
    Mr. Johnson, perhaps both of you gentlemen would not mind 
staying around for, say, 30 minutes, so that if we need to 
refer to something to assist the distinguished nominee, I would 
be grateful to you if you would wait around.
    Mr. Johnson. We would be happy to do that.
    The Chairman. Thank you, and thank you for coming here 
today at the outset.
    Mr. Johnson. Thank you.
    The Chairman. Now, Mr. Holbrooke, the nominee, if you will 
step forward, and you can relax. I think most of the questions 
that will be asked of you will be easy for you to answer.
    Let me make a general statement. There has been a lot of 
talk to the effect that Congress need not impose so-called 
benchmarks on the United Nations because Kofi Annan has already 
implemented most of the reforms that the Congress was asking 
for. Well, I thought back to the day when Nancy Kassebaum and I 
and two or three others were trying to implement a study of 
what the United Nations was doing, and so forth. Unfortunately, 
that impression that some seem to be voicing could not be 
further from the truth.
    One of Mr. Annan's promises to me personally, when he was 
first installed in the post, was that he would adopt negative 
growth budgets, yet this past December the United Nations 
approved a budget for the years 2000 and 2001 that exceeds the 
current 1998-1999 budget by $13 billion.
    Now, I am amazed to learn that while the United States 
Representative at these negotiations called that group's budget 
a disgrace, he failed to exercise the U.S. prerogative to 
refuse consensus on that budget. In other words, the United 
States could have blocked it, but chose not to.
    Now, one of the things that I hope you will say today is 
that you will block it in a case like that, and I would ask for 
your assurance that under your leadership such a fiasco would 
not be repeated.
    Another myth centers on the so-called elimination of 1,000 
U.N. posts. Now, that sounds impressive, and the average 
American would presume that thanks to the Secretary General's 
efforts there are now 1,000 fewer people on the payroll at the 
United Nations, and that presumption would be absolutely, flat-
out wrong.
    Most of the 1,000 U.N. posts referred to as eliminated were 
just on paper, because they were vacant positions to start 
with. In fact, there are more people on the payroll at the 
United Nations today than before the so-called reform, and only 
in the United Nations doublespeak can 1,000 posts--and I guess 
I ought to put quotation marks around that--be eliminated and 
yet have more people on the payroll than ever before.
    So I think the facts are, at least as I understand them to 
be, No. 1 not one single U.N. function was eliminated in the 
Secretary General's so-called consolidation, and No. 2 there 
are now more senior-level U.N. positions than existed the day 
Kofi Annan took
office.
    So I hope that this sort of thing I want to address to you, 
and one further thought is that the efforts at the United 
Nations to create a permanent international criminal court with 
the authority to indict and try American citizens is absolutely 
abhorrent to me, and I hope you will tell this committee that 
you will have no part of it, and you will resist it.
    I cannot overly emphasize the depth of my concern and that 
of many other Senators about this proposed court, and in part 
because of Senate concerns the administration last summer 
refused to sign the so-called Rome Treaty creating the court, 
but the delegates in Rome not only moved forward with the 
court, but it gave jurisdiction to try American citizens, 
regardless of whether the United States signed or did not sign, 
and regardless of whether the U.S. Senate ratified or did not, 
the Rome Treaty.
    Now, I know that there are some in this city who still hold 
out the hope that this court can somehow be--what is the word, 
fixed, I suppose, and that the United States could sign up for 
the court, and I resist and desist and say, hell, no, and this 
summer in New York the delegates will be meeting again, and 
they are still hoping to convince the United States to join 
them. I hope you will not join them, that you will say that you 
will not join them and all that.
    Now, let me be clear, I am not opposed to the ad hoc war 
crimes tribunals created by and for the Security Council, such 
as the Yugoslavia tribunal which recently indicted Milosevic, 
but the Rome Treaty, no, sir, that is irreparably damaged. A 
permanent tribunal such as this, where an independent 
prosecutor is given almost unlimited powers, and where the 
United States has no veto power to stop a politicized 
prosecution of American servicemen or other officials is quite 
flat out unacceptable.
    So I hope you will give your firm commitment that as the 
U.S. Representative to the United Nations, you will do 
everything in your power to oppose the establishment of the 
permanent international criminal court. Some of the court's 
advocates have suggested that we adopt a policy of benign 
neglect. Not on your sweet patooti. To the contrary, the United 
States must do everything it can to prevent this court from 
ever, ever coming into existence, or being given any legitimacy 
whatsoever.
    With that, Mr. Holbrooke, we look forward to your 
testimony, and we welcome you to this committee today.
    Senator Biden.
    Senator Biden. I do not have any opening statement at this 
time, Mr. Chairman, just when we get a chance to get to 
questions I do have some questions for the Ambassador.
    The Chairman. You may proceed, sir.

STATEMENT OF HON. RICHARD C. HOLBROOKE, OF NEW YORK, NOMINEE TO 
 BE THE REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE 
UNITED NATIONS WITH THE RANK AND STATUS OF AMBASSADOR, AND THE 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE SECURITY 
                 COUNCIL OF THE UNITED NATIONS

    Mr. Holbrooke. Mr. Chairman, thank you again for holding 
these hearings and the one last week, and to you and your 
colleagues for your kindness, your fairness, and your 
generosity.
    May I just start by congratulating you and your colleagues 
on the vote just completed in the U.S. Senate. I hope this 
becomes the law of the land, and I pledge to you again today, 
Mr. Chairman and Senator Biden and your colleagues, that I will 
make it my highest sustained priority to make it work once it 
is the law of the land, if I am confirmed.
    I listened with great interest to Mr. Johnson's previous 
testimony. I am the beneficiary of your scheduling these events 
back to back so that I could hear not only his report, which I 
intended to review anyway, but the questions that this 
committee addressed to it.
    As I said to you last week, I believe, and have believed 
for my entire career, that consultations with the Congress at 
the take-off, and not just the crash landings, are essential. 
In no area I have ever worked on is this more true than this 
issue, because, unlike most of my career, which has been in 
bilateral and diplomatic areas, these are budgetary issues in 
which the Congress has the primary responsibility. I will work 
very closely with you and with every member of this committee, 
to whatever level you and your staff wish.
    I repeat again that I hope there will be frequent trips to 
New York by members of this committee and their staff to assist 
us. I have already had some informal discussions with some 
members of this committee and their staff about how that might 
be done if and when you choose to confirm me.
    Budgetary discipline will be my watchword, and I will work 
very hard to do the things that have been raised earlier. We 
must return to the ACABQ, the committee that Mr. Johnson 
referred to earlier. I cannot understand, Senator Grams, why 
the sessions were ever secret. That does not make any sense. I 
will work on that. I do not understand why we allow it, when we 
are on the committee.
    But I cannot address the past. All I know is that, as a 
person committed to the view that the U.N. is an important part 
of our national interest, which is my view and I believe that 
of yourself, this kind of thing works against that goal.
    Mr. Chairman, when I was Ambassador to Germany, and working 
closely with this committee, I inherited a mission of 2,400 
people. I put into place a reduction plan to 900, a 60-percent 
reduction, working with the administrative people and working 
with many people including the GAO, which had a large office in 
Frankfurt. This involved 33 agencies of the U.S. Government, 
not just the State Department, and it involved 10 posts, and it 
is being implemented today.
    I cannot promise to you anything comparable in New York, 
because we have 2 degrees of separation between the American 
Permanent Representative and this incredible structure. It is 
not a structure, it is a thing. You and Admiral Nance have 
shown me the charts, and I have seen the U.N.'s version of the 
charts. Whatever the details, we all agree, as Admiral Nance 
said, that this carrier would not get into port.
    So I cannot promise comparable cuts to the ones that the 
State Department team and myself in Bonn worked out for 
Germany, but I sure can commit myself, because we owe it to the 
American taxpayer and to you as their representatives, to 
reform the U.N.
    There are many observations that come to mind listening to 
the GAO and speaking to your colleagues. The specialized 
agencies which are not under the Secretary General's control 
must be dealt with.
    Now, you have behind me in the audience today at least two 
important representatives of the United Nations, I hope, taking 
notes. You have the Secretary General's new personal 
representative in Washington, and you have our former 
Ambassador to Norway, Tom Loftus, who is now the WHO's 
representative in Washington. I know that Senator Boxer and her 
colleagues met with Gro Brundtland yesterday to discuss their 
concerns, and so I hope they are taking notes, too. As I 
analyze the performance of the State Department, I believe that 
perhaps a more aggressive coordinated push in New York, Geneva, 
Vienna, Nairobi, Addis Ababa, Bangkok, wherever the U.N. 
exists, through our other people, not people part of the U.S.-
U.N. structure, plus an across-the-board effort, would make a 
difference.
    Mr. Chairman, I look forward to your questions. I am very 
grateful again for your time and your courtesy, and may I just 
on a personal note join Senator Biden in congratulating Senator 
Dodd on a personal matter. He has been a long-time friend, and 
we share Peace Corps connections and other connections, and I 
am honored to see him here today on that basis.
    [The prepared statement of Mr. Holbrooke follows:]

            Prepared Statement of Hon. Richard C. Holbrooke

    Mr. Chairman, Senator Biden, members of the committee: I am pleased 
to be here with you again today. I look forward to a frank exchange of 
views with you on the United Nations, U.N. reform and any other 
subjects of interest to you. If it is agreeable to the Chairman, since 
I made a full statement to you on Thursday, today I will simply 
summarize a few important points so as to leave as much time as 
possible for your questions.
    I cannot emphasize enough how important it is for us to tackle 
aggressively the challenge of U.N. reform. In order to pursue our 
national interests, we need to solve our arrears problem and build a 
more effective, efficient United Nations. For this reason, I want to 
reiterate my pledge that, if confirmed, I will make U.N. reform my 
highest sustained priority, even as I deal with whatever immediate 
crises demand attention.
    Thankfully, Mr. Chairman, your efforts, along with those of Senator 
Biden and the rest of this Committee, provide a strong basis for us to 
move forward. As you know, I fully support the legislative package that 
this Committee and the Administration have agreed upon. If confirmed, I 
look forward to doing everything possible to see this crucial package 
of arrears and reforms implemented.
    While not perfect, the U.N. does work. We must build on those 
successes. To restore our influence with the United Nations, we must 
also pay our arrears. With a better relationship, I believe we can do 
the following: achieve meaningful reforms for a more streamlined, more 
effective U.N. organization; lower assessment rates for U.S. 
contributions; maintain U.N. budget discipline; and strengthen the work 
of the United Nations in key areas of concern to the United States--
especially refugee and humanitarian assistance, promoting democracy and 
human rights, fighting international crime and narcotics, and 
peacekeeping.
    Mr. Chairman, if confirmed, I look forward to working closely with 
this Committee on all of these issues. With American leadership, I am 
confident that we can build on what is right with the United Nations 
and meet the many challenges before us.
    I look forward to any questions that you and other Members of the 
Committee may have.

    The Chairman. We are just trying to decide whether to 
trouble you with a problem of a very fine lady who visited me 
today, but I will talk to you about that lady later, and 
perhaps you can help because of your experience in Germany.
    On June 14, 1982, you wrote for the New York Times about 
the relationship between the U.N. Ambassador and the Secretary 
of State, and the problem you said lies in a system that 
against reason has allowed the U.N. Representative to become a 
sort of second Secretary of State, to tell someone that they 
have a Cabinet rank and that they may demand independent 
participation in the national security decisionmaking 
structure. The President should gently but firmly remove the 
seductive ornamental phrase, Cabinet rank, from the U.N. job.
    You wrote those words during Jeane Kirkpatrick's tenure at 
the United Nations, so at that time I might have been inclined 
to disagree with you, but do you still think the President 
should remove the seductive ornamental phrase, Cabinet rank, 
from the U.N. job, and will you make such a recommendation to 
the President? I think I know the answer to that.
    Senator Biden. I used to be against seniority, too.
    Mr. Holbrooke. Well, before I give you a serious answer, I 
was tempted to say that was some other person with the same 
name who wrote that.
    Mr. Chairman, I do stand by what I wrote, and my acceptance 
of this offer to be nominated for the job by the President had 
nothing to do with Cabinet rank. I would have accepted his 
request with or without that rank, and I would be sitting here 
before you with or without that rank.
    As I said last week in my opening statement, I believe 
that, and Madeleine Albright and I have discussed this many 
times, we can only have one Secretary of State. The only thing 
I regret about that article now is that it had an implicit 
criticism of a person I have great respect for, whom you just 
mentioned, and that is my friend, Jeane Kirkpatrick.
    I may well have had more substantive agreements with her 
than I had with Al Haig at that moment, but in retrospect, a 
public dispute of that sort is not in the national interest.
    Now, I have studied this issue back to the time when Warren 
Austin was our Permanent Representative in New York, and Dean 
Rusk was head of the International Organizations Division in 
1948. And I can give you the history of this between Henry 
Cabot Lodge, John Foster Dulles, Adlai Stevenson and Dean Rusk, 
Pat Moynihan and Henry Kissinger. Senator Moynihan's book on 
the U.N. is an extraordinary example.
    It is just not right, and I stand by this. I will take my 
instructions from the Secretary of State, as all of us should. 
I am honored that the job carries the additional rank, and I 
will accept that rank because it is part of the job, but it 
will not in any way affect how I perform.
    I work for Madeleine Albright and, as I said last week, the 
good news is, we have worked together a long time. In fact, she 
called me last night from Slovenia after her meetings to talk 
about this hearing. We went over this issue. She asked to be 
remembered to you and your colleagues personally, and we went 
over this exact issue.
    The Chairman. Now, I do want you to comment on--and you 
heard my comments on the international criminal court.
    Mr. Holbrooke. On what, sir?
    The Chairman. The international criminal court, and I do 
not need to explain that to you, and I would just like to hear 
what you think about it, and what do you intend to do about it, 
if anything?
    Mr. Holbrooke. May I start by saying first of all again 
that I will take my instructions from the Secretary of State 
and the President. Second, obviously everyone agrees on the 
following point: The current draft, the Rome draft, is 
unacceptable to the United States.
    As a person who has personally negotiated status of forces 
agreements in many countries, the Philippines, Japan, and 
elsewhere, and who negotiated the equivalent for the Dayton 
peace agreements, which is the model for the NATO forces in 
Kosovo, I think it is completely unacceptable for American 
citizens, in uniform or out, to be in a situation where they 
could be seized and tried by somebody else. This is a huge 
problem we have had wherever we had stationed troops. It would 
be even bigger here.
    As you yourself pointed out, the International War Crimes 
Tribunals on Yugoslavia and Rwanda have done some good. I was a 
very strong supporter of that, and in principle, I think these 
specialized approaches case by case make a lot of sense. I am 
very troubled, however, by the fact that we did not have 
something like this for Cambodia, for example.
    I cannot imagine this, except that there was an individual 
country involved, China, that did not want to get into the Pol 
Pot relationship with the Chinese during the cultural 
revolution. As a person who has worked on that issue for many 
years, I was puzzled by the fact that we were going after 
Karadzic and Mladic, as we should, and there was a man who had 
murdered at least 10 times as many people sitting in the 
jungles of Western Cambodia.
    So I have a lot to learn on this issue. I have listened 
carefully to what you said. I have studied the Neuremberg 
trials and what has passed since then, because of my 
association with Yugoslavia. I know of Senator Dodd's 
involvement in Neuremberg, and I would like to talk to you 
more, if you do not mind, sir, in private, to learn more about 
your views and those of your colleagues as I inform myself and 
participate in the decisionmaking process on an issue that will 
ultimately be decided above my pay grade, but into which I will 
have a significant input.
    The Chairman. Very well.
    Senator Biden.
    Senator Biden. I cannot resist asking you a Balkans 
question, if I may, and it does relate indirectly with regard 
to the War Crimes Tribunal and, by the way, I do recall, 
because you briefed us on the status of forces agreements, and 
one of the big issues was the ability, particularly in the 
Philippines, you remember, when that young woman was raped, and 
allegedly by Americans, it has always been a problem, and your 
answer does not surprise me.
    But at any rate, to make a long story short, the War Crimes 
Tribunal is a different animal than a blanket permanent 
commitment relative to the ability to try American forces or 
American citizens in any fora, including a host country, but I 
would like to go beyond that in the remaining, probably 3 
minutes I have here, to ask you this question, and I do not 
expect agreement, because I do not know that I am right. As I 
said, I want to put forward a proposition, and if you feel 
comfortable responding, I would appreciate it, and if you do 
not, I understand.
    Slobodan Milosevic has been indicted as a war criminal, to 
state the obvious, but Slobodan Milosevic did not do this all 
by himself. Slobodan Milosevic was empowered by either the 
nonfeasance, or malfeasance of a lot of Serbs, and I have been 
of the view, and you know this from my pushing, as you did, for 
the arrest of Karadzic and Mladic and others in Bosnia, I am of 
the view that until there are public trials and a genuine and 
fair look at the evidence as to what crimes have been committed 
by these individuals, for the whole world to see, but 
particularly for the Serbian people to see, that until that 
occurs, this sense of--it is almost like it is permanently 
adopted, this sense of being victimized that characterizes 
historically everything you read about the Balkans and the 
history of the Serbian people.
    It is replete with references to this feeling of 
victimization. I am of the view that unless there are public 
trials, and unless the Serbian people are forced to look at 
what they have enabled, even though they may not have intended, 
that this will just have another round. Another generation will 
feel justified in this sense of repression and oppression 
inflicted upon them by others, particularly other Europeans.
    I wonder whether you would be willing to comment, because I 
do not know anybody who knows more about the Balkans than you 
do that is active in either major political party these days. 
What is your sense of that, and what does that say about what 
our policy objectives should be in attempting to help implement 
the arrest of the most notorious war criminals?
    And I know we are working on it, but if you could just take 
a few moments to talk to me about it.
    Mr. Holbrooke. Senator Biden, first of all, in regard to 
Karadzic and Mladic, I think I would list among the four or 
five, half-dozen things that are the biggest failures in the 
last 3\1/2\ years since Dayton, that would be one of the hard-
core failures. We should have arrested at least Karadzic right 
after Dayton.
    Had we done so, the signal to the region, including 
Belgrade, would have been very strong, and we might have been 
able to avoid some of what followed in Kosovo, because of the 
announcement to the world that we would not just indict, we 
would pursue. Karadzic was far more accessible, and still is, 
than someone in Belgrade, for reasons we all understand.
    Second, you have made an extremely important point about 
people beyond Slobodan Milosevic, and I mentioned earlier 
Neuremberg. It is my understanding of the historical record 
here, and I would defer to other people, particularly Senator 
Dodd on this, that after Neuremberg tried the major war 
criminals, a continual process went on. It was not perfect. 
Some people got away, and some are still unpunished inside 
Germany, but the process did occur.
    And we have to be very clear here. Anyone who has been in a 
refugee camp, as many of you on this panel have been, in either 
Croatia, Bosnia, Macedonia, or Albania, knows that the victims 
include the Bosnian Muslims, the Croats, the Albanians, and 
sometimes Serbs. This is because some of the war atrocities 
were committed tragically by the victims. Some of the people 
the Hague has indicted are Bosnian Muslims, and eventually they 
may also indict some Albanians.
    This is the biggest difference between Cambodia and the 
Balkans. You go to a refugee camp, and they say we know exactly 
who fingered us; we know exactly who brought the Serb 
paramilitary to our house and who raped my mother, my sister, 
my daughter. I have had these conversations, as many of you 
have had, with the victims.
    In Cambodia, the Khmer Rouge just killed people if they 
wore eye glasses or spoke a foreign language or had an academic 
degree. This was retail, hand-to-hand killing, and I believe 
that until justice is done, peace is going to be very 
difficult. Making Albanians and Serbs live together in Kosovo 
is going to be even harder than making Serbs, Croats, and 
Muslims live together in Bosnia. Both goals are necessary if we 
are ever to have a successful exit from the region, which is 
our goal.
    So I strongly support what you have said, and I have just 
touched the front edge of a huge issue. Senator Biden, when I 
came back to Washington in 1994, many people said the War 
Crimes Tribunal was just theater, just cosmetics. It proved to 
be an indispensable component of our policy. It allowed us to 
keep the indicted war criminals out of Dayton, OH, and I 
believe that Louise Arbor's indictments were correct. I do not 
know if each person she indicted will actually be convicted.
    I know some of these people personally, as you know, and I 
would differentiate between them, but the basic decision to 
support the War Crimes Tribunal was of long-term historic 
importance. I think a half-century from now, as we still talk 
about Neuremberg, people are going to be analyzing the 
consequences of these War Crimes Tribunals, and I hope we get 
it right. I think that with some stumbling around we have done 
basically the right thing.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. Senator Lugar.
    Senator Lugar. Ambassador Holbrooke, when Andrew Young, one 
of your predecessors, testified before this committee, he said 
that serving in the United Nations as our Ambassador was much 
like serving as a member of a large city council, that it was a 
very cosmopolitan group of people, and the dynamics of 
persuasion were one by one in that type of a council.
    I ask this both to query you on your personal style as you 
have analyzed the job as to how you might be effective and, 
second, to what extent will your effectiveness be clouded in 
any way by feelings on the part of delegates at the U.N. now, 
either on the Security Council or in the General Assembly, that 
somehow or another the United States has not been a player at 
the U.N. recently. We have not been, at least there for them, 
at least in their causes.
    I do not know to what extent you perceive that there is any 
deficit to be made up, but if so, how do you plan to do it? Can 
you describe, at least if you are confirmed, how you will do 
this job?
    Mr. Holbrooke. Well, thank you, Senator Lugar. The first 
part of your question about my style in regard to this job, I 
have read a lot of things about my style over the years, not 
all of which my mother, who is here today, and I would fully 
recognize. But I think you have to suit your style to the 
situation and the circumstance. I worked in Asia for most of my 
career, as you know, much of it in collaboration with you, and 
that was one style. You do not treat Koreans and Japanese the 
same way you treat the Serbs. We got to Dayton. We had a 
different style.
    In New York we have to deal with each country's 
representatives, combining persuasiveness and pressure, 
depending on the circumstances. I have talked already about 
what, if confirmed, would be the appropriate style because I am 
very concerned about this. I will reach out to every Permanent 
Representative that I can--there are a lot of them--and to the 
Secretariat, and will be very active in that area.
    At the same time, I really think we have to make clear to 
them that certain practices, several of which were discussed 
prior to your arrival, really have to be cleaned up.
    Now, the best way to strengthen the hand of the U.S. 
Government at the U.N. is clearly to get the bill that you have 
passed on the Senate floor today by a vote of 98 to 1 into law, 
and then implement it. If that is done, and if I am confirmed, 
that will be my highest priority, and it will greatly 
strengthen our hand on things like the ACABQ and other issues.
    Did I get the initials correct this time? Thank you.
    So that will be my approach, Senator Lugar. I would only 
add one thing. I have said this many times, but I cannot stress 
it highly enough: To the extent that members of this committee 
can assist us in New York by coming up and talking directly to 
the permreps and to the Secretariat the way you talk to people 
in the job that I have been nominated for, it will, I think, 
help, because I think everybody understands that the United 
Nations is at a crossroads.
    The cold war era was one era. The post cold war era, phase 
1, is another, and we have got to move forward.
    Senator Lugar. Well, I congratulate our colleague, Senator 
Grams, for doing just that. He has been, as you know, a 
stalwart on behalf of the chairman and this committee, and 
perhaps others may be helpful, too.
    Thank you very much.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman, and let me 
just briefly first of all, with regard to the international 
criminal court question raised by Senator Helms, I certainly do 
not disagree with him or you. I think the present structure as 
proposed by the Rome accord is unacceptable, but I also happen 
to believe, and you are very gracious in referring to my father 
at Neuremberg, who was the executive trial counsel, that having 
a set of--the rule of law is something we cherish in this 
country.
    It has been part of our very solid foundation as a Nation 
over the past 210-plus years of our existence, and if we are 
ever going to achieve some order of stability in the world 
having a set of principles by which we try to relate to one 
another I think becomes critically important.
    While I do not disagree the ad hoc courts have done well, 
my hope is that we could find a structure for an international 
permanent court. I think the idea of being isolated by the 
world, creating pariahs, has value in countries where nations 
feel their leadership may take them down that road, so I do not 
disagree about the analysis of the present proposal, but I 
would hope that that would not be construed as a rejection of 
the concept and the idea of having an international court of 
criminal justice.
    Second, I want to thank Senator Helms and Senator Biden. 
Today they accepted an amendment of mine dealing with the 
Inspector General's Office at the State Department, and I 
offered another amendment which I withdrew that has to do with 
how criminal investigations are handled, and to enhance them, 
and instead I have asked for the General Accounting Office to 
do an assessment of these Offices of Inspector Generals across 
the Government.
    I want to have a better idea of whether or not due process 
is being followed, and I made note on the floor of the Senate 
that even under the Independent Counsel statute laws, people 
under investigation have a right to know with what they are 
being charged, and a right to refute and offer exculpatory 
information when reports are being presented to the Justice 
Department.
    That is not being done, and I think any first year law 
student would raise legitimate due process questions about how 
they conduct their business.
    And again, I have a great deal of respect for the work they 
do in auditing and so forth, and the role they were designed to 
fulfill, but I am very anxious to hear how they might correct 
this situation administratively rather than having to go the 
legislative route, and so I withdrew the amendment, the second 
amendment, and I am anxious to hear their reports.
    Mr. Chairman, I would just like to take, if I could, the 
remaining few minutes of my time, and I was not here on 
Thursday, as you have all made note of. I was busy in 
Connecticut with other matters, and I would like to take a 
moment or two, if I could, and talk about our nominee, who has 
been an old and dear friend, and I am not objective about Dick 
Holbrooke. I have known him for many, many years, and he is a 
friend.
    We sometimes try to be as objective as we can about these 
matters, but occasionally that becomes difficult, and I admit 
to the fact that I am personally a good friend of this 
nominee's and believe he would be a terrific Ambassador for the 
United States at the United Nations.
    I think we all know and appreciate, Mr. Chairman, as you 
pointed out on numerous occasions, how important a tool the 
United Nations is to America's conduct of foreign policy, and 
our Ambassador to the United Nations is a key to unlocking that 
power, in my view.
    For the past 9 months, however, the post has remained 
vacant, thereby unfortunately degrading, I think, our influence 
at the United Nations. Today we have an opportunity to correct 
that omission and restore some of the United States's 
leadership in that body.
    There are very few things, Mr. Chairman, the United States 
as a Nation holds more dear than the ideals our country was 
founded on some 223 years ago. We continue to lead in the 
global fight for freedom, for democracy, for peace, and for the 
respect of human rights. For the past five decades, Mr. 
Chairman, it has been the United States' strong and clear and 
persistent voice in both the Security Council and the General 
Assembly which has convinced other nations to support these 
same ideals.
    Looking back on those 50 years, it is clear that our work 
at the United Nations has by and large been a success. In the 
midst of some criticism, I think it is important to recognize 
our victories. Today, the United States is one of the most 
powerful champions of human rights, freedom and peace around 
the world.
    The United States has used the United Nations to support 
our foreign policy in places as far flung as Korea, Libya, 
Iraq, and Bosnia. Without the United Nations, the two suspects 
in the bombing of Pan Am flight 103 would probably never have 
faced a judge to account for their actions. Similarly, Saddam 
Hussein would still be free to terrorize both his neighbors and 
his own citizens if it were not for the United Nations 
sponsored implementation force in Bosnia, I think war, 
bloodshed, and genocide would still rule that nation.
    Today, the United Nations is engaged in helping to 
implement certain aspects of the peace settlement in Kosovo 
which we all hope and pray will put an end to the bloodshed 
there as well.
    While we are familiar with the United Nations peacekeeping 
efforts in Bosnia and Iraq, we must not forget that the men and 
women wearing the U.N. signature's blue helmets are keeping the 
peace in places as disparate as Angola and Tajikistan. In all, 
there are currently 16 different ongoing peacekeeping 
operations on four continents around the globe.
    As we embark on the next stage of involvement in Kosovo, 
one in which the United Nations will play a very important 
role, it is tremendously important, in my view, that we are 
represented in that world body. We must not allow any 
additional delay to further erode that leadership.
    Last fall, Mr. Chairman, as you know, President Clinton 
tapped an exceedingly qualified diplomat to head the delegation 
to the United Nations. Richard Holbrooke has served our Nation 
well in a wide variety of posts, which I know this committee 
heard last week, from Assistant Secretary of State for two 
different regions, to the Ambassador to Germany.
    Today, many of our thoughts are focused on the Balkans in 
this first real chance to bring peace to Kosovo. I think it is 
particularly fitting, Mr. Chairman, therefore, that among 
Ambassador Holbrooke's achievements are the Dayton Peace 
Accords which ended the civil war and genocide in Bosnia.
    Five years ago, it was the war and ethnic cleansing in 
Bosnia, not Kosovo, that captured the world's attention. 
Innocent civilians were murdered and raped simply on the basis 
of their ethnicity. Venturing into the market to buy food 
entailed a risk of instant death at the hands of snipers or 
soldiers with mortar on a nearby hilltop. Each day was a 
struggle for survival.
    Today, however, Bosnia is rebuilding, the 1995 talks held 
thousands of miles away from the battlefields in Dayton 
silenced the sounds of gunfire. The man who brought the Serbs 
the Bosnians, and the Croatians together for those talks is 
before us today as the nominee to be the Ambassador to the 
United Nations.
    As Ambassador Holbrooke knows, Mr. Chairman, it is often 
easier to wage war than to make peace, and in spite of daunting 
odds, he did make peace, and for that he deserves ours and the 
world's praise.
    Following his return to the private sector, Ambassador 
Holbrooke continued to serve his country without compensation, 
I might add, from the government, focusing his efforts on the 
dispute on the Island of Cyprus and the bloodshed in Kosovo. 
The success or the failure of the Kosovo agreement will be 
determined by whether the United States, our NATO allies, and 
Russia can stay the course.
    The job of bringing the coalition together and keeping it 
together will not be an easy one, but it is one in which 
Ambassador Holbrooke has the experience at the United Nations 
which will be crucial at this time. So Mr. Chairman, I want to 
add my voice to those of my colleagues who were here on 
Thursday to support this nomination, and to thank Dick 
Holbrooke for his willingness to persevere in this process.
    I am one, Mr. Chairman, who worries deeply about our 
ability to attract the best our society can produce to serve 
our country. It is not easy to submit yourself and your 
families to the kind of public scrutiny that a nomination of 
this magnitude involves. We have got to sort out some way in 
which we can go through this process without making it so 
discouraging to people that those who watch the process who 
think one day they might like to serve their country will be 
discouraged from doing so in any administration, and I am 
deeply, deeply worried that if we do not get a better handle on 
this, that will be the net result of what we accomplish.
    So I think the chairman has done a good job by going 
through the legitimate questions that have been raised. I think 
you, Mr. Holbrooke, have done a very fine job in responding to 
those questions. That is a part of the process, but I know the 
chairman agrees with me that we have got to sort out a better 
way in which we attract good people, to make it possible for 
them to bring their credentials to the table, and to move on to 
allow them to fulfill the jobs that they have been willing to 
serve in.
    With that, Mr. Chairman, I thank you, and I thank the 
nominee.
    The Chairman. Senator Grams.
    Senator Grams. Thank you, Mr. Chairman.
    Welcome, Mr. Holbrooke. Nice seeing you again today.
    Mr. Chairman, I must say I have had a chance to discuss the 
United Nations with the nominee on a few occasions. And I am 
very pleased with what I have heard to date. He has a 
reputation, as we all know, for being a tough negotiator and a 
practiced arm twister. And I think those are some of the exact 
attributes that we are going to need in our next Ambassador to 
the United Nations.
    Now, it is not going to be easy to get the U.N. to 
implement the Helms-Biden package, even though there is 
widespread agreement on the need for reform. And, again, I want 
to compliment the chairman and the ranking member for all the 
work they have put in, in, again, putting this package 
together.
    Two years ago, U.N. Secretary General Kofi Annan stated in 
the introduction to his reform proposal that the major source 
of institutional weakness in the United Nations is that certain 
organizational features have become, and I will quote, 
``fragmented, duplicative, rigid, in some areas ineffective, in 
other superfluous.'' But since that time, I think it is 
arguable whether any progress has been made in addressing some 
of these shortcomings.
    Now, I do not underestimate the problems that are inherent 
in streamlining an international organization, where each 
member is involved in the decisionmaking process. And a massive 
U.N. bureaucracy and numerous member States have a vested 
interest, as we know, in resisting reform and maintaining the 
status quo. Well, unfortunately, while they are reaping the 
benefits in the short term by using the United Nations as a 
cash cow, I think in the long term they are weakening the 
United Nations as a whole.
    And, Ambassador Holbrooke, in essence, your job will be to 
try and save the United Nations from itself. But to do that, 
you have to get the U.S. Mission's priorities straight. Now, if 
the U.S. Mission is truly as dedicated to creating a healthy 
and viable United Nations, then its first priority should be to 
press for real reform. And I know I have talked to you about 
this, and I think we are in agreement. The practice of 
disassociating from the consensus on major budget actions, in 
violation of Kassebaum-Solomon, should never happen again, and 
the certification of the Senate's benchmarks must reflect 
objective reality and not the U.N.'s wishful thinking or 
creative accounting.
    As the subcommittee chairman with U.N. oversight 
responsibilities, I look forward to working with you to ensure 
that we have the information, and also analyses, necessary to 
assert and ascertain that true reform is being achieved at the 
U.N.
    Now, the role of the United States in shaping the reform 
efforts remain a matter of contention, as we all know, at the 
United Nations. The U.S. has been often called a deadbeat. We 
have been called a bully. The U.S. has been accused of being 
heavy handed and, quote, not doing its fair share for the 
international community. And the U.S. has been berated and 
belittled at every turn by many of the countries that have been 
benefited most from the generosity of the United States, both 
in terms of security guarantees and also in terms of economic 
assistance.
    Now, Mr. Chairman, as I noted before, I believe Ambassador 
Holbrooke has the skills that are necessary to leverage our 
position as the most powerful Nation in the world and, as the 
largest contributor to the United Nations, to ensure greater 
transparency and accountability in the organization and, quote, 
a reformed United Nations.
    Now, the Secretary General noted, it will be more relevant, 
the United Nations, in the eyes of the world. And in this age, 
being relevant means that the great powers, including the 
United States, consider the U.N. to be a powerful tool in their 
foreign policy arsenal. So, to this end, I think the United 
States must help shape the United Nations to be an organization 
that the U.S. needs as much as the U.N. needs the United 
States.
    Now, with that, I would like to follow that up with a 
question, Mr. Holbrooke. As you are aware, the Secretary 
General's budget outline increases spending by some $13 
million, I think as the chairman noted, instead of making 
spending cuts, even though the U.N. is $5 million under budget 
right now in the current biennium.
    Are you confident that you would be able to get the U.N. to 
agree to a zero nominal growth budget of the $2.533 billion for 
the next biennium?
    Mr. Holbrooke. First of all, Senator Grams, I appreciate 
your opening comments. And I, too, look forward to working 
closely with you and your colleagues and your staff.
    On the specific question, I met informally over the weekend 
with representatives of the Secretariat. And the first thing, 
of course, that emerges is that everyone argues about what the 
actual numbers are. It is hard to get a straight figure out of 
them.
    I have already told them that, if confirmed, the issue of 
zero nominal growth will be critically important. I have 
expressed my astonishment that such a comparatively small, but 
clearly gratuitous, increase in the current climate could take 
place. And I cannot pledge to you I can reverse it, because I 
can say it, but I cannot promise I can do it. All I can tell 
you is that when I said to the chairman earlier that the reform 
issue is my highest sustained priority, within that, as you and 
I have already discussed privately in terms of prioritization, 
this comes right up at the top.
    I just do not understand why this kind of increase would 
take place now, particularly in light of the fact that they are 
under budget in expenditures. And it goes hand in hand with 
Senator Helms' earlier comments about the number of personnel, 
which is also hard to get a handle on. How many people actually 
work for the U.N.? I have heard a lot of different numbers 
here.
    In preparation for this hearing, Mr. Chairman, I said I 
think I am going to be asked that question. What is the answer? 
The crack team you see here in row behind me spent the whole 
morning with it and finally came back and said there really is 
not any number you ought to put before the committee today, 
because it is just impossible to define.
    So these two issues, which are closely related--budget and 
personnel--are the things I will focus on. And I will report 
regularly to you on how we are doing, and ask you to help.
    Senator Grams. Thank you, Mr. Chairman. I have some other 
questions, but I will wait until the next round.
    Thank you.
    The Chairman. Very well.
    You did not know it, but Senator Wellstone suggested ladies 
first. So, Senator Boxer.
    Senator Boxer. Thank you. And I want to thank Senators 
Feingold and Wellstone for deferring. I have been here a while, 
because I have been waiting for this opportunity to basically 
ask a question on one particular topic. And I think, Mr. 
Holbrooke, you know what it is, because we have talked a little 
bit about it. But I wanted to get you on the record on it. And 
when I ask this question, I do so on behalf of a lot of Members 
of the Senate, particularly the women Members of the Senate, 
who have come together to discuss a matter that is really 
eating at our hearts. And that is the violence against women in 
Kosovo--specifically, rape and sexual assault.
    Mass rapes have been reported in the Djakovica area and in 
other regions throughout Kosovo. And I want to read for you a 
section from the State Department report, ``Erasing History: 
Ethnic Cleansing in Kosovo.'' And this is a direct quote:

    Serbian forces raped women in an organized and systematic 
fashion in Djakovica and Pec. Rape victims were reportedly 
separated from their families and sent to an army camp, where 
Serbian soldiers repeatedly raped them. In Pec, refugees allege 
that Serbian forces rounded up young Albanian women and took 
them to a hotel, where they were raped repeatedly.

It goes on:

    The commander of the local base reportedly uses a roster of 
soldiers' names to allow all of his troops an evening in the 
hotel.
    In addition to these specific accounts, refugees claim that 
during Serbian forces' raids on their villages, young women 
have been gang-raped in homes and on the sides of roads. We 
believe that there may be many more incidents that have not 
been reported because of the cultural stigma attached to this 
offense in traditional Kosovar society.

    And that is the end of the quote.
    And in the next few months, I am afraid, Mr. Holbrooke, we 
are going to hear even more chilling accounts of these 
atrocities. Just days ago, NATO forces found a basement room in 
the Serb military police headquarters in Pristina filled with 
torture instruments, including knives, bats, brass knuckles, a 
pick axe, chains, and a black hood. One of the rooms of the 
torture chamber was described as a place where women were 
raped, and still contained several boxes of incriminating 
material, including pornography.
    And I would like to ask unanimous consent to place in the 
record an article, Mr. Chairman, that recently appeared--
actually, today in the New York Times. I think it was today--
``Deny Rape or Be Hated: Kosovo Victims' Choice.''
    The Chairman. Without objection.
    [The article referred to is in the appendix on page 135.]

    Senator Boxer. And, briefly, I am going to keep to my time. 
This is a story about a 22-year-old woman, married 4 months 
ago. She said she was taken from a small southern village by 
Serbian forces, held for a day in a local police station, 
beaten, and threatened with death, but she said, not raped. Her 
husband thinks differently: ``I am 100 percent certain they 
raped her,'' he said. ``I know that when women get in their 
hands, there is no chance to escape.''
    And this husband goes on to say his wife denies the rape 
because, ``she does not dare tell that kind of story.'' And he 
says, if she admitted it to him, he said, ``I would ask for a 
divorce--even if I had 20 children,'' as his wife listened, 
silent and shame faced in a corner of their empty home, looted 
of all furniture and possessions.
    The husband said, ``I do not hate her, but the story is 
before my eyes. I feel very cold toward her. Kissing her,'' he 
said, ``is like kissing a dead body.''
    So I think, Mr. Holbrooke, that when you get there--and I 
hope you get there--that you will make this issue a priority. 
Time does not allow me to read some other things I really 
wanted to do. But I need to know on the record what is your 
commitment to find help and justice for these women. It is hard 
for me to find words to explain how I feel about this. And I 
think that means specifically including counseling for these 
women. The funding that we just gave to help the refugees, some 
of it needs to go directly to help these women; enough 
investigators for the International War Crimes Tribunal; 
ensuring privacy for the women who come forward; making sure, 
again, that we do not let this be forgotten. Because, to me, I 
do not know how these women go on.
    In this other story--and I will close with this, Mr. 
Chairman, very quickly--there is a story of a 20-year-old, 
tall, blonde and shapely, the most beautiful girl in the 
village. She was with her husband when the soldiers grabbed her 
by the hair and said, she is our woman, not yours. They took 
her off. And when she came back 1 hour later, she was beyond 
distraught. She was screaming, pulling her hair, trying to 
stick her fingers in the electrical socket to kill herself, and 
she kept denying the rape to the men. She could not admit it. 
If she did, she would be done for. Her life would be ruined.
    Another woman in the camp was told by a Serb soldier: You 
Albanian women are strong. You have lots of babies. You are so 
strong, you can have sex with the entire Serb Army.
    And in conclusion, this person with--I think it is with the 
U.N.--says: that shows the ethnic animus of it. And you have to 
think of the deeper implication of these rapes. It can ruin 
marriages, prevent marriages. It can make them feel like 
damaged goods. Even a culture not nearly as judgmental as this 
would feel vulnerable. And that, of course, is part of the 
motivation--to humiliate and to make women feel powerless, that 
they do not have power in their soul.
    So I just want to get on the record how I feel, how a lot 
of Members of the Senate feel. And I want to know what your 
commitment is that you would bring to this issue in the United 
Nations.
    Mr. Holbrooke. Senator Boxer, of course I share your 
feelings. I first encountered these issues personally in the 
Balkans in the summer of 1992, when, as a private citizen, 
traveling at my own expense with the International Rescue 
Committee, I went for the IRC to some of the refugee camps in 
Karlavac, outside Zagreb, and on the Bosnian-Croatian border.
    And as I said earlier in response to the question from I 
think it was Senator Dodd, it is even worse than your story, 
because in many cases, the people know who the rapists are. And 
that is the governing difference, to me. Rape is awful in all 
contexts, and rape has always gone along with war in all 
contexts. But what makes this uniquely bad--and the article you 
quote tells it--is that they often know the perpetrators.
    There is a movie, Mr. Chairman, which I would recommend be 
made available to any Members of the Senate who are concerned 
with this, a documentary, called ``Calling the Ghosts,'' which 
was produced by Julia Ormond, which is a lengthy interview with 
two of the women who were at Ormuska camp in western Bosnia. I 
think Senator Biden is familiar with the movie.
    Senator Boxer, I do not know if you have seen the movie, 
but I would be delighted to get a tape to you of the movie. By 
the way, we have in the audience with us today our former 
Ambassador to Croatia, Peter Galbraith, if he is still here, 
who is particularly familiar with this issue and did a 
wonderful job of working on this issue.
    Senator Boxer. He is.
    Mr. Holbrooke. And Peter and I were very close colleagues 
on that. Because there is less stigma in Bosnia than in the 
Albanian clan system and these two women were lawyers, they 
just spoke out and described it in detail. And they have come 
to the States. One of the men killed and one of the men 
captured in the war criminal actions of the British around 
Banja Luka were in that group. So one of those people is now 
dead and another is under trial.
    Why men do this is beyond me. It obviously is not anything 
to do with physical gratification. To actually talk to the 
people, to actually be there is just extraordinary. But as we 
both know, this is not just Kosovo. It happened in Rwanda. It 
happens all around the world.
    Senator Boxer. So the main thing is can we count on you to 
see that these people get help with that refugee aid that we 
all voted for?
    Mr. Holbrooke. Yes, you can. Barbara Larkin, who is here 
today, our Assistant Secretary for Congressional Relations, can 
also follow on this. We need to talk to Julia Taft, our 
Assistant Secretary of State for Refugees, and to other people, 
to make absolutely sure that this gets special attention. The 
risk, Mr. Chairman, here is--I know the bureaucracy so well--
that this issue will fall between the cracks. And money will be 
allocated for everything else, and there will be nothing for 
this issue.
    The victims need special counseling. And perhaps they may 
need special dispensation to find another place to live. The 
story you tell is not just one story. That is going to go on 
across the region.
    I personally will commit myself to it. I have talked to 
Secretary General Kofi Annan about it. He shares our concern. 
He also extends it to the larger issue of abuse of women in 
other ways, particularly in his native continent of Africa. And 
yes, you can be assured that I feel deeply about these issues 
personally and I will work on them.
    Senator Boxer. Thank you.
    The Chairman. Senator Wellstone, if you will proceed.
    Senator Wellstone. Thank you, Mr. Chairman.
    First of all, just building on this question, Mr. 
Holbrooke, from Senator Boxer, I appreciate your response. And 
I appreciate your question, Senator Boxer. As I was thinking 
about this, I was almost thinking about the Torture Treatment 
Center in Minnesota, which really is a holy place.
    I mean you can focus on physical infrastructure. You can 
focus on getting the food. And it is so easy to lose sight of 
the ways in which people can just be so destroyed--in this 
particular case women--and you meet with people at that Torture 
Treatment Center--God knows, I wish there was not such a need 
for such centers. And God knows, I wish there was not going to 
be a need for this kind of support--but there is. And I 
appreciate your response.
    I have not know Mr. Holbrooke as long as Senator Dodd, but 
I want also to associate myself with the remarks of other 
Senators, saying that I really believe--I appreciate your 
leadership and I appreciate what you have done for our country, 
what you have done for the world, and I certainly hope you will 
be our Ambassador, and I really look forward to working with 
you.
    I have three quick questions. One on Tibet. You have been 
there several times. I wonder whether you could maybe talk a 
little bit to the committee about your views on the need for 
some kind of a political solution in Tibet, and, as Ambassador, 
how you might advance those views with the Chinese Government, 
if confirmed.
    Mr. Holbrooke. Thank you, Senator Wellstone.
    Before responding to your question about Tibet, may I just 
say that I have had the honor to visit the center in 
Minneapolis, run by--if my memory is correct--Doug Johnson. Is 
that correct?
    Senator Wellstone. That is correct. If in doubt, if you 
mention the word ``Johnson,'' in Minnesota, you have got a 
pretty good chance of getting it right.
    Mr. Holbrooke. This center is remarkable. It was the first 
center in the United States. And I commend both you and Senator 
Grams for your support of it. Your photographs and that of your 
staff are on the walls there. And they talked very greatly 
about what you had done for it. And I share your views.
    On Tibet, Senator Wellstone, for various reasons, Tibet has 
always been a special personal interest to me. And I have, as 
you said, made three trips there, including one to western 
Tibet, to the nomad areas. I have talked often and frequently 
to Chinese officials, including President Jiang Zemin, about 
the Tibet issue. Whatever one thinks of the rest of the Chinese 
issue, what is happening in Tibet must be an issue of enormous 
special concern.
    And I feel that Tibet is a unique cosmology and a unique 
culture, and it is severely in danger by encroachments on the 
high plateau of a influx of Han Chinese. I have worked closely 
with His Holiness the Dalai Lama and with his Washington 
representative, Mr. Luddy Gary, and with other Tibetans, in 
assisting them in an informal and private citizen manner, and 
have done everything I can to deal with this issue.
    I was encouraged last summer at the press conference that 
President Clinton and Jiang Zemin had on the subject, and I am 
genuinely stricken, Senator Wellstone, by the fact that that 
dialog has now broken down again. And without going into 
details, which I do not think would be productive in a public 
forum, I would just say that this issue is a very special 
concern to me, and I will do everything I can to further it.
    And I believe that the Dalai Lama's position has been 
misconstrued by some people in Beijing. And I believe a 
solution is possible that protects the rights--cultural, 
religious and personal rights--of the Tibetan people within the 
sovereignty of Beijing, which the Dalai Lama does not question. 
And within that framework, I will be available to work on that 
issue if I can, because I really care about it.
    Senator Wellstone. This little light here is going to turn 
red in a second, so I will not really ask for a response to the 
second question, but I maybe will put it in writing to you. I 
have been doing a lot of work and I hope this will kind of 
reach fruition with Senator Helms, the State Department and 
other people, this whole issue of--it is hard for me--it is 
almost like Senator Boxer's question--it is hard for me to just 
comprehend what this means, those stories she talked about--
about dealing with the whole issue of trafficking, trafficking 
mainly of women and children--in part, used for prostitution; 
in part, used for forced labor in homes. And I want to maybe 
talk to you some time about what role you would see for the 
United Nations in trying to address this problem. I really 
believe there ought to be a response and we ought not to just 
turn our gaze away from it.
    Finally, since you mentioned Ambassador Galbraith, I wanted 
to just say, Mr. Chairman, that I have had a chance to stay 
with the Ambassador when I was traveling and I have had a 
chance to be in touch with Peter Galbraith since. And I am 
really glad to see him here. And I think he has been just an 
incredibly strong voice for our country playing an important 
role in foreign affairs. And I think he was a courageous, 
courageous Ambassador.
    Thank you.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I do want to 
thank the chairman especially for the manner in which he has 
conducted this confirmation process--thorough, but fair, and I 
think it is a very good thing. I do look forward to Ambassador 
Holbrooke's confirmation. I think he has been a brilliant 
influence on our country's foreign policy. And I think he will 
do much more for us in this position.
    We talked about this briefly, privately, and you know of my 
interest, Mr. Ambassador, but the United Nations is supporting 
the conduct of a consultation on autonomy in the troubled 
region of East Timor on August 8--or we think it will be on 
August 8. This has been one of my highest priorities since 
coming to the Senate in 1993. If you are confirmed prior to 
August, as I certainly hope you will be, I would like you to 
commit to helping ensure that U.S. support for this effort, 
both financially and diplomatically, continues to be robust. 
This is not only of concern to me, but of many Members who have 
been working on this issue in both the House and the Senate, in 
many cases, long before I came to the Congress.
    What do you think are the prospects there? And do you think 
the poll will actually be held on August 8?
    Mr. Holbrooke. I cannot answer this question, particularly 
in light of today's newspaper accounts, quoting U.N. officials, 
talking about a possible postponement. My instinct, Senator 
Feingold, is that a postponement would not be the right thing 
to do, although I have heard people argue both sides of it. I 
have not worked on this problem for many, many years directly, 
but I have followed it because of my prior involvement with 
Indonesia and with the region, and also because of a personal 
friendship with Jose Ramos Horta and other people who work on 
the problem--one of whom, David Phillips, is in the audience 
today, who has been a very close supporter of the East 
Timorese.
    The administration welcomed the creation of UNAMET, and 
wants the consultations to take place on August 8. The U.S. has 
given $9 million to the U.N. voluntary trust fund, and has made 
available 30 American police officers for the civilian police--
and three military liaison officers, I might add. This puts us 
in the same range of major donors as Australia, Portugal and 
Japan. Congressional support has made this possible.
    I will pay a lot of attention to this issue for all the 
reasons that you outlined and more. But in light of today's 
news, which I know only what I read in the newspaper accounts, 
I am a little bit concerned about it. And what I would like to 
do, with your permission, Senator Feingold, is speak to other 
people and perhaps talk to you privately about it in the next 
day or two. Because I know of your deep personal concern about 
it, and I pledge to you that I will share that concern, as I 
have since 1977.
    Senator Feingold. Well, I appreciate that. And what I am 
looking forward to is, given the tremendous contribution you 
have made with regard to Dayton and Bosnia and Kosovo, this to 
me is one of the very logical candidates for your energy and 
abilities to be applied.
    Let me just let you know that this news today only suggests 
that the referendum may be postponed 2 or 3 weeks. So I would 
not want to send a signal that any of us believe that it is an 
open-ended type of thing. It is an important opportunity. It 
needs to be held either on August 8 or some time near that 
time, as long as we can be assured of a safe and fair vote. And 
I do appreciate your commitment.
    Another thing I want to ask about has to do with the 
International Criminal Tribunal for Rwanda, which has been 
responsible for indictments against more than 40 individuals 
and has in custody several individuals presumed to have led and 
directed the 1994 genocide, the so-called Big Fish. And you 
even referred to this situation.
    I believe this is very important. If anything, the 
international community has to send an unmistakable signal that 
such horrible crimes cannot be committed with impunity. In 
fact, after Senator Boxer's powerful presentation and in fact 
your reference, Ambassador Holbrooke, I am not certain, but I 
believe the Rwanda Tribunal was the first to issue convictions 
as to rape as a war crime. So this is highly relevant, the work 
of this tribunal, to the earlier discussion.
    However, the mandate of the tribunal, as I understand it, 
is limited to acts committed during calendar year 1994. And I 
raised this at a recent Africa subcommittee hearing, and today 
I appreciate--thanks to the help of the chairman and the 
ranking member, Senator Biden--that my amendment was added to 
the State Department authorization bill today, which will 
extend the authority of this tribunal beyond 1994, to make it 
essentially the same kind of status as the tribunal with regard 
to the Balkans. Given these facts, I am hopeful that you can 
express your support for this provision.
    Mr. Holbrooke. May I just clarify, Senator Feingold? I 
share your concerns. But what is the specific provision that--
--
    Senator Feingold. The current mandate of the tribunal with 
regard to Rwanda is limited only to events in 1994, not events 
since that time. I would like to see that authority extended to 
the present, just as is the case, as I understand it, with the 
authority for the tribunal that is working with regard to 
Kosovo and some of the crimes that were committed there. And as 
I said, this was adopted by the Senate today as a part of the 
State Department authorization bill.
    Mr. Holbrooke. I have just been handed my talking point. 
But since it does not address your question, I am going out on 
a limb and just say I will support your proposal.
    Senator Feingold. Well, I knew I was going to like your 
tenure.
    Mr. Holbrooke. Senator, I am sure that as soon as the 
hearing is over, I am going to be told I have broken all the 
rules, because I did that. I can hear Barbara Larkin already 
laughing nervously. But since I have no instructions, if 
confirmed, I will support your proposal. I was unaware of the 
extension issue, but I think anyone who has read Philip 
Greyovich's book about the killings in Rwanda understands that 
this was worse than Bosnia. It was worse than Kosovo. We cannot 
forget it. And we must support this tribunal. And to 
arbitrarily limit the scope of its area does not make any sense 
to me.
    Senator Feingold. Well, I thank you. And if I know anything 
about either the practice of law or politics, I will stop right 
now.
    Senator Grams [presiding]. Thank you, Senator Feingold.
    Senator Biden, did you have any other questions?
    Senator Biden. I do. I have one, Mr. Chairman, if I may.
    One of the first things you and I discussed, Mr. 
Ambassador, is when I came back from a visit with Mr. 
Milosevic. I remember I was talking about this both at the 
Department and at Blair House. And I remember you agreeing with 
me, but giving me if not verbally, with your body language, 
some advice that I should be less passionate about the way I 
was making my case to the President about the rape camps that 
were set up in Bosnia, not in Kosovo--I would not be surprised 
if we find that out--but in Bosnia.
    And I want to relate one incident with you to underscore 
the point of the extent to which--how deep the feelings are 
here in the Congress. And I know from hours of discussions you 
and I have had and my seeking your advice on the Balkans 
repeatedly, I know how deeply you feel about it. But let me 
just recite this one incident.
    I guess it was 1993 which generated all these flurries of 
meetings that your--well, maybe your predecessor some day, but 
Secretary Christopher--asked me to come to the State Department 
to be debriefed on a trip I had just taken to Belgrade and to 
Sarajevo and a failed attempt to get into Srebrinica. And I had 
then with me two staffers that were on my staff then, John 
Ritch, who you know well, and Jamie Rubin, who you know well.
    And we had a meeting, a long, private meeting, with Mr. 
Milosevic. And we sat in his office--I am guessing now--it was 
from like 7 in the evening until close to 11:30. And you have 
been in that office many times. You know that little, small 
conference table on the back wall, down from his desk. And we 
were in argument over what was going on in Bosnia. And he kept 
saying he had nothing to do with any of this. I had to talk to 
Mr. Karadzic. It was not him, it was the Bosnian Serbs, et 
cetera.
    And at one point, about 10 o'clock at night--maybe a little 
later--he finally looked at me in exasperation and he said--he 
never got flustered, I might add, by the way--he never got 
flustered--he looked at me and he said: Would you like to speak 
to Mr. Karadzic? After telling me how he had no control over 
him at all. And I said that yes, I would.
    And I know you know the office. He got up from that desk, 
that little table, and stepped two steps back to a phone 
against the wall. And he got on the phone. And I do not 
understand Serbo-Croatian. I do not understand what he was 
saying. And he put the phone down. And we go back to arguing 
about the maps, because it was the Owen plan then and cantons.
    And about 25 minutes later, in that beautiful Hapsburg-era 
building he has his office in, and that big center staircase 
that goes up to his office--there is no one else in the 
building except guards--and I hear somebody running up the 
stairs. The door bursts open, and a guy with a full shock of 
hair--the only part about him that I envied--a full shock of 
hair--turns the corner and is gasping for breath. I am not 
exaggerating. I thought he was going to have a heart attack. He 
immediately sat down in the seat next to President Milosevic 
and said: Mr. President, I am sorry I am late.
    And I am wondering, who the hell is this guy. And he looks 
across at me and says: Senator Biden, I am pleased to meet you. 
And with that, the President said: Dr. Karadzic. And I looked 
at Milosevic and I said: No influence? And he did not respond. 
And then Karadzic made a few comments.
    And here is the point. He finished his few comments, and I 
looked at him and I said: I would recognize your voice 
anywhere, Doctor. And he kind of lit up in recognition. And I 
said--and I was not telling the truth--I looked at him and I 
said: Your voice sounds exactly like those intercepts we have 
to the rape camps. And I am not exaggerating when I say he 
turned as white as that sheet of paper and did not say another 
word. That is when I knew for absolute certain that there were 
actually organized rape camps in Bosnia.
    I suspect--and you know this so much better than I do--we 
are going to find modified versions of that in Kosovo. And here 
is my question. Notwithstanding Senator Boxer's ardent plea for 
support--I have no doubt about your support of pursuing this--
how do we deal with the cultural difficulty? Because, as you 
know, one of the reasons for the rape camps was to despoil 
Moslem women, because there is in fact part of the culture that 
these women will be ostracized. And even worse, if they give 
birth to a Serbian baby, they are done, gone.
    Do you have any sense of how we get our hands around this 
issue in a way that allows for the gathering of the evidence to 
be able to be produced at trials without doing more damage from 
their perspective to the women who are already victimized, so 
they are not victimized twice like that woman accounted for in 
the New York Times article, where she is victimized by the 
Serbs and then, in my view--I am going to get in trouble for 
saying this--victimized by her own culture, by her husband, who 
patronizingly apparently kisses her on the head and said it is 
like kissing a cold body?
    Mr. Holbrooke. Well, Senator, the reason for the systematic 
rapes--some of the rapes were not systematic--but the reason 
for the systematic ones that took place in western Bosnia and 
may also have taken place in Kosovo--that remains to be 
determined--was precisely intentional. The people doing the 
rape were doing it because they understood the culture and they 
understood the consequences.
    Senator Biden. Another form of ethnic cleaning in a bizarre 
way.
    Mr. Holbrooke. And destroying the family structure. And 
that story that Senator Boxer told, if it were a one-time-only 
story it would be sad enough, but it is not going to be a one-
time-only story. There is nothing--I have to be honest with 
you--there is nothing the United States, the United Nations or 
the world community can do to change a century-old culture's 
attitudes toward rape and toward women. And this is equally 
true in other parts of the world, as well.
    I lived in North Africa, in Morocco, for 2 years, and saw 
similar problems. The de-stigmatization of rape has only begun 
in this country in recent years.
    Senator Biden. That is true.
    Mr. Holbrooke. And we pride ourselves on being the most 
advanced country in the world on this. And it has taken some 
very brave people. Those two women in Julia Ormond's film, 
``Calling the Ghosts,'' which you are familiar with, are 
incredibly brave. They knew what they were doing, and they are 
well-educated. They stood up and said what they had to say.
    That is why in my answer to Senator Boxer's question I 
suggested that we need special programs and dedicated funds to 
deal with the victims, and perhaps there may be cases where the 
victims cannot continue to live in their original culture. The 
damage has been done, and we cannot change the culture.
    My greatest concern is that there is no real dedicated, 
programmatic funds for this, that it falls between the cracks 
within our own bureaucracies. And I would hope that Barbara 
Larkin and her colleagues, and, if confirmed, myself, will go 
to work on this. And I think we should be sure that Julia Taft 
and her colleagues, people in AID, look at this from a 
programmatic point of view. Because it will take the kind of 
things which the Minnesota center is doing on an individual 
basis, but en masse.
    Senator Grams is more familiar than I am, and his staff 
more familiar also, with the number of similar centers that 
exist in Europe, which have to be brought into this. But I 
believe that there are now something like 180 centers of that 
sort. Is that correct, Senator Grams?
    I know that Pamela Thiessen is familiar with this issue. I 
had understood from Doug Johnson that there are about 100 
centers in Europe working on this, and they all have to work on 
this issue. I will work on it, but we are not going to be able 
to undo the damage. It was part of a war crime.
    And I must say also, Senator Biden--and I expressed this to 
Doug Johnson and his colleagues when I was in Minneapolis--I do 
not understand the perpetrators either. I do not understand 
what they think they are doing. The whole thing is so barbaric 
and so grotesque. And the closer you get to it, the more 
details you get from the people involved, as we saw in 
Minneapolis, the more unbelievable it is.
    Senator Biden. The only thing it reminded me of--if I may, 
Mr. Chairman--is this notion of absolute--to be going at that 
part of a rival or enemy--in this case, culture--going at the 
thing that they value the most, it reminded me of what we 
talked about, and no one believed us--you talked about it, but 
no one believed this--when we pointed out that the Serbs had a 
policy in Bosnia of sitting up on the hillsides with powerful 
high-caliber rifles with very sophisticated scopes on them, 
with one express purpose: only to maim Moslem children in the 
old sector of Sarajevo.
    And I remember telling Bob Dole that. And he looked at me 
like I was making it up. And it convinced him because the 
Ambassador sitting behind you, a former staff member here, we 
went to see. We went to Split. And the Ambassador came down and 
we went into the hospitals in Sarajevo. And we stood at the 
bed. There was no one in this gigantic hospital except seven 
children, Mr. Ambassador, if I am not mistaken.
    And they were specifically the victims of snipers. They 
were not sniping at men. They were only children. And they 
could not scare them out by taking out adults, so they figured 
the one thing that would have the effect of cleansing the area 
would be for a parent to have to face the likelihood or 
possibility of their child being maimed by a sniper.
    And I will conclude by saying that when I first got to the 
sector and saw, in a previous visit, the sheets and blankets 
hanging across streets, like Crossing Delancey, it was like the 
East Side of New York depicted in 1910, where clotheslines were 
across the street and laundry hanging from them. And I thought, 
gee, this is a strange thing. Why do they have these blankets 
hanging from the street?
    It looked like they were drying. I am old enough to 
remember back in the fifties, you still put laundry out on the 
clothesline in the backyard. And I realized it was done for one 
reason: to cutoff the line of sight of a sniper so that the 
little tyke could go from mom's house to grand-mom's house, 
across the street, with a diminished likelihood of being shot.
    It is astounding to me how--and this is the closest thing 
that I could think of--it is totally different in terms of the 
method, but the purpose seemed to be the same as the rapes, 
seemed the same as the rape camps. But I appreciate your 
necessarily sober assessment. I guess there is no way we undo 
the damage.
    Mr. Holbrooke. The goal in every case is to debase people, 
dehumanize them, and destroy their social fabric. And it 
happens all over the world. We are focusing on Kosovo today, 
but, in a sense, they are actually slightly less unfortunate 
because we are sitting here talking about them and because this 
conversation will result in resources being addressed to it. 
But it happens elsewhere as well.
    Senator Biden. Thank you, Mr. Chairman.
    Senator Grams. Thank you.
    The people who have been through the Minnesota Center for 
Victims of Torture, and you hear the details you have talked 
about, and you are surprised that such things go on. But, as 
you mentioned, how the perpetrators can even perform some of 
these acts of torture on some of these victims is hard. So it 
is a story in itself.
    Mr. Holbrooke. Well, I know, Mr. Chairman, that they are 
incredibly grateful to you for your continual support. And that 
is an inspirational thing. And I hope that more Americans are 
aware of it and visit it.
    Senator Grams. Just a couple of quick questions to wrap up 
the hearing. I know we are going a little late and everybody 
would like to leave, but just a couple of quick questions.
    And you mentioned this earlier, with the ACABQ. And as you 
know, right now, the elections are coming up. The United 
States, to my knowledge, still has not put forward a candidate. 
I know some of the other countries, like France and New 
Zealand, have already done so. And as you know, membership on 
the ACABQ is one of the most effective tools that we have when 
it comes to the budgetary problems that we are all concerned 
about and want to work on.
    One of the benchmark is very important. And that is an 
assurance that the five largest contributors be a member or 
have a permanent seat on the ACABQ. And as you know, the United 
States is the largest contributor. And the fact that we are not 
even a member of one of the most important committees--and that 
is dealing with the budget.
    So would you prod the administration into putting forward a 
very qualified candidate, a nominee who is considered by the 
U.N. to be an expert on budget matters, and to do this as soon 
as possible, to make sure that we regain that seat on the 
ACABQ?
    Mr. Holbrooke. Mr. Chairman, in preparation for today's 
hearing, I was informed that in fact the State Department did 
put forward a candidate last week. Now, as a nominee with no 
involvement, I was uninvolved in that decision. I do not know 
the person who was nominated. And I played no role in it. But I 
can report to you that perhaps because they knew you were going 
to ask the question, or for some other reason, that issue at 
least is resolved.
    Senator Grams. We are looking forward to your help, then, 
also in making sure we----
    Mr. Holbrooke [continuing]. And on the other point, if the 
law that was passed by the Senate becomes a fully enacted law, 
we will batter these doors down. If, for whatever reason, we 
hit further obstacles, it is going to be a real struggle. But, 
either way, it has to be one of my highest priorities, and it 
will be. And as you know, under the regional grouping system, 
we are going to have to fight for our place. But I will do so.
    Senator Grams. Speaking of regional grouping, also the 185 
nations which are U.N. members, Israel is the only one excluded 
from possibly holding a seat on the Security Council, the 
Economic and Social Council and many other commissions and 
committees because membership is restricted to countries 
belonging to regional groups. And I have promoted efforts to 
get Israel accepted into WEOG, the West Europe and Other 
Groups, which, by the way, the United States also is a member 
of, and remains closed to Israel at this time.
    What efforts are you planning to ensure that Israel has the 
same opportunities for influence at the U.N. that every other 
nation has?
    Mr. Holbrooke. I think this is outrageous that Israel is 
not in a regional group. And I will really work on it. There 
are three or four different ways to deal with this that come to 
mind. But I would also just say to you, Mr. Chairman, speaking 
very much as an outside observer, that the whole regional 
grouping system has become a little bit weird.
    Obviously there is nothing wrong with regional groupings. 
We have regional bureaus in the State Department. You have 
subcommittees that are on a regional basis. You have caucuses 
in the Senate and the House. But what is this Western Europe 
and Other Group all about? What are Australia and New Zealand 
doing in the Western European Group?
    The State Department moved Australia and New Zealand out of 
the European Bureau in 1961. And as I understand it, the 
Australians and New Zealanders would like to be considered part 
of the Asian-Pacific region, which happens to be where they 
are. What are these groupings about?
    Should the United States even be a member of a grouping? If 
we withdraw, we would reduce our chance of getting on 
committees. Should we participate in a system which does not 
seem to have its original rationale, or its original rationale 
has gotten perverted? I need to learn a lot more about it.
    But to anyone listening today, I want to say that I am 
prepared to do a full-scale, bottoms-up review of this concept. 
I have talked to the Secretary General on a personal basis 
about it. He knows how I feel. And I will make this an 
important issue, working closely with them and with our 
European friends, who have not been very helpful on this issue 
for reasons you are very familiar with.
    Senator Grams. I think it is outrageous that Israel is the 
only one excluded from these groups.
    Mr. Holbrooke. It is ridiculous. One other country is not 
in a group, Estonia, but that is by choice.
    Senator Grams. And one final question. I realize you are 
probably not very keen on inspectors general at this time, but 
I hope you recognize the need for effective oversight at the 
United Nations, particularly given that according to U.N. Under 
Secretary General for Management, Joe Connor, OIOS is 
technically not a priority at the U.N.
    So my question to you is, would you work to ensure that all 
OIOS reports are made available to all member States regardless 
of whether they were forwarded to the Secretary General? And as 
you know, last year, only 39 of 162 reports were made 
available. So we would like to have some openness and 
transparency in these reports.
    Mr. Holbrooke. I was not aware that only 39 had been made 
available. I talked to Joe Connor informally over the weekend 
in preparation for this hearing. He knows that whether it is 
his priority or not, it will be one of ours. I did not, by the 
way, Mr. Chairman, get the impression that he considered it an 
unimportant issue. He understood its importance. I need to 
learn a lot more about this, but of course I understand its 
importance. And I think that it is going to require additional 
pressure. It may require additional funding. And we have to 
have these functions extended to the specialized agencies. So 
that is a big issue.
    I hope Ambassador Loftus is still in the room to hear your 
comments. I cannot see behind us here. But he can report them 
directly to Gro Brundtland of the WHO. I will certainly pursue 
it.
    Senator Grams. That is all the questions I have.
    Senator Biden.
    Senator Biden. You mean you cannot see behind your head? I 
thought you could, based on all the powers that had been 
attributed to you over the years.
    Mr. Holbrooke. If I could have, I would have been here a 
lot sooner, Senator.
    Senator Biden. Mr. Chairman, Chairman Helms asked me to 
point out that Ambassador Holbrooke has one more hearing. The 
final hearing will be on Thursday, at 10 a.m. And he indicated 
to me that at that time we will consider the policy on the 
Balkans. I know that we have begun to cover that. I apologize 
for jumping the gun here. And he asked me to suggest that we 
also keep the record open for 3 days for Senators to submit 
questions from today.
    Senator Grams. We will do that.
    And also for the members from the GAO, Mr. Johnson and 
others, I have some other questions that I would also like to 
submit to them. So I would also hold the record open for that, 
in case other Senators would like to submit questions.
    [Submitted questions and responses appear in the appendix 
on page 119.]

    Senator Biden. Excuse me, Mr. Chairman.
    I see Senator Sarbanes approaching.
    Senator Grams. We were that close.
    Would you like to have a couple of moments?
    Senator Sarbanes. I do not have any questions. I was going 
to watch for a while, but I see you have finished. I want to 
say that I think it is really important to get this nominee 
into place. We have been without a permanent confirmed 
representative for a long time. I just got a report the other 
day from someone who used to be in the foreign policy operation 
here, who was up at the U.N., He got in touch with me to say 
that we really need a permanent person on post. He felt that 
U.S. interests were really suffering in many subtle ways. While 
nothing major or catastrophic, he mentioned many small small, 
subtle ways. I think we probably all share that view.
    Senator Biden. I think the chairman does, as well.
    Senator Sarbanes. I just hope we can move this nomination 
out of here promptly at the conclusion of the hearings, and 
move it through the floor. It is certainly within the realm of 
accomplishment that we could have Dick Holbrooke confirmed 
before we break for the Fourth of July. I think it would be a 
terrific accomplishment if we could do that. I hope we can work 
together to try to accomplish that.
    Senator Biden. That is the objective.
    Senator Grams. Thank you, Senator Sarbanes.
    Thank you, Mr. Holbrooke, for your patience.
    This hearing is now concluded.
    [Whereupon, at 5:40 p.m., the committee adjourned, to 
reconvene at 10 a.m., June 24, 1999.]



THE NOMINATION OF HON. RICHARD C. HOLBROOKE TO SERVE AS U.S. AMBASSADOR 
                         TO THE UNITED NATIONS

                              ----------                              


                        THURSDAY, JUNE 24, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:23 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Smith, Ashcroft, Biden, Sarbanes, 
Dodd, Kerry, Wellstone, and Boxer.

   OPENING STATEMENT OF JESSE HELMS, U.S. SENATOR FROM NORTH 
                            CAROLINA

    The Chairman. The committee will come to order. This is the 
third hearing in the Foreign Relations Committee's 
consideration of Mr. Holbrooke's nomination to be United States 
Ambassador to the United Nations.
    This morning we will consider his role in crafting U.S. 
policy toward the former Yugoslavia, and let me say, Mr. 
Ambassador, and I do not hesitate to call you that now, I 
received a letter on this subject a few months ago from a 
citizen from our State who I do not know personally. We checked 
into it, and I thought I would bring it to your attention and 
maybe you would have an opportunity to discuss it.
    His name is Mr. John Delich, D-e-l-i-c-h. Do you know him?
    Mr. Holbrooke. No, sir.
    The Chairman. Here is what he wrote to me, and I will not 
quote all of it. He says, ``Slobodan Milosevic is the man we 
made a partner in resolving these crises, and has pulled the 
rug from under our feet once again. We have supported him all 
along in order to end the wars that he started, a classic case 
of the arsonist who started the fires being appointed to be 
chief fire marshall.''
    Now, Mr. Holbrooke, I think it is accurate that you have 
spent more time with Slobodan Milosevic than anybody else in 
the administration, and I believe at one point you held the 
view that he could possibly play a useful role in achieving the 
Clinton administration's policy in the Balkans.
    Now, I am confident that you did various things in an 
effort to make Mr. Milosevic a partner for peace in the 
Balkans, but in retrospect I would like your views as to 
whether making Milosevic our partner was a misguided policy, 
especially in light of his indictment last month as a war 
criminal. In any event, as my correspondent from North Carolina 
has indicated, that policy had consequences.
    It had consequences for the opposition forces in Serbia, 
struggling to develop an alternative to Milosevic's 
undemocratic regime. It also had consequences for the ethnic 
Albanians in Kosovo, and specifically in your testimony, I ask 
that you discuss for me and for the record the deal, if I can 
use that word, that you reached last October with Mr. Milosevic 
on Kosovo.
    At that time, NATO was threatening air strikes if Milosevic 
did not concede to NATO's demands, but instead of telling 
Milosevic either to withdraw his forces or face NATO air 
strikes, you returned apparently from Serbia with a deal which 
allowed Milosevic to keep thousands of Yugoslav Army and 
Serbian police forces in Kosovo, the same forces who later 
carried out the brutal ethnic cleansing and mass murder that we 
have just witnessed on television and elsewhere in the past 
months.
    Now, to conclude, I am concerned that the fact that the 
United States felt obliged to go to war against Yugoslavia this 
past March was an obvious conclusion of doing business with 
Slobodan Milosevic, and that is the view of my friend whom I do 
not know personally from North Carolina.
    I want you to have the opportunity today to discuss your 
relationship with Milosevic, that is to say, whether now in 
retrospect you feel the U.S. policy of bolstering his position 
was, indeed, a mistake, and more so than anything else I hope 
you will make a commitment to support a vigorous policy aimed 
at getting rid of Milosevic for once and for all.
    Senator Biden, before he does that, we will hear from you.

 OPENING STATEMENT OF JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Mr. Chairman, I ask unanimous consent that 
my entire statement be placed in the record and, if I may, I 
would like to briefly summarize it.
    As is often the case with individuals who think outside the 
box, who get the big picture and try to change it, Dick 
Holbrooke quite frankly may be more appreciated in Europe than 
he is here, even though he angers them because he has done the 
right thing by moving when we have had to.
    I think it is important to acknowledge that, as we look at 
the Balkans policy, it is a tapestry which in large part in 
this administration has been woven by Dick Holbrooke. It may be 
that there are parts of it that some would not like, but I 
would suggest that without that Holbrooke tapestry hanging on 
the walls there, the walls would be bare still.
    I admit, I am grateful he returned my calls all the time. I 
was sort of a pit bull on some of this stuff, and fortunately I 
was a Senator and he was a diplomat, because diplomats must 
have patience, and he possessed it in abundance.
    But the bottom line is, I think that I am going to try to 
avoid in my questions, Mr. Ambassador, going back to what would 
you have rather done. I am going to try to stay out of 
personalities here, because when we talk about this policy, the 
Secretary of State has played an enormously large role, and I 
believe her steadfastness has been one of the critical factors 
in our ultimately prevailing, thus far at least.
    But I would like to explore with you, even though it is not 
your primary brief as a U.N. Ambassador, what we do from here, 
and I would like to--when my time to question comes, I think 
there are certain lessons we should draw from the good work 
that you did in the Dayton Accords and its implementation in 
Bosnia. I hope you understand that I am going to suggest that 
you comment on some of the lessons I think we should learn from 
Bosnia that are not meant as criticisms of Dayton.
    I think it is an enormous feat that Dayton was pulled off 
and you got us where we were. It is like now. The very people 
who were talking about not getting involved, about negotiating 
with Milosevic, partitioning now, redrawing borders, stopping 
the bombing, et cetera, are now saying, you know, we really 
messed up, Milosevic is still there. They are complaining that 
the very guy they wanted to negotiate with is still there.
    We tend sometimes not to focus on what we have 
accomplished, and we go immediately to what is not right with 
the circumstance as it exists.
    I would like to respectfully suggest, Mr. Chairman, that 
had we not pursued the policy that Dick Holbrooke was in large 
part responsible for through the Kosovo crisis, that we would 
be facing much, much more serious problems. There is no 
implicit criticism in my questioning, because these are all 
tough calls, but I would like to focus most on what do we do 
from here, and what differently should we do in Kosovo than 
what we did or are doing in Bosnia, because there are different 
circumstances.
    So I welcome you back, and again, I cannot yield without 
saying once again how much I appreciate, Mr. Chairman, how fair 
and gracious you were. There is an old expression, the proof of 
the pudding is in the eating. I hope now that we are completing 
the last of the three hearings everyone will understand the 
absolute truth of what I said at the outset, which was that you 
in no way were the reason why this was delayed.
    You in no way were the reason why we had difficulty getting 
to this point in the first hearing. Once it was put in your 
hands, once you were in charge, it has moved swiftly, smoothly, 
and fairly, and I appreciate it.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Thank you, Mr. Chairman, both for expeditiously scheduling this 
series of confirmation hearings and for the cooperative spirit in which 
you and your staff have prepared for them.
    Today we are considering Ambassador Holbrooke's role in recent 
American policy toward the Balkans. In doing so, I would like to use a 
sports metaphor.
    If anyone has ever watched a diving competition, in the Olympics or 
elsewhere, he or she will remember that each kind of dive comes with a 
so-called ``degree of difficulty.'' A relatively easy kind of dive 
might have a ``degree of difficulty'' of one-point-eight. A more 
difficult one might have a two-point-seven, and so on.
    The judges' numerical evaluation of the competitor's performance on 
each dive is then multiplied by the ``degree of difficulty'' of that 
kind of dive in order to get the competitor's score.
    Well, Mr. Chairman, translated into international politics, Balkan 
diplomacy must surely have the highest ``degree of difficulty'' in the 
world.
    I know of no other area with such an explosive mixture of jumbled 
ethnic and religious groups, geographic barriers to cooperation, 
economic complexity, tortured history, and--last but not least--
assiduously cultivated, purposeful distortions of history in order to 
serve current political ends.
    With that ``degree of difficulty'' even a mediocre performance in 
Balkan diplomacy would result in a fine score.
    But, Mr. Chairman, Ambassador Holbrooke's ``raw scores''--his 
accomplishments at Dayton and elsewhere--have been excellent. Combined 
with the Balkan ``degree of difficulty'' factor, his performance has 
been nothing short of remarkable.
    Anyone who doubts this conclusion need only look at what others in 
the field of Balkan diplomacy have failed to accomplish. In short, Dick 
Holbrooke has produced.
    As is often the case with individuals who think ``outside the 
box,'' who get the big picture and try to change it, Dick Holbrooke may 
well be more appreciated in Europe than here in his own country.
    Many Europeans whom I know--and these are not unsophisticated 
types--grudgingly view Ambassador Holbrooke as some kind of a hard-
driving magician, who pulls rabbits out of hats after first flattening 
any other animals who might pounce on the rabbit.
    The Europeans may fault him for allegedly not having consulted with 
them enough, but very few of them criticize his final product.
    This is not to say that Ambassador Holbrooke is perfect. Nobody is, 
and in the question-and-answer period, I plan to ask him what, in 
retrospect, he feels he might have done differently at Dayton.
    But let's be honest. Whatever the flaws in the Balkan diplomatic 
tapestry Dick Holbrooke has woven, without him the walls would still be 
bare.
    I am confident that Ambassador Holbrooke knows that tactics that 
work in hammering out a deal with tough, recalcitrant Balkan leaders 
are not necessarily productive in the corridors of the United Nations. 
He is an urbane, experienced man, who analyzes his task and his 
interlocutors, and adjusts his style accordingly.
    I am eager to hear Ambassador Holbrooke's testimony and to question 
him on it.
    Thank you again, Mr. Chairman.

    The Chairman. Thank you, Senator. We are beginning to be 
known around the Senate as the odd couple.
    Senator Dodd. Don't press that point.
    The Chairman. He is the one that is odd.
    Senator Dodd. There will be no recorded vote on that one.
    The Chairman. So really, I enjoy working so much with 
Senator Biden, and I think we have accomplished a very great 
deal, and I appreciate everything he has done. We could not 
have done it without him, notwithstanding what he claims, that 
it is all on this side. He did a yeoman's share of the work, 
and I am grateful to him, and always will be.
    I asked the folks I work for back here to remind me about 
Mr. Delich, if I am pronouncing it right. He is the former head 
of the Serbian Unity Congress, which has been identified to me 
as the leading Serbian-American organization. Is that 
approximately correct?
    Mr. Holbrooke. There are quite a few organizations. That is 
one of the leading ones, yes, sir.
    The Chairman. And he said he would occasionally meet with 
State Department officials, including yourself, as he recalls 
it. In any event, I would like for you to discuss what he said, 
because I think it is important to have it on the record.

   STATEMENT OF HON. RICHARD C. HOLBROOKE, NOMINEE TO BE THE 
 REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE UNITED 
    NATIONS WITH THE RANK AND STATUS OF AMBASSADOR, AND THE 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA IN THE SECURITY 
                 COUNCIL OF THE UNITED NATIONS

    Mr. Holbrooke. Mr. Chairman, before I respond to your 
question about Mr. Delich's letter and the questions from 
Senator Biden, let me just thank you again for your courtesy 
and that of the entire committee in holding these hearings, to 
reinforce what Senator Biden has just said, the speed and 
precision with which these hearings have been conducted, to 
reaffirm again to you and to anyone who may be listening that 
the delays of the last year were in no way caused by this 
committee, and to thank you for your generosity and fairness.
    I am very honored to be here this morning again to discuss 
an issue which has taken up more of my time in the last 5 years 
than any other issue, and one in which I have had many private 
and public consultations with members of this committee.
    [The prepared statement of Mr. Holbrooke follows:]

            Prepared Statement of Hon. Richard C. Holbrooke

    Mr. Chairman, Senator Biden, distinguished Members of the 
Committee. It is an honor and a pleasure to appear before you again 
today to testify on the Balkans.
    As the Members of the Committee know, I have been involved in the 
Balkans for several years. I know all of the key players very well and 
how difficult these problems are. NATO's military victory, like the 
Dayton Accords before it, is a great success for the Nation. I feel 
privileged to have played a role in this success, and I salute the 
Senate for passing a resolution last week commending the President and 
the troops.
    Why does NATO's victory matter? It matters first because we had to 
stem the humanitarian crisis. Belgrade's offensive against the ethnic 
Albanian population, begun before the bombing campaign, created a 
humanitarian crisis of staggering dimensions. It is a measure of the 
greatness of the American people that they cannot sit by and watch such 
horror on their televisions night after night without action.
    Second, our success matters because we need to promote stability in 
the Balkans and Southeastern Europe. Belgrade's offensive proved the 
spillover theory correct. Flooding its neighbors with refugees delivers 
a powerful economic and political blow. The Serbs could have reignited 
chaos in Albania, destabilized or sparked a civil war in Macedonia, 
undermined Dayton implementation and all we have gained in Bosnia-
Herzegovina, set back political and economic reform in other 
neighboring states--including some that border on NATO states or that 
even aspire to NATO membership--and bred international crime and 
terrorism.
    Third, and certainly not least, we defended the cherished values 
for which this country and NATO have stood since their foundations: 
democracy, human rights, and the rule of law.
    We have prevailed in the air campaign, and now we must stay the 
course in helping to build the peace--with the Europeans taking the 
lead and paying the lion's share of the cost.
    The United Nations will have its role to play in Kosovo--such as in 
providing an interim civil administration for Kosovo, assisting through 
the United Nations High Commission for Refugees in the return of the 
refugees and displaced to their homes and coordinating disaster relief, 
or dealing with the land mine threat.
    Mr. Chairman, if confirmed, I will be vigilant to ensure that the 
roles assigned to the United Nations in Kosovo are carried out in as 
constructive and as cost-effective a manner as possible. In doing so, I 
will be honored to continue to play whatever role the President and the 
Secretary of State ask me to take on, in support of American's 
objective of securing lasting peace and stability in the region.
    Thank you Mr. Chairman. I will be pleased to take your questions.

    Mr. Holbrooke. Let me respond to Mr. Delich's letter both 
directly and indirectly by saying at the outset that I agree 
with almost everything in this letter except its references to 
my own role. I agree with his characterizations of Slobodan 
Milosevic. The phrase that Milosevic has both been an arsonist 
and a fireman is not original to Mr. Delich. It was originated 
by Yugoslav journalists in describing Milosevic, and it is one 
that I myself have used frequently, and it is very accurate.
    Mr. Delich's letter raises an isssue that has been a 
central concern to me since my first two trips to Bosnia as a 
private citizen for the International Rescue Committee on 
Refugee Matters in 1992. Had the United States responded 
vigorously and appropriately early in the crisis we might have 
avoided three of the four wars that the Belgrade leadership has 
caused. Senator Biden was one of the leaders in that effort to 
bring attention to the issue. He was there before I was 
involved in the issue officially, as were you and many other 
members of this committee.
    So 1991 was the year we should have dealt with this. By the 
time I became directly involved in the issue at the end of 
1994, the beginning of 1995, three of the four wars were 
already taking place. The first one in Slovenia was a week 
long. The second one with Croatia was a mess beyond messes, and 
by the time I got involved the war was raging out of control in 
Bosnia, where over 300,000 people were killed and 2\1/2\ 
million made homeless.
    The first priority for the United States and our NATO 
allies at that time was, in my view, and I believe this was 
echoed by most people, regardless of where they stood on 
tactics, was to stop the war from metastasizing into the rest 
of the region, and particularly merging with the incipient 
crisis in Kosovo, which everyone understood was explosive.
    We therefore, operating from a very weak hand, began a 
policy in the summer of 1995, a policy in which NATO, led by 
the United States, belatedly and reluctantly but ultimately 
decisively bombed the Bosnian Serbs and then took them to the 
peace table at Dayton, OH, and ended the war.
    Milosevic went to Dayton. He was not yet then indicted. He 
tried to bring with him those people who were indicted. I told 
him that I would be delighted if he brought them, and I would 
be waiting at the airport with Federal marshals to arrest them, 
and of course they did not come to Dayton. As I said in our 
last hearing, Mr. Chairman, I profoundly regret that the NATO 
forces did not arrest Radovan Karadzic and some of the others 
right away. They could have, and they should have, and I still 
hope they do.
    The Dayton peace agreement ended the war in Bosnia, and the 
war has not resumed to this day. Under the most extreme 
tensions, including the crisis in Kosovo, including overt 
attempts to destroy it, not one NATO soldier has been killed or 
wounded from hostile action, and the record of the American 
fighting men and women in Bosnia, although they have not had to 
fight, has been magnificent.
    I regret deeply that the administration put arbitrary time 
limits twice on our duration in Bosnia, which may have 
inadvertently encouraged the Bosnian Serbs to think they could 
out-wait us, but President Clinton removed those time limits in 
December 1997, prior to his trip to Bosnia, and we will not 
repeat that mistake in Kosovo.
    Now, Mr. Delich says we were partners at Dayton. That is 
the part of the letter that I would really like to address, and 
this has come up many times. As President Clinton has often 
said, quoting Prime Minister Rabin, ``One does not negotiate 
with one's friends; one negotiates with one's adversaries.'' I 
was assigned by the President and two Secretaries of State, 
Warren Christopher and Madeleine Albright, to be at times the 
lead negotiator and at other times a special envoy. These were 
not easy assignments, and we are neither friends nor partners.
    It is true, as you said Mr. Chairman, that I have spent a 
great deal of time with President Slobodan Milosevic, during 
none of which, I would stress, he was indicted. The last time I 
saw him--and I use the word ``last'' in both senses of the 
word--in my estimation, was March 23, 1999, and I said to him, 
``when I leave this room, if you have not accepted the position 
that the United States and our NATO and Contact Group allies 
and friends, including the Russians, put forward at 
Rambouillet, is it clear to you that NATO bombing of this 
country will start immediately, and it will be''--and I used 
the three words deliberately, and after consultations with the 
Pentagon--``swift, severe, and sustained.''
    The last meeting I had with him was just the two of us, 
because I wanted to be sure there was no possibility of the 
kind of misunderstanding, Mr. Chairman, which had led to an 
unnecessary war in the same area in August 1914--a war that 
historians now agree could have been avoided, but took place 
because of miscalculation.
    Milosevic said, ``I understand this. You will bomb us. 
There is nothing I can do to prevent it.'' And I left the room, 
and he said to me as I left, ``I wonder if we will ever see 
each other again,'' and I said, ``that will depend entirely on 
your actions.'' Well, his actions have given us the answer.
    Now, in all of our prior negotiations, from 1995 until 
then, we tried to reach agreements. Some of these agreements 
stuck. The war in Bosnia is over, and I think that that is an 
important fact. Again, I want to compliment you and your 
colleagues for the important role the Senate played in that.
    Particularly, I do not want to single anyone out, but the 
Senator on your committee I have spent the most time with is 
the man sitting immediately to your left, Senator Biden. He 
understates the intensity of our colloquy, and the amount of 
advice he gave me, some of which was very, very emphatic, and 
he was the first Senator I called on when I returned to 
Washington.
    Emphatic, Mr. Chairman, is a euphemism for what he told me 
in private, but Joe Biden is a man who went to Belgrade and 
called Slobodan Milosevic a war criminal to his face long 
before it was either fashionable or the tribunal's action, and 
we have worked together closely.
    In any case, on the prior events that Mr. Delich refers to, 
it is true we reached agreements with Milosevic. He was the 
recognized leader of the Serbs under international law. He 
signed agreements in Dayton which were then witnessed by 
President Clinton, President Chirac, Prime Minister 
Chernomyrdin, Prime Minister Major, and Chancellor Kohl in 
Paris a month later, and the Serbs have roughly kept their word 
on those agreements.
    He agreed to allow us to determine the final outcome of the 
one unresolved issue in Bosnia, the town of Brcko. He turned 
that decision over to us, and I am proud to say that one of my 
dearest colleagues from the negotiating process, Roberts Owen, 
is here today in the audience. He is the man who made the final 
decisions on Brcko only a few months ago, very difficult 
decisions which are being implemented now, and they were 
decisions the Serbs hated. We made them on the eve of the 
bombing, and they have still held.
    Mr. Delich talks about the consequences of the policy to 
democrats in Serbia and the Albanians in Kosovo. He is correct 
to a certain point. Let me address this issue and then make one 
last point. I apologize for the length of my opening answer/
comment, but this is so critically important. I would also like 
to respond to Senator Biden's question on the question of 
democrats in Serbia.
    This is a critical issue. As I wrote in my book, we made 
numerous mistakes in the last few years. I have already 
mentioned one of them. Another one was a failure to give enough 
support to the Together Movement at the end of 1996.
    It happens that my wife was in Belgrade at that time in her 
capacity as chair of the Committee to Protect Journalists. She 
actually marched through the streets of Belgrade for three 
straights days with the leaders of the Together Movement and, 
by the way, the Belgrade leadership knew exactly that she was 
my wife. She was there as a private citizen, but she was 
demonstrating her support, and I am very proud she did that. It 
was subfreezing weather.
    But the Together Movement did not hold together. The U.S. 
Government did not do enough to support it, and it was the 
greatest missed opportunity of the last 4 years. I would hope 
that, with the impetus that you and your colleagues are 
providing and--if I have the terminology correctly--with the 
Serbian Democracy bill or amendment, we will move in that 
direction.
    There was no intent to undermine democracy in Serbia, but 
the Serb democrats are a pretty disparate group. Last year, on 
one of my trips to Belgrade, I met with one of the bravest 
dissident journalists in Belgrade, a man named Vierren Matic, a 
very famous man of immense courage, and I said to Matic, ``I 
have 2 hours before my next meeting. I would like to meet with 
the leader of the democratic opposition. Who do you want to 
take me to see?'' After a long pause, Mr. Matic said, ``I don't 
know. That is the tragedy of our country.''
    I hope that, with the consequences of the success that has 
now occurred--it is a messy success, but it is clearly a 
success--and the impetus that has been given to new 
opportunities in Serbia, the next time somebody is in Belgrade 
and asks that question, they will know where to go.
    Where is the Cory Aquino? Where is the Ausung Su Chi? Where 
is the Dalai Lama? Where is the Kim Dae Jung figure who becomes 
the obvious rallying point for the forces of democracy? All of 
the people I have just named, all of whom you and I have both 
worked with, were important leaders and symbols. There is no 
such clear figure at this point in Belgrade, and that is the 
tragedy of Serbia. Outside assistance and hortatory language is 
important and useful, and we must encourage them. But as you 
yourself have often said, the impetus must ultimately come from 
the Serb people themselves, but with greater encouragement from 
us.
    Secretary Albright and I have discussed this problem in the 
last 2 days between these two hearings in preparation for it, 
and I know she feels equally strongly.
    On Mr. Delich's second point, the Albanians in Kosovo have 
often said that Dayton was a betrayal of the Albanians. This is 
not Mr. Delich's point, because he is a Serbian-American, but I 
would say that Dayton was about Bosnia. It ended the war, but 
we did bring up Kosovo repeatedly, and the American presence in 
Kosovo was negotiated by me.
    From 1912, when the Serbs seized Kosovo from the domains of 
the Ottoman Empire, until 1995, there had never been an 
American international presence in Kosovo. We negotiated the 
establishment of the USIA Cultural Center, which was really an 
embassy extension, and in that regard I would say with your act 
that arbitrary distinction will be gone forever, and I cannot 
tell you how pleased I am at that. I negotiated the Kosovo 
diplomatic observer mission and the Kosovo verification 
mission.
    However, in regard to Mr. Delich's point about October, I 
was not able to negotiate armed international security forces 
in Kosovo in October because it was not possible to do that 
under the instructions I was given, in the context of the 
situation that occurred at that time.
    I believed firmly, Mr. Chairman, and have stated repeatedly 
in public and private, that Albanians and Serbs will not be 
able to live together in peace in Kosovo until they have had a 
period of time with international security forces to keep them 
from tearing each other to pieces.
    In Kosovo, the animosity and ethnic hatred is real, not 
like in Bosnia, where it was manufactured by demagogues and 
racists and mafioso crooks. There was a lot of intermarriage in 
Bosnia. There is a common language, a common history.
    Albanians and Serbs are really different people. There is 
very little interaction and intermarriage, and the hatred is 
much deeper. The international security presence, which I was 
not allowed to negotiate in October for various reasons and 
Milosevic then refused after Rambouillet, is now in there 
without any casualties so far, although we have had incidents 
like yesterday's, which illustrate the great danger.
    So again, Mr. Chairman, I would simply say that I well 
understand Mr. Delich's comments. I would like to make one 
other comment about his letter and then move on. Throughout the 
last 3 years I received numerous letters and phone calls from 
Serbs and Serb-Americans about the apparent anti-Serb bias of 
the American policy. I know that you and Senator Biden and 
Senator Dodd and others, Senator Smith, have surely received 
similar things. When I went to Minneapolis at the request of 
Senator Grams I got picketed by Serb-Americans as I went in the 
room.
    So let me say again, and I suspect that all of you have had 
these experiences, that the policy has never been anti-Serb. As 
President Clinton and Secretary Albright have said, we are well 
aware of the fact that the Serbs fought on our side in two 
World Wars, rescued many pilots, and are well-represented in 
this body, in the House and throughout American society, 
particularly in such great cities as Cleveland and, indeed, in 
the Dayton area. And I do not believe in collective guilt, and 
I think it is very important to make that clear to the Serbs 
and Serb-Americans.
    Finally, Mr. Chairman, let me turn to Senator Biden's 
comments about what he called the tapestry. I appreciate very 
much what Senator Biden has said, of course, and I share his 
view of the steadfastness of Secretary Albright on these 
issues. She and I have been shoulder to shoulder, or as she 
likes to put it, joined at the hip, on these issues for many 
years now.
    If I understood your question, Senator Biden, it was what 
would we do differently in Kosovo than we did in Bosnia? Was 
that correct, sir?
    Senator Biden. That is correct, but I do not know whether 
you want me to go into that now, Mr. Chairman.
    The Chairman. Well, I did not do this right, and the last 
time I checked we had consumed about 12 minutes, and I think it 
would be fair.
    Senator Biden. We can do it on my time now, to let him 
answer that question.
    The Chairman. I am so glad you went into the detail you 
did. I did not anticipate it, and I think I saw some guys over 
there furiously writing, so maybe they can straighten things 
out.
    Now, I will recognize Senator Biden for his turn, 10, 12, 
15 minutes, whatever you want.
    Senator Biden. I would like to pursue just where you were 
going, and just add one preface. It seems to me that few people 
speak as clearly to the differences between the circumstances 
in Bosnia, among Bosnian Croats, Muslims, and Serbs, and the 
difference between Albanian Kosovars and Serbs in Kosovo.
    I think that is because the European Community in my view 
during this period, where it was almost under anesthesia, tried 
so hard to convince the world that in Bosnia there was never 
any coexistence, that this was only a civil war, that this has 
nothing to do with anything other than racial hatreds, because 
if they did that, then there was a logic for not being 
involved.
    I would argue that the reason it took us so long, quote, to 
do the right thing, close quote, was because we were engaged in 
self-delusion about what was happening in Bosnia and who was 
causing it. I often point out to people that--I am quite sure 
this is correct--of all the major cities in Europe, the one 
with the greatest degree of intermarriage is Sarajevo.
    Now, I have been given that statistic a number of times. I 
cannot stand by it independently, but I believe that to be 
true, and all anyone has to do as they travel through Bosnia, 
as you and I and others have--I mean, I have been to every part 
of Bosnia, by helicopter, by automobile, by armored personnel 
vehicle, and when you ride through these picturesque mountain 
towns and you see minarets sitting there and then you see a 
group of Muslim men sitting in the corner cafe having a drink, 
you do not see women veiled, walking down the streets.
    I facetiously said, and I will probably get myself in 
trouble for saying this, but in Bosnia there are a lot of the 
equivalent of Reform Jewish congregations, if you make an 
analogy to Islam. I mean by this parallel that there is not a 
fundamentalism about Islam in Bosnia at all.
    The second myth that was perpetrated by many Europeans and, 
I might add, by Mr. Tudjman, who, as I once said before, is no 
box of chocolates himself, is that there is a fundamentalist 
Muslim state seeking to be constructed in the midst of Europe, 
et cetera. That was like a red flag in front of a bull to many 
Europeans, but now we are in a conundrum here.
    Now, unless people like you continue to say what you have 
been saying, that there is a real difference between Bosnia and 
Kosovo, thereby calling for different tactics in dealing with 
the peace, I think we may find ourselves in trouble.
    With that very long preface, let me suggest several things 
I think should change. I would like your candid view, if you 
disagree, because you and I have not talked about these pieces.
    One is, I hope one of the lessons we have learned is that 
early elections are not a good idea. You have got to give 
democracy a little bit of a chance to jell here, and in Kosovo 
what I mean by that is, you have got to have a chance for the 
KLA and Rugova to be able to begin to work out something. 
Because if elections were held tomorrow, every KLA local leader 
would win every election in every community and every district, 
and a military organization does not a civilian government 
make, no matter how well-intentioned.
    The second lesson I think we should learn is that it is a 
mistake for KFOR apparently to allow some KLA units under 
fairly strict agreements to essentially occupy the police 
headquarters in various towns and cities. I think we should 
have the gendarme model of Europeans, and I know this we have 
talked about with regard to Bosnia.
    I think for the next couple of years we should avoid the 
following dilemma: either having our military or NATO's 
military act as policemen, which they are not equipped to do, 
or on the other hand turning over the civilian control of the 
police forces to the victors. I think the answer is the 
gendarme-type apparatus made up of Europeans and setting up 
police academies, literally police academies in Kosovo to train 
a new cadre of civilian law enforcement officers.
    The third thing I think is a lesson that you have already 
spoken to, and I will not ask you to spend any time on, is no 
time limits, no artificial time limits on anything about our 
presence, KFOR's presence or anything else in the region.
    The fourth lesson I take away from this is that in a 
strange sense Kosovo is going to be easier than Bosnia. You are 
not going to have Westendorp heading out there to decide who 
lives in which house in which block, because there is much more 
homogeneity. That is good and bad.
    No matter all the intriguing we engage in, I doubt whether 
more than 5 to 10 percent of the population in Kosovo is going 
to be Serbian 20 years from now no matter how hard we work. I 
think it is a lot lower, but I am being optimistic.
    So in one sense it is a lot easier to deal with setting up 
a transition in Kosovo, but in another sense it is a lot 
harder, as you pointed out, because of the depth of the hatred. 
So I hope that in this process, quite frankly, we do not spend 
too much of our capital in a literal sense in terms of dollars, 
and also in a political and diplomatic sense in focusing on 
bringing Serbs back.
    I would like very much for the Serbs to come back. Please 
do not misunderstand me. But the reason we could not rebuild 
the infrastructure, the highways, the water system, the 
electric facilities, get jobs up and going, attract businesses 
in the Republic of Srpska, is because when they would not let 
in elected officials of a different nationality, the 
international community rightly said, we are not going to send 
the money.
    But in Kosovo we are not going to have that problem. It is 
the primary responsibility, as you said, and as the President 
has said, of the European Union and the donor nations other 
than us to carry the bulk of the burden. But I hope we quickly, 
swiftly move to reconstruct the infrastructure, because I think 
there is nothing more unifying, nothing more consoling than 
having the house rebuilt, the job reestablished, a routine put 
in place, and money coming in, and security being established.
    Now, we took a long time doing it for necessary reasons. 
There is actually one more point, and that is your job at the 
U.N. The U.N. is essentially responsible for civilian 
implementation of the peace. I think, to quote a Russian saying 
used by President Reagan, we should trust but verify. The U.N. 
is well-intended, ofttimes slow, and sometimes incompetent. I 
would hope privately, not publicly, that you would not hesitate 
to be a thorn in the side of the United Nations for dilatory 
tactics in implementing the civilian side of this, because that 
is the key.
    So I realize that I have raised five points and I have used 
up my time, but I wonder whether you could comment generally, 
or maybe for the record if you do not want to do it now, about 
whether those kinds of policy changes from what we did in 
Bosnia and what we should now do in Kosovo, or whether there 
are other lessons to be learned and I have got the wrong ones.
    Thank you, Mr. Chairman.
    Mr. Holbrooke. Senator Biden, Mr. Chairman, Senator Smith, 
Senator Biden raises five points, and I am tempted simply to 
say I agree with everything he said and move on to the next 
question, but a couple of points require elaboration.
    First of all, let us learn from Bosnia. As I wrote in my 
book, the Dayton agreement was particularly flawed in regard to 
the police annex because for various reasons--budgetary 
arguments with the Europeans, perhaps inadequate bureaucratic 
pressure from us, and an ambivalence by the NATO command--we 
did not give the police task force in Bosnia enforcement or 
arrest and detention capability.
    I have been a very hard liner on this, and I have been 
assured that the police will have detention and enforcement 
capability. Therefore, the highest priority of the U.N. is to 
get them in there fast, otherwise two things will happen. NATO 
will turn into policemen, and all of us know that there is 
nothing a man or woman in uniform likes less than to become a 
policeman. That is one of the great rules of the U.S. military.
    Second, as Senator Biden said, the KLA will fill the vacuum 
in a way which may not be appropriate to democratic approaches 
either. I would add that Senator Biden's point of early 
elections is obviously correct also.
    That was one of the two or three great failures in Bosnia. 
I remember General Clark saying to me at the time, as we 
discussed this because we knew it was not right, that this was 
going to be the greatest gap in the food chain, never dreaming 
that he would end up being the NATO Supreme Commander.
    But we are fortunate that the NATO Commander is General 
Clark, who was with me at Dayton, who drafted some of the 
annexes, and who knows them intimately, and who was aware of 
that problem.
    On the other questions--early elections, KLA, no time 
limits--I completely agree.
    On the U.N. role, Senator Biden, I am glad again to see 
that sitting behind me in the audience is the Secretary 
General's representative in Washington. I have absolute 
confidence that she was taking notes as you spoke and that your 
views and those of your colleagues will be in New York by early 
afternoon today.
    So you want me to be a thorn in their side. I would ask you 
and Chairman Helms and Senator Smith and your colleagues to be 
thorns with me, but friendly thorns, because as we said in our 
first and second hearings, the goal here is not to destroy the 
United Nations, it is to reform it to make it serve our 
purposes. And nowhere has it been tested like in Bosnia and 
Kosovo.
    The Kosovo test will transcend anything that preceded it, 
including Cambodia, because they will be running the 
international protection authority, or whatever it is going to 
be called. Nothing like this has been undertaken in a long 
time, and I have grave concerns that it will not be pursued 
with the amount of vigor that the task demands.
    In Bosnia, we weakened the High Representative's authority, 
and that was another one of our mistakes. It was because of a 
battle between the civilians and the NATO people, and it was a 
mistake. Carl Bilt has written about that in his book.
    I do not disagree with his criticism of what we did. In 
fact, I echoed it in my book. Mr. Bilt was in to see me in New 
York yesterday and noted that he is advising Secretary General 
Kofi Annan that the international presence in Kosovo must have 
greater power and be enacted more vigorously. This will be one 
of my highest priority issues that I will pay attention to.
    I said in my first hearing that U.N. reform will be my 
highest sustained priority, and I will deal with emergencies. 
This is obviously the emergency that we are all most interested 
in.
    Senator Biden. I hope they look at this as an opportunity. 
The credibility of the United Nations worldwide was diminished 
for whatever reasons in Bosnia. I think this is an opportunity 
for it to increase its credibility and take on a role that at 
least I personally would like to see it take in the 21st 
century.
    Mr. Holbrooke. I think the Secretary General feels that, 
too, but that bureaucracy, like our own bureaucracies, has 
people of varying qualities in it, and the proof will be in the 
selection of personnel and the vigor with which they carry it 
out.
    I was very impressed with the GAO report to you 2 days ago, 
Mr. Chairman, because I understood that it was the first time 
that the U.N. had let the GAO look. It was constructive 
criticism, and I will play that role if confirmed.
    That may not be fully responsive, Senator, but that covers 
your main points.
    Senator Biden. At some point--not now, because my time has 
been long up, but I would like to talk about the gendarme 
notion and the Europeans leading the charge on the policing 
side of this, but I do not want to take the time now. Again, 
maybe in a second round, or in private, or later, but Senator 
Smith has been deeply involved in all of this.
    The Chairman. You have waited a long time, Senator.
    Senator Smith. Thank you, Mr. Chairman, and Senator Biden.
    Mr. Holbrooke, it is a pleasure to be here with you. I 
thank you for your patience with the committee in dealing with 
all of these questions.
    So you will know the motive of my questioning, let me state 
at the outset that I believe you are eminently qualified to be 
the United States Ambassador to the United Nations, and I 
intend to vote for you and for your confirmation, but as 
Senator Helms said, part of the purpose of these hearings is to 
give you the chance to respond to critics and charges, and I 
thought with that understanding I would ask you some questions. 
It may be difficult, but in fairness to you, you need an 
official forum in which to answer.
    I doubt you read the Weekly Standard, and this is not an 
advertisement for the Weekly Standard, but I happen to have 
read it this morning when I got up with a migraine headache, 
and there is an article in here by a Mr. Ivo Daalder. I do not 
know him, but the title of it is, ``What Holbrooke Wrought.'' 
Have you read this article?
    Mr. Holbrooke. Yes, I have.
    Senator Smith. I think it is a matter of historic record 
now that the United States believed that Mr. Milosevic would 
cave after 3 days of bombing, and that no ground troops would 
be necessary, and certainly perhaps not even possible, and 
therefore no preparations were made for that.
    There is some dispute as to whether this ethnic cleansing 
was going on before we began bombing. I personally believe it 
was, but certainly not with the intensity that occurred 
afterwards. I would like to get your response to this article, 
but to do that, let me read two paragraphs that I think 
summarizes the thesis of this article.
    However lamentable NATO's failure to protect nearly 2 
million Kosovars, the larger failure lies in the policy that 
left the United States and its allies no choice in mid-March 
but to bomb, without the plans or capacity to stop Milosevic's 
onslaught.
    If the brutal Serb campaign was already underway before the 
bombing started, as administration and NATO spokesmen 
repeatedly claimed, and if Milosevic's plans for Operation 
Horseshoe, as the Serbs term their attack, had been in Western 
hands since October 1998--in other words, we knew they were 
going to do this since October 1998--why were no preparations 
made to prevent it? With 6 months' notice, why were no military 
contingency plans drawn up to enable the alliance to fulfill 
its stated mission of protecting the Kosovars?
    This author then states: ``The answer to these questions 
are to be found in the agreement Richard Holbrooke, the Clinton 
administration's Balkan envoy, negotiated with Slobodan 
Milosevic in October 1998. That agreement, reached after NATO 
feebly threatened air strikes to avert humanitarian crisis, 
sowed the seeds of NATO's subsequent failure.''
    Mr. Holbrooke, your response.
    Mr. Holbrooke. Well, first of all, Senator Smith, I want to 
thank you for your statement of support and to state also for 
the record that you and I have had prior private conversations 
on these issues. I look forward to continuing them and am very 
grateful for your support.
    In regard to this article and these charges, I am quite 
puzzled by them. They are written by a person who ought to know 
the facts better. The author has taken a few factoids and 
twisted them into a different mosaic, to use Senator Biden's 
word, a different tapestry. This is not the tapestry I 
recognize, and a full-scale rebuttal really requires a full-
scale history. Let me just address the key points.
    Senator Smith. By the way, I am asking this because this 
probably has currency in the Republican cloakroom, and you need 
to get a rebuttal out there.
    Mr. Holbrooke. It may have currency, but the author, I 
believe, worked for the National Security Council in the first 
term of the Clinton administration.
    Senator Biden. He is talking votes.
    Mr. Holbrooke. I would be happy to debate these issues with 
the author sometime, but he chooses to make personal attacks on 
me on television and elsewhere. That is his right. Let me just 
address the substance of these things. I do not know him, by 
the way, but I find these statements quite factually 
misleading.
    So let me go back first to the October agreements. As I 
said in response to Senator Helms' question, in October we did 
not negotiate the introduction of an international armed 
security presence. We were not able to do so. In fact, 
Secretary Albright, Secretary Cohen, and Sandy Berger came up 
to the Hill and talked to the Congress about this, and it was a 
very clear sense of the Congress that at that point ground 
troops were not going to be possible, and that was my 
instruction.
    I stated publicly and privately at the time that the 
agreements reached in October would last only until March 
because of the winter and that if, during the interim period 
between October 12 when we reached the agreement and the end of 
the winter, we did not make progress on the core issue of 
Albanians and Serbs living together under a political framework 
that respected both communities, that the war would resume when 
the winter ended, but I was wrong. It resumed before the winter 
ended, but it was inevitable when we could not make political 
progress.
    Now, what the author of this article omits, Senator Smith, 
among many other things, is, point No. 1: roughly 150,000 
people were living in the forests and woods of Kosovo at the 
point I went there, scared to come home because Serb security 
forces were all over Kosovo. And had Milosevic not reached the 
agreements, many of those people would have frozen to death or 
starved to death in the winter cold of the hills of Central 
Kosovo.
    Those people all returned. Many of them were displaced 
again during March and April and May, but far fewer died as a 
result of our military action. Although many were displaced, 
more would have died had they been left in the woods and 
forests over the winter.
    Second, what the Belgrade authorities agreed to was an 
invasive NATO surveillance regime while they shut down their 
radars, which allowed us to track their military movements and 
withdrawal in accordance with U.N. Security Resolution 1199 to 
the pre-crisis levels.
    Now, those were the international community levels, and the 
author of this article says that our agreement allowed them to 
keep people in place. Technically that is correct, but my 
instructions from the Contact Group and the U.S. Government 
were to force Milosevic back to the levels agreed upon in 1199. 
We did that, and he did pull down to those levels temporarily, 
before the violations began again.
    Third, he agreed to a huge unarmed civilian contingent 
under the OSCE, the so-called Kosovo verification mission with 
an American head, Ambassador William Walker. We agreed to put 
in at least 2,000 people.
    I regret deeply that because of bureaucratic delays we were 
only at 1,200 by February. We failed to put in enough people, 
and I hope we will not repeat that mistake again, Mr. Chairman, 
when we buildup the civilians this time around. Now, as I said 
a moment ago, those people were unarmed, but that is because we 
did not seek to arm them, and I said at the time that that 
would cause a problem.
    A last point, and the most important, the article you cite 
says that the ethnic cleansing had begun earlier and that the 
plans were in place, and that we knew about them. I will leave 
for another time and place, and perhaps a classified session, a 
discussion of what the administration knew and when it knew it.
    I was not a full-time government employee at that point 
and, indeed, despite the characterization of me in that 
article, I was not the special envoy for the Balkans or for 
Kosovo. I was carrying out individual missions at the personal 
request of the President and Secretary Albright, and the 
intelligence issues he alludes to are ones that I think it 
might be useful to be briefed on, because much has been written 
about them in the press.
    It is clear that the Serbs had a plan to empty the province 
and that it would have been impossible to put ground troops in 
to prevent that before they could have executed the plan. It is 
for that reason that bombing became the preferred option and 
ultimately a successful option--messy, as I have said before, 
but successful in dealing with it.
    So that is a brief response, Senator Smith, to some of the 
comments in the article, and I would be happy to respond to any 
other questions you have.
    Senator Smith. Richard, you admitted on January 22, 1999 
that the October agreement you made with Milosevic had eroded 
because it did not have teeth. Those are your words. Why, then, 
did you recommend the United States and NATO accept the 
agreement in the first place, if it did not have teeth?
    Mr. Holbrooke. Well, the quote you have used is part of 
what I was saying a moment ago. I said it earlier, and I said 
it subsequently: The lack of teeth was the lack of ground 
forces, armed forces of the sort we had in Bosnia. Why did we 
accept it? Because No. 1, we got everything else, including the 
OSCE mission.
    No. 2, if we had not made a deal and the Serbs had kept 
40,000 security forces in Kosovo in October, we would have had 
people freezing to death in the mountains and forests of 
Kosovo. I think that the highest goal of a person in a 
difficult and complex situation of the sort that confronted the 
team of negotiators which I headed is to save lives. We saved a 
lot of lives, and I have no regrets about that.
    But repeatedly, Senator Smith, we stated publicly and 
honestly and briefed you and your committee on the weakness of 
the agreement. We knew what the weakness was, and that weakness 
was only corrected after we moved into this extraordinary phase 
that began with the massacre at Racak on January 16. The quote 
you have just used is interesting, because it comes 5 days 
after Racak.
    Senator Smith. Thank you, sir.
    Some fear that there may have been a quid pro quo between 
you and Mr. Milosevic that relates to the International War 
Crimes Tribunal. Did you ever discuss or imply any such quid 
pro quo for his actions in the Balkans in exchange for a U.S. 
position as to his indictment?
    Mr. Holbrooke. Barbara Larkin has told me never to use the 
word never, but I am going to violate her instruction and say 
never, not once. Never.
    Senator Smith, during my second meeting with Milosevic in 
August 1995, this was a constant subject. He never raised it. I 
never raised it in regard to him, but what I did do, and I 
welcome the chance to put this on the record, is tell him from 
the beginning and relentlessly that we would support the War 
Crimes Tribunal, its access, its jurisdiction and, as I said 
earlier in response to Senator Helms' question, to prevent him 
from bringing any indicted war criminals to any of his 
negotiations.
    Senator Smith. When you returned from Belgrade in October, 
a deal that you believed prevented, made it so that we would 
not bomb, you stated you were not into making--again, your 
words--making a moral judgment at this time about somebody with 
whom I have had to negotiate.
    Now, for the record, are you now prepared to make a moral 
judgment about Mr. Milosevic? Again, I ask this because these 
are being used against you, these quotes, and I want to give 
you a chance to refute them.
    Mr. Holbrooke. I understand this, Senator Smith. I have 
made a certain number of public appearances, and every one of 
these issues is raised fairly often, I might say, and I do not 
want this to sound self-serving, by people who have not been 
there, who have not tried to end wars and prevent wars.
    Those comments, plus certain things that I felt it was 
necessary to leave out of my book, were a result of the fact, 
which I discussed with Secretary Albright and the President, 
that I might have to negotiate again, whether I wanted to or 
not. This is not fun. This is not bridge or tennis. This is 
tough slogging, and my job was not to make moral judgments in 
public, although those judgments are clearly in the book, where 
I use the word ``evil'' to describe certain events and people.
    I pulled my punches in the book, as my editor, who is 
sitting three rows back here, well knows. She wanted me to go 
further, but as I was writing the book, which required 
government clearance, I was well aware of the fact that I might 
have to continue to be engaged on these issues, and the highest 
goal here was to avoid war and bring peace. I have made some of 
these moral judgments in the book and will make others in 
public later.
    Twice in the last 4 years we bombed and then sent in ground 
troops by NATO. Nobody in the founding fathers of NATO ever 
envisaged that, but it did work, and again it was messy, but it 
worked, and your committee, and particularly your colleague 
here to your left, did an extraordinary amount to lead us to 
that policy. I have no regrets about it.
    Senator Smith. But my point is, I think we can understand 
why you would not want to be making those kinds of 
pronouncements while your negotiations were continuing, but as 
you sit here today--and I believe it is the United States 
policy that this man is not a part of the solution any more. We 
are treating him as a war criminal and seeking his apprehension 
and trial. Do you have moral judgment to make about Mr. 
Milosevic now?
    Mr. Holbrooke. I absolutely believe that Louise Arbor and 
the tribunal did the right thing. He has been indicted. He 
should face trial. I cannot conceive of the circumstances under 
which the kind of negotiations that I conducted under 
instructions would be conducted again. This is a decision, 
however, for higher authorities in these circumstances, but I 
am absolutely clear-cut that Louise Arbor made the right 
decision.
    I have written in my book in the last chapter about evil, 
and I felt--Carl Jung, the great Swiss-German psychiatrist 
wrote that in the face of evil, humankind is confused as to 
what to do. That is what happened to us in the thirties, it is 
what happened to us in the early nineties, and a few people saw 
it earlier than others and spoke out earlier, but evil confused 
people, and that is what we confronted there, and we have to 
recognize it.
    The origin of these four wars was the Serb leadership, and 
that Serb leadership meant Slobodan Milosevic. That is crystal 
clear, and I did make that clear in my book, and I do not walk 
away from moral judgments. It is just that on that particular 
quote you said on that day it would not have served our 
national interest to say so publicly, but thank you for giving 
me a chance to clarify my views.
    Senator Smith. Thank you. With Senator Biden's indulgence.
    Senator Biden. This is important.
    Senator Smith. I have just two other questions.
    I believe I heard you say earlier in response to Senator 
Helms that your wife had participated with democrats in Serbia. 
In all of your trips there, have you ever taken time to meet 
with democrats?
    Mr. Holbrooke. Certainly. I met with all of the leaders of 
the Together Movement, but if I could take a moment to describe 
the tragedy of it, at one point, vividly, Ambassador Dick Miles 
held a reception which included all three leaders of the 
Together Movement. They were within 10 feet of each other on 
the same terrace, and they all were happy to talk to me, but 
they would not talk to each other. It was that physical, and I 
talked to them about the fact that in Washington Republicans 
and Democrats worked together. They would not even look each 
other in the eye, and that is why I told my earlier story.
    Every trip, Chris Hill and I always met, and I know 
Secretary Albright did when she made her trip to Belgrade. We 
always met with the other side.
    Senator Smith. Thank you for that clarification.
    Now I am going to ask you a question that reflects my 
personal bias. On the Rambouillet provision that we were going 
to seek, and even impose autonomy, I think it has been clear 
from the beginning we have intervened in a civil war. We have 
picked a side, as I see it.
    I know it is not--I do not have any enmity toward the 
Serbian people, but I certainly do to their political 
establishment, but I think it has been clear for a long time 
that the Serbs want sovereignty over Kosovo and the Albanians 
want independence from Serbia, and it seems to me we are coming 
to the table now and saying, well, by force of arms you are 
going to have autonomy, and we are going to enforce that.
    My fear is that such an arrangement will be to us and our 
allies in Kosovo what Palestine was to Britain a few decades 
ago. I wonder if you think at this late date, as we read these 
grisly accounts in Newsweek and Time that are as horrific, and 
perhaps not on the same scale, but certainly in quality to 
anything we saw at mid-century from Nazi Germany, I wonder if 
you can tell me what your feelings are about our policy with 
respect to autonomy. Are we going to back off and let these 
people pursue a course of self-determination that ultimately 
could lead to independence?
    Mr. Holbrooke. Senator Smith, you said for some time, and 
then you accurately described views which in fact date back to 
1389. Both Serbs and Albanians, as we all know, consider Kosovo 
sacred soil.
    I was not involved in the Rambouillet negotiations, so I 
would defer to other people as to what exactly was intended by 
the parts of it you referred to. All I can say is that it is 
clear that the Belgrade leadership has forfeited any right to 
have any role or control over the destiny of the Kosovo 
Albanian people, and that role will now be played on the 
security side by NATO and on the political, civilian, legal, 
juridical side by the U.N. structure that is now being pulled 
together and which I intend to spend a lot of time trying to 
focus, because as I said earlier, I am concerned.
    How that will evolve as time goes on, it is very difficult 
to say. Secretary Albright has stated clearly that under 
international law and understandings, Kosovo is still regarded 
as part of Yugoslavia on the maps, but Belgrade is not going to 
run Kosovo in the foreseeable future, and that is what this 
tremendously intense set of negotiations now going on is all 
about.
    Senator Smith. Well, I hope it is more a conflict of a word 
game as to what it is we are meaning, but in real life I think 
Kosovo is going to end up being independent if you put it to a 
vote of the people who live there, and I just would see us 
having taken this action to this date, then having risked 
allied and American lives, trying to enforce something that 
frankly is not realistic in my view, and I have said this to 
Secretary Albright in person, and so I am not speaking out of 
school here.
    But I hope we have enough flexibility that we will not 
spend unnecessary life and treasure trying to enforce the 
unrealistic, and that is my opinion, and I have said it to her, 
and I am saying it to you, and I will say it to the President 
if I get a chance.
    Thank you, sir.
    Mr. Holbrooke. Senator Smith, Barbara Larkin feels I was 
not clear enough in my answer on Slobodan Milosevic, so let me 
just state again, he is an indicted war criminal. That was an 
appropriate thing for Louise Arbor to do. He should face the 
consequences that go with that, as should all the other people 
who are in that similar position, and that should be a key goal 
of Western policy as well, and I have not said this previously 
in this hearing, but it is worth underlining as well as the 
larger goal of bringing democracy to Serbia. Thank you for 
allowing me to clarify my views.
    Senator Smith. Thank you, sir.
    Senator Biden. One of the things that has been absent the 
last 6 or 7 years here is the kind of consensus on foreign 
policy and bipartisanship that we have experienced in the past. 
We have had very, very tough fights in the past years I have 
been here: Democrats opposing Reagan and Bush, and Republicans 
opposing Clinton, et cetera. The nucleus of any bipartisanship 
that is, I believe, thoughtfully arrived at here, includes my 
colleague on the right here. It has cost him, I guess, in his 
party, but he and John McCain and John Warner and a group of 
very well-respected Senators, Senator Hagel, have done from 
their perspective what they think is the right thing. I happen 
to agree with them.
    We have sort of a cabal here in each of our parties. My 
observation is that there is a strong sense of isolationism 
manifested in 50 different ways, and it is not always a 
partisan affair. It is more an ideological instinct, and it is 
in my party as well, although I think to a less extent than in 
this Senator's party. Nonetheless, it has caused us to build 
strong relationships across party lines in difficult places.
    Let me begin my questioning by saying that I understand the 
Senator's frustration about the alleged inevitability of the 
independence of Kosovo. I hope we have patience and do not do 
anything to redraw boundaries right now. I hope we let time 
intervene here a bit, and I hope we do not make any judgments 
that are premature. I am not suggesting that at the end of the 
day the Senator will not be correct, that there is an 
inevitability to what he is suggesting. I think it would 
require a much grander scheme than just the independence of 
Kosovo, and I am not sure the world or anyone is ready for it 
at this moment.
    If I could get your responses, you indicated you do not 
believe in collective guilt. Nor do I, but I do believe in 
collective responsibility, and I do believe in a nation 
collectively informed.
    I want to make it clear, I think the Serbian people are a 
noble people, and I think any long-term solution in the Balkans 
has to ultimately rest upon the integration of Serbian people, 
not just in Serbia, but Serbian people brought into the mix in 
a major way. They are major, major players.
    But I am a little concerned that we, to the extent Senators 
are policymakers, and that is limited, as it should be, 
constitutionally, but we sometimes ignore the historical facts 
and background as we arrive at our judgments, and I think 
sometimes in our effort to demonstrate that we do not believe 
in collective guilt we avoid the notion of collective 
responsibility.
    In 1993, I made my first trip to Yugoslavia, and you 
referenced my meeting with Slobodan Milosevic when in private 
he asked me what I thought of him, I told him I thought he was 
a war criminal, and I documented why I thought he was one and 
said I thought he should be tried as one.
    But in that trip, I did meet with a group that was put 
together in a hotel in Belgrade of, quote, the collective 
opposition, supposedly all the democrats in Serbia. I mean 
academicians, publishers, politicians, and over 80 people 
showed up in the ballroom to meet with me. In 2\1/2\ hours, a 
single Jeffersonian democrat I did not discover. I did not find 
one, not a single one.
    The intense opposition to Milosevic that was radiated in 
that room still reflected an intense nationalism, no matter how 
they characterized themselves, or oneself, and it leads me to 
the following point. I think until the Serbian people 
acknowledge that in a thousand different ways they enabled 
Slobodan Milosevic, we are never going to have a comprehensive 
peace or scheme of bringing the Balkans into the 21st century.
    The Balkans have lagged behind Europe at every stage of 
development for the last 500 years, and it is time for the sake 
of my grandchildren, that not only do they be brought into the 
21st century, but that there be parity, integration, a 
collective sense of their European destiny. Absent a cold 
shower, if you will, unless there is a realization that the 
Serbian sense of victimization is historically not justified 
here, I do not know how we get to the place where there is a 
long-term strategy and prospect for nonrepetition of what has 
taken place over the last 150 years in the Balkans.
    So I want to make it clear, I have great respect for 
Serbian culture. I have made it my business for the last 20 
years. It was my avocation before I came to the Senate. I have 
been fascinated by the Balkans since I was a student, and I 
think I have read nearly every serious piece that has been 
written about the Balkans--well that is an exaggeration, but 
certainly scores of treatises over the last 30 years, and 
ultimately I think there comes a time, and it is now, when not 
only the Serbs but others in the region have to have that cold 
shower and look clearly into those mass graves. I know of no 
way of accomplishing that short of fair, open, and 
internationally televised trials of these hideous actions 
allegedly perpetrated, and I say allegedly because of my notion 
of due process, by Karadzic, Mladic, Milosevic, and scores of 
others, some of whom are Kosovars, some of whom are Bosniaks.
    So that is a long preface to my question, which is that, 
notwithstanding all of this, when I read this article by Mr. 
Daalder--and I think I have met him, and I may be mistaken, but 
I think I have, I do not know where he has been--and I would 
like to take a slightly different tack to that which you have 
taken.
    He indicates that having ruled out ground troops in the 
beginning, having prepared only for 3 days of bombing, and 
having known of Operation Horseshoe since October, and having 
signed on to an agreement that had no teeth, you, Dick 
Holbrooke, wrought this outcome. I do not know where the hell 
he has been. I wonder when he was in the government, whether he 
considered the following: the good news is that we are in an 
alliance; the bad news is we are in an alliance. The good news 
is that we are a democracy. The bad news is that we are a 
democracy.
    Your critics now, and I will not name names, but I can, in 
both the Democrat and the Republican Party, are suggesting that 
we knew of Operation Horseshoe and did not act, but these are 
the very people who were saying we should negotiate with 
Milosevic.
    I have been on 50 television shows from Meet the Press, to 
Nightline, to virtually every other program. The very people 
who are criticizing you now were telling me how can you force 
Rambouillet on a sovereign nation? We know the Senator I am 
talking about who says this--we did half a dozen shows 
together. I do not know what has changed. We negotiated 
Rambouillet, and they did not like our agreement. When Serbia 
refused to sign, we said we were going to bomb them. This 
Senator than said that is not right. It is a sovereign nation.
    Well, we could not even get anything close to unanimous 
agreement in the Congress to bomb them. How the hell did he 
think we are going to get agreement to put troops in, ground 
troops in. You were not playing with a full deck.
    Let me make it clear, the deck given to you.
    Knowing you as well as I do, I cannot imagine your not 
having wanted to have had 30, 40, 50,000 troops to seal that 
agreement with Milosevic but what did you have? You had the 
State Department, I suspect, telling you, NATO will never go 
for this, so do not push it. You were being told that the 
Republicans in the Congress will kill you. There is no 
possibility of their voting for ground troops, zero, none. 
After you get by three or four folks on the Republican side and 
maybe two dozen of the Democratic side, it is like a gigantic 
void, no possibility.
    I challenge anyone in this room, anyone listening to this, 
anyone in the Congress to stand up and tell me that they ever 
thought there would be 51 votes in the Senate and 218 votes in 
the House to deploy American ground troops into Kosovo in 
sufficient numbers to allow you to put teeth in an agreement.
    I challenge anyone in the press, anyone, to cite me a 
moment, a time, or a rationale, when they thought that would 
have occurred.
    The second thing I find astounding, absolutely astounding, 
is that the President did not push for ground troops. I am the 
guy who, among others, I suspect, called him--I am confident he 
will not mind my saying this--after he had that interview with 
Dan Rather, and I said, for God's sake, boss, do not do that 
again.
    Not only did he go on and say we were not going to put 
ground troops in, he went on to say why it was a bad idea. That 
itself was a bad idea. I think he figured it out pretty 
quickly, not because I called him, and he did not do that 
again.
    But I remember, and I am going to say something he might 
not like me to say, because I never say what Presidents have 
told me, but I am going to say it because it benefits him. I 
called him over a month and a half ago and said, for God's 
sake, Mr. President, get a plan going for the deployment of 
ground troops to Kosovo to back up the bombing if you need it. 
It is going to take time.
    He said, well, you know NATO, and I said, well, do it at 
the Pentagon. He answered, somebody will find out, and I said, 
so what? He said, Joe--and I will not go into the detail of 
this--you have no idea how delicate this balance is in NATO 
now. You have no idea. And then he went on to explain it, and 
he convinced me that it was true.
    I would respectfully suggest to anyone at Brookings who 
would like to rewrite history these days to answer the 
following question: Had the President of the United States by 
his actions led the Europeans to believe that he was preparing 
to use ground troops, would they have stayed the course on the 
bombing? Would we have gotten the approval to begin bombing had 
the President from the outset said, ground troops have to be a 
part of this?
    There was doubt in the world community whether NATO would 
even follow through on what they said they would do if he 
violated the agreement you negotiated.
    I am a big supporter of NATO, but I want to tell you 
something. I was calling everybody I knew, including the 
defense minister of the United Kingdom, saying, just one little 
guy's opinion, if you do not agree, I am going to be talking 
about how you did not. So I wonder how people now look back on 
this and say, hey, why didn't we have ground troops ready?
    This is a process, but you cannot say it because you are 
the diplomat and you still work for the boss. He ain't my boss. 
There is separation of powers here. Nobody in the 
administration is my boss. I have great respect for them, but 
they are not my boss.
    I have got one group of people who are my boss, and they 
live in Delaware, and so I can say this but you cannot. You did 
not have a sufficient number of arrows in your quiver to 
negotiate the agreement that I know you wanted last year. So I 
hope that the gentleman who wrote this article, goes back and, 
as we former Catholic school kids say, examines his conscience 
and tells me how you could have done much more than what you 
did.
    Now, but that leads me to the question, are you confident 
that there are now enough tools or enough arrows in that quiver 
to do what we have to do in Kosovo?
    I must tell you, and I will say it publicly, I doubt it. I 
doubt the resolve of NATO in going after Milosevic, Mladic, and 
the gang. I am not saying it will not occur, but I worry about 
the resolve in putting enough pressure on the Serbian people, 
who are good people, but to face the reality of what has 
occurred. For if they do not, they will continue to buy into 
the lies of dictators who deny them access to real information 
and spew lies to them.
    Let me end by saying this. When I sat in the hotel in 
Belgrade waiting to go meet with Mr. Milosevic in 1993, he 
wanted me to meet him during the day. I refused to do it, 
because I did not want to give him--not that I give anybody any 
credibility--but I did not want a United States Senator meeting 
with him in public with the press present. I only agreed to 
meet with him after dark--I was surprised he agreed--in his 
office alone. There was no press, no one around, except one 
aide of his and two aides of mine.
    I was getting prepared to go into that meeting in a hotel 
room, and a young Foreign Service officer was with me, when on 
the air I saw babies that looked like they had been smashed up 
and beat up. They looked like they were hung on meat hooks. I 
said, what is that all about, and he translated it for me. He 
said, this is State-controlled television, and this is what the 
Serbian people in Belgrade at least, were being told that night 
that Muslims were doing to their children in Bosnia.
    It was a total, complete lie, but because people talk about 
1389 in Serbia, there was an entire constituency prepared to 
believe it. So it is understandable to me that the Serbian 
people believe that what we are saying now is propaganda and 
lies. But I do not believe there is any possibility of a long-
term settlement until we face the reality of what has occurred, 
and until we figure out that there is a difference among 
Albanians between Tosks and Ghegs, until we understand that not 
all Albanians are Muslims.
    One of the recent villages that were wiped out and 
massacred by the Serbs is a Roman Catholic Albanian village. 
There are so many myths, so many myths that exist. The reality 
is hard enough to deal with. The myths are impossible.
    So my question is, and I will not say any more, do you 
think there are enough arrows in the quiver that our diplomats 
will have in order to have a fighting chance to get a peaceful 
implementation that has long-term possibilities in Kosovo?
    Mr. Holbrooke. Senator Biden, thank you, first of all for 
giving a better answer to Senator Smith than I did. I am very 
grateful for your comments, and they indicate again your 
extraordinary command of the nuances of this incredible 
difficult issue.
    I would just make one prior comment before I answer your 
question. Our goal in the region must be, in its simplest form, 
democracy and justice. Justice means truth, and democracy means 
the people choose their own destiny, and until Serbia joins, 
and I am quoting now, you, until extreme nationalism--which, by 
the way, is a code word for racism. Let's be clear in what it 
is. It is not simply patriotism in the American sense.
    The key word is extreme, and we have seen it in other parts 
of the world, and it always means suppression of the other. 
Until we bring Balkans into Europe in the 21st century, and 
they fulfill what you correctly call the European destiny, we 
are going to have instability throughout the region, and that 
is a region with two important NATO allies, Greece and Turkey, 
and with their own unresolved differences, which also must be 
addressed.
    Now, you asked--your question is very difficult for me to 
answer. I am sure that the correct answer given to me in the 
briefing books that I did not bring with me today is, yes, we 
have the resources, but I cannot say that to you, Senator 
Biden. First of all, the resources are going to be the American 
participation, and the resources will be determined by you and 
your colleagues as the administration goes through the process, 
and those resources may be larger than the initial estimates.
    We, the administration, misled the Congress on the duration 
at an earlier time, and should not repeat that again, so all I 
can say to you, Senator Biden, is my deep and profound hope 
that the resources will be mustered when they reach the right 
time.
    Thank you.
    Senator Biden. Thank you very much.
    Senator Smith. We are pleased to be joined by our 
colleague, Senator Ashcroft from Missouri.
    Before I turn to Senator Ashcroft, I would like to get your 
response to a news article, and if you are not already aware of 
it, make you aware of the plight of probably 1,500 Albanian 
Kosovars who were in jail in Kosovo who were taken out of 
Kosovo into Serbia. It is possible they are being used as 
bargaining chips.
    One of these is a doctor Flore Bravina. She ran an 
orphanage, she taught first aid courses, but somehow was put in 
jail as being part of a terrorist plot. She is 49 years old, 
not in good health, and she and again perhaps as many as 1,500 
ethnic Albanians have been moved out of Kosovo and are now in 
Serbian jails.
    My question is, are you aware of this, and did we or NATO 
make a mistake in concluding a peace without getting some 
provision for their release? What can we do about it at this 
point?
    Mr. Holbrooke. Well, Senator Smith, I am not aware of this 
case, and I do not know the details of the NATO negotiations 
with the Serb military authorities, so all I can ask is if I 
could submit an answer for the record upon consultation with 
the State Department.
    Senator Smith. Absolutely. This comes from a June 23 
article from the Los Angeles Times, and it is tragic if we have 
let what are political prisoners be taken and perhaps to be 
either killed or used as bargaining chips, and I hope we can do 
something to help them.
    [The following response was submitted for the record.]

                 Status of Kosovar Detainees in Serbia

    The State Department is aware of the fact that Serb forces, in 
withdrawing from Kosovo, took with them ethnic Albanians from Kosovo 
who were held in prisons there, as well as other citizens the Serb 
authorities believe to be guilty of criminal activity. We do not know 
exactly how many were transferred, or the charges on which they are 
held. Initial press reports spoke of some 2,000, but Albanian sources 
put the number much higher. We have publicly raised our concerns over 
the Serb action in removing these people from Kosovo, urged authorities 
to grant ICRC access to those detained, and called for the return of 
those held. Serb authorities have allowed ICRC access and provided the 
ICRC with a list of some 2,000 being held. Serb authorities, soon after 
the issue became public, released over 150 individuals, but the 
remainder continues to be held. We are also aware of Dr. Bravina's 
detention, but do not have information beyond that in the press. The 
return of prisoners was not a NATO condition to halt the bombing, but 
their accounting--and return--is one condition for lifting the 
stringent sanctions imposed against the Milosevic government by the 
United States and the European Union. We will continue to use every 
opportunity to press for resolution of this issue.

    Senator Smith. Senator Ashcroft.
    Senator Ashcroft. Mr. Chairman, I thank you for holding 
this series of hearings regarding the nomination of Ambassador 
Holbrooke. He has been nominated to fill a very important post. 
I have an opening statement which I would like to submit for 
the record so that I might go immediately to questions that I 
would pose to the nominee.
    Senator Smith. Without objection.
    [The prepared statement of Senator Ashcroft follows:]

              Prepared Statement of Senator John Ashcroft

    Mr. Chairman, thank you for holding this series of hearings 
regarding the nomination of Richard Holbrooke to be U.S. Representative 
to the United Nations. This important post should be filled with the 
very best individual, and I look forward to reviewing Mr. Holbrooke's 
record carefully.
    Mr. Holbrooke is a respected diplomat who no doubt was instrumental 
in securing the Bosnia peace agreement in 1995. He has been a trusted 
advisor of the President on issues throughout Europe and a mediator in 
the Greek-Turkish dispute over Cyprus.
    In his assessment of the Balkans, Mr. Holbrooke has shown good 
strategic sense on several fronts. Prior to becoming Assistant 
Secretary of State for European and Canadian Affairs, Mr. Holbrooke had 
been an opponent of the arms embargo--a policy which probably prolonged 
the war in Bosnia. As Assistant Secretary, Mr. Holbrooke recognized 
that the improving position of Croat-Muslim forces on the ground in the 
summer of 1995 would facilitate a peace settlement. He also opposed 
giving Mr. Milosevic any relief on sanctions until the Bosnia agreement 
had been implemented.
    Other aspects of Mr. Holbrooke's work in the Balkans are of 
concern, however. From an account in his book ``To End A War,'' Mr. 
Holbrooke's immediate rationale for U.S. engagement in Bosnia was the 
fact that the United States would have to help extract U.N. 
peacekeepers from Bosnia in the event a pullout was necessary. As Mr. 
Holbrooke writes, ``Clearly, we had to find a policy that avoided a 
disastrous U.N. withdrawal. This meant a greater U.S. involvement.''
    As the situation on the ground became more tenuous for the U.N., 
NATO had approved an operational plan for intervention to get U.N. 
personnel out of Bosnia. Amazingly, although the NATO Council had 
approved this plan, the President had not been briefed on an operation 
that might require the deployment of 20,000 U.S. troops to the Balkans.
    This kind of neglect had, as Mr. Holbrooke rightly said, narrowed 
the options of the Administration considerably. The President could 
stop the deployment of U.S. troops, but if he did he would be 
undermining a U.S. commitment to help extract U.N. peacekeepers. In 
international relations, the United States should be in a position to 
honor its commitments. Being forced to take responsibility for a civil 
war out of simple neglect and lack of communication within the 
Administration is not a sound rationale for committing American 
credibility, however.
    In addition, Mr. Holbrooke's assertion that failure to follow 
through on the NATO plan to extract the U.N. peacekeepers ``could mean 
the end of NATO as an effective military alliance'' was mistaken, in my 
opinion. In an effort to justify new missions for NATO, Administration 
officials often have said that failure to follow through in the Balkans 
would undermine the alliance. The question is seldom asked, however, as 
to whether NATO should have been committed to these missions in the 
first place.
    It is precisely this mission creep of NATO which endangers the 
future strength of the alliance. NATO has been transformed by this 
Administration from an alliance with the clear mission of collective 
defense to an organization to defend the nebulous ``interests'' of NATO 
members. Mr. Holbrooke was a key participant in this transformation, a 
transformation of a Treaty in which the Senate--with its constitutional 
role of advice and consent--has not been a participant.
    While highly critical of the Bush Administration in the Balkans, 
Mr. Holbrooke seems to downplay the shortcomings of the Clinton 
Administration's policy in the region. Mr. Holbrooke's work in Dayton 
was impressive, but a NATO peacekeeping force in Bosnia was not 
foreordained as the only solution to this conflict. As Noel Malcolm 
writes in his book on Bosnia, the arms embargo was a disastrous policy 
followed by the Clinton Administration and probably prevented the war 
from ending much sooner.
    Finally, the dependence of our peace initiative on Slobodan 
Milosevic--after he had destroyed Yugoslavia--seems to have helped 
legitimate his continued repression in Serbia.
    Mr. Holbrooke is no doubt a capable negotiator and a respected 
strategic thinker on foreign policy matters. I have additional 
questions to submit to Mr. Holbrooke and intend to review his record 
carefully before the Committee completes its work.
    Thank you again, Mr. Chairman, for holding this hearing.

    Senator Ashcroft. Mr. Holbrooke, in your book, ``To End a 
War,'' you discuss the administration's efforts to build public 
support for sending American troops to Bosnia. You quote the 
President as saying, ``I must be brutally honest with the 
American people when I address the American people. When I 
address the people I must be sure our military and intelligence 
people have signed off. I must be honest about what we are 
getting into.''
    Now, U.S. forces have been in Bosnia for 3\1/2\ years. Two 
deadlines given by the administration have been broken. Were we 
brutally honest in telling the American people what we were 
getting into? Were we honest when the Secretary of State came 
to this committee and told me we are going to be back in a 
year?
    Mr. Holbrooke. Senator Ashcroft, thank you for your 
question. I can only repeat what I wrote in the book and what I 
have said earlier this morning: The deadlines were a mistake, a 
grievous mistake. They were not realistic, and President 
Clinton has stood up publicly and so stated repeatedly since he 
removed the last one in December 1997. As the President 
recently noted during his interviews over the weekend, and as 
Senator Biden said earlier, no such deadlines have been offered 
again.
    And I think, Senator, that there was confusion in the minds 
of some people between an exit strategy and an exit timetable. 
A strategy for leaving is necessary with benchmarks which have 
now been worked out with the Congress, and on which I believe 
the administration has to report to you regularly.
    But a strategy does not automatically give a deadline, and 
the worst part of this arbitrary deadline in my view was that 
it also encouraged the Bosnian Serbs to think they could out-
wait us, and then take over once we left. So the deadline 
actually worked against the goal, and I think it was deeply 
regrettable that this happened.
    Senator Ashcroft. You and your negotiating team had 
considerable doubts about the 1-year time limit. Did senior 
Pentagon leaders have doubts about the 1-year time limit at the 
time?
    Mr. Holbrooke. I cannot speak for them, Senator Ashcroft. I 
know that our negotiating team, which included General Clark, 
who was then the J-5 of the Pentagon and now, as we all know, 
is the Supreme Commander of NATO, shared my view at the time 
that it was an unrealistic time limit, but what happened in the 
senior leadership of the Joint Staff, I am not aware of. I was 
overseas in the shuttle at the time this all happened.
    Senator Ashcroft. You seem to indicate that there were 
senior officials who had very serious reservations, 
reservations which time has validated.
    Mr. Holbrooke. Yes, sir.
    Senator Ashcroft. Do you think it was the duty of any of 
the individuals with whom you were operating to express those 
reservations to Congress, or are you satisfied that the 
appropriate thing is to give these iron-clad assurances to 
Congress about the span of the operation that did not comport 
with your understanding at the time, or with the understanding 
of senior military officials?
    Mr. Holbrooke. Again, Senator Ashcroft, I cannot speak for 
what every senior military official felt, and I fought for the 
maximum amount of flexibility in the 1-year timetable. It was 
originally going to be iron-clad. I fought for flexibility in 
it, and tried to operate within my instructions from the 
administration at that time.
    Senator Ashcroft. The deployment of NATO resources now 
appears to be going forward based on something other than a 
defense of NATO territory, which I believe characterized NATO's 
mission in its first 50 years and contributed to the alliance 
being the most successful, mutual defense organization in 
history.
    It appears that NATO troops are to be deployed depending 
upon the ``interests'' of member States. How would you define 
the term, ``interests,'' if that is consistent with your 
assessment of how NATO is operating?
    Mr. Holbrooke. Senator, I am not sure I follow. Do you 
mean, how would I define the term, ``national interest,'' in 
the American context, or the NATO context?
    Senator Ashcroft. Well, I asked the Secretary of State when 
she testified before the committee where we would deploy NATO 
troops, and she said where it was in the interest of the NATO 
nations to deploy them. She said it could be the Middle East, 
it could be Central Africa.
    Now, that is a very serious departure--a significant 
departure from what NATO was intended originally to do. I just 
wondered how you would define interest, and I asked former 
Secretary Perry how he would define it. He said it could be as 
far away as in the Pacific rim. Is it your view that NATO 
deployments should be based on interests, rather than the 
defense of territory and the political independence of member 
States, and if so, how would you define interests?
    Mr. Holbrooke. First of all, it is clear, as you have 
stated and as you and I discussed when I had the honor of 
calling on you, that the founding fathers of NATO did not 
imagine for the alliance the use to which it has been put in 
Bosnia and Kosovo. There is no question of that.
    The debate over the future of NATO has raged ever since the 
end of the cold war. On one extreme, people said it fulfilled 
its mission; let's disband it. On the other extreme, people 
said, let's turn it into a 16, now 19-nation alliance that goes 
wherever it wants to go.
    I believe that in the real world, Senator, these issues 
will be quite narrowly defined, and I am just making a personal 
projection, because I do not want to contradict Secretary 
Albright or--and I believe you are referring to Secretary 
Perry.
    Senator Ashcroft. Yes.
    Mr. Holbrooke. I do not want to contradict them, 
particularly since I have not studied their testimony, but let 
me give you a personal view that extends----
    Senator Ashcroft. I really am interested in what you think, 
rather than what they said, anyhow. I have already had the 
chance to talk to them.
    Mr. Holbrooke. And also the conversation you and I had in 
your office, this is like a continuation of it, because we ran 
out of time. I think it is a hugely important issue and one in 
which continual dialog with the Hill must be conducted, so let 
me speak just for myself here, because I do not think that this 
is an easy answer.
    I do not believe that Bosnia and Kosovo, dramatic as they 
are, should be regarded as the beginning of an era of global 
intervention by NATO. On the other hand, I also reject 
personally the theory that they were somehow outside the bounds 
of NATO's mandate.
    If the 19 nations decided, in the face of the outrages 
which we were seeing from Belgrade and from the Bosnian Serbs, 
that it was appropriate and necessary to take these actions in 
this area, which I would stress, sir, is in the middle of the 
NATO area, because Greece and Turkey lie to its south and east, 
and because instability in that area, which is only a few miles 
from Italy, could create vast disruption, if the NATO nations 
decided to do it, I believe it was appropriate.
    And we have more than a single vote out of the 16, or the 
19. Ours is the deciding vote, and therefore if we did not 
believe--and when I say we, sir, I mean not simply the 
executive branch, but the two branches and the Nation, in that 
unique process which is American democracy--if we did not 
believe it was in our national interest, then we would not do 
it, or should not do it.
    That does not mean it is going to be 100 percent. This is 
the most contentious foreign policy action since Vietnam.
    Senator Ashcroft. Is it your view that the executive branch 
and the legislative branch, the Congress, did express in some 
way a consensus that this was an appropriate NATO deployment?
    Mr. Holbrooke. It is my understanding, Senator, that the 
President exercised his authority after consulting with the 
Congress. I am not a constitutional lawyer, and I will leave 
this to the experts. This is beyond my brief. But the 
consultation process, as the dialog this morning I think 
illustrates, was intense and continuous. Senator Biden in fact 
addressed this point earlier.
    All I want to stress is that, had the United States decided 
that it was not in our national interest to bomb Bosnia and 
send troops and to bomb Kosovo, it would not have happened.
    Senator Ashcroft. It interests me that you indicate that 
the founding fathers of NATO, to use a euphemism, those who 
founded NATO, never imagined this kind of deployment or 
utilization of NATO resources, and I agree with you, and I do 
not believe the Senate of the United States, when it ratified 
the NATO Accord, ever thought that this was a treaty----
    Mr. Holbrooke. I agree with you, and I have read the 
exchanges between Secretary Acheson and Senator Vandenberg and 
Senator Connelly, and none of the men in this chamber at that 
time could have imagined this. That is clear.
    Senator Ashcroft. It appears to me what you argue is that 
NATO now exists as something that has evolved from what NATO--
from the treaty which was ratified, and I will tell you where I 
am going with this. I think Joe Biden knows. He has seen me go 
here before, and so does the chairman of the committee.
    Senator Biden. It is a legitimate argument.
    Senator Ashcroft. I want to know to what degree you, as a 
person of tremendous influence and consequence in the 
international arena, can amend treaties of the United States to 
mean what they were not conceived to have meant ab initio, at 
the beginning, when they were ratified, and who you have to 
confer with.
    This, to me, is a real question. I do not know how many 
times or who you have to call--whether it is the ranking member 
or the chairman of the committee--and say, well, now we are 
going to do things with a treaty that were never conceived of 
and had not been ratified by the Senate, but it is enough that 
we have continual dialog with the Hill.
    You are going to be in a position, and have already been in 
a position to commit the United States to a certain course in 
the international arena. You have negotiated agreements, and we 
all ended up having to follow through with what you negotiated. 
Whether you have the formal authority or whether there is a 
line on a flow chart which ever shows that, you have done that.
    And so your philosophy about where you can go with your 
authority, and how far you can go, and what it takes to modify 
something as substantial as treaty commitments of the United 
States is very important.
    In one sense you have proposed a method of operating where 
the administration can evolve a treaty, and that the 
ratification is assumed to extend to the evolution so long as 
there has been, to use your language, continual dialog.
    I do not really mean to say that anything you have done is 
inappropriate or not good for the country. I really do not want 
to question that. But the question of how treaties change, and 
is there a role for the Congress to play in the amendment 
process, other than ``continual dialog'' is an issue of great 
constitutional importance.
    Mr. Holbrooke. Senator, I am not a constitutional lawyer, 
and it would be way above my pay grade even if I were getting 
paid on this issue, but let me just----
    Senator Ashcroft. Well, this is a place where you are going 
to be, making the decisions, so I am not trying to ask you to 
be a constitutional lawyer. I am trying to find out how you 
conduct yourself when you represent the United States of 
America, and what your regard is for the underlying authority 
which would exist in treaties that have with one meaning been 
ratified by the Senate, as opposed to a modified meaning which 
is shaped continuously by other individuals.
    Mr. Holbrooke. May I preface my specific answer by going 
back to something I have said in the earlier hearings, which is 
my own 23-year record of consultations with Congress on the 
take-offs, not just the crash-landings--a record which many of 
your colleagues can attest to and, indeed, have.
    I revere the Constitution, and I believe that if confirmed 
by the Senate for a job anyone, myself included, has an 
obligation to consider that while he or she gets instructions 
from the executive branch chain of command, he or she has an 
absolute responsibility to talk to Members of Congress 
continually, in public and in private. My record shows that.
    Now, to your specific point, again, I am not a 
constitutional lawyer, but I think that you are addressing an 
issue which has been much debated--the issue of original intent 
versus the legislation--but you are addressing it in the most 
important forum that exists for the United States, the decision 
as to whether or not to put Americans in harm's way. Like you, 
Senator, I consider that the highest responsibility and 
obligation of a President, a Commander in Chief.
    You earlier made some comments about my own role, but I 
would stress that, while I was a negotiator, I have no role to 
play and no authority to play in regard to that ultimate 
decision. I recall vividly our private conversation last week 
on this subject.
    The fact that the founding fathers of NATO and the Senators 
who voted to ratify it did not envisage Bosnia and Kosovo does 
not to my mind mean that it is a violation of the treaty or an 
unconstitutional extension of it to proceed with something not 
envisioned.
    The treaty provided--and again, sir, I am not a 
constitutional lawyer. Provided is not specifically excluded, 
and under several articles of the treaty the State Department 
and Pentagon concluded early on that these actions, while not 
envisaged in 1948, were constitutionally appropriate, and I 
believe this was so communicated to the committee.
    However, let me say again in furtherance of our private 
discussion, which for those of you who were not there concerned 
whether or not Presidents can go to war without checking with 
the Senate and the Congress, that I think that the consultative 
process has not been adequate, and I think we all just have to 
try harder.
    Senator Biden made a comment before you arrived concerning 
the history of this issue, and it was very difficult. But I do 
not believe, for example, that the kind of stealth politics 
that President Johnson conducted when I was a young Foreign 
Service officer in Vietnam for 3\1/2\ years, in which he really 
just lied to the American public about our troop presence and 
what we were doing, has ever happened in this administration, 
notwithstanding the very unfortunate position we took on the 
time limit. I pledge to you, Senator, as I have to your 
colleagues in previous sessions, that I will be available to 
you and seek you out to the maximum extent you are available to 
discuss these issues as we go forward.
    And, finally, I do not think Kosovo and Bosnia should be 
regarded as the beginning of an era of global intervention, and 
I cannot conceive of NATO being in the Pacific, with all 
respect to anyone else who might have suggested that. We have 
troops in the Pacific. We have treaties with Japan, Korea, the 
Philippines and other countries. These are important treaties. 
Our troops there are under unitary command, and that is not a 
NATO issue.
    Senator Ashcroft. May I, Mr. Chairman, just indicate my 
concerns here. I do not believe that the administration has the 
right to modify a treaty on its own from what was ratified. I 
do not believe the Congress, in consultation with the 
President, has the right to modify a treaty.
    My own view is that it would be just as wrong for a group 
of congressional leaders to say, OK, we are going to modify the 
treaty without the process that is called for in the 
Constitution. As a matter of fact, it might be worse to have a 
conspiracy between two branches of government to avoid the 
Constitution than it would be for one.
    Consultation is an important thing, but what you do with 
treaties is to ratify them, and ratification is a process 
involving the full Senate. I think there is a legitimate debate 
about NATO's intended role to how the alliance has endured.I 
believe that we obscured the issue last year when we added new 
members, when the real change that we adopted was a new 
philosophy and a new mission for NATO.
    I would urge you not to take the position that you can do 
anything with a treaty that is not specifically excluded by the 
treaty. That was the language you provided: NATO's actions in 
the Balkans were not explicitly excluded. I would urge you to 
have a different standard when you deal with treaties, and that 
is that we only do those things which the treaty authorizes. Do 
not assume you can do everything that you have not been 
explicitly forbidden to do.
    I emphasize that point because I have an affection for the 
Constitution, and your coming to me to consult with me to get 
my consent that you can avoid a treaty or expand it or enlarge 
it does not set aside the democratic constitutional process. I 
should not personalize it because I am not accusing you. But do 
not come to me to do that, because if I agree with you I have 
joined with you in setting aside the Constitution.
    I think when we change treaties we ought to follow the 
constitutional process. If we have not changed the NATO treaty, 
we have come very, very close to changing that treaty. I know 
that we have not come close, in my judgment, to the kind of 
debate and discussion in which the Congress should be involved 
with regard to NATO's evolution.
    I thank the chairman for his indulgence.
    Senator Biden. Would you yield just a second? I think the 
point the Senator raises is a very, very, very important one. 
Before the Senator got here, when he was Governor, we adopted a 
thing that is referred to in all treaties now as the Biden 
condition, which is the inability of the President of the 
United States to redefine what a treaty means different than 
what the Senate thought.
    But I would call the Senator's attention to something, but 
knowing his knowledge in this area he has probably already done 
it. One of the most fascinating debates taking place in 
American jurisprudence right now was brought out in the open in 
the three decisions the Supreme Court made yesterday.
    I would recommend to him the dissent, written by Justice 
Souter, and the majority opinion, written by Chief Justice 
Rehnquist, on three different cases, on this issue of whether 
or not what the Founders envisioned limited what is 
constitutional. It is a fascinating dissent written by Justice 
Souter today. It is in the Times, and I am sure you have it, 
but it was not about treaties.
    Senator Ashcroft. I think there is a difference.
    Senator Biden. But it goes to the issue of whether or not 
what was envisioned limits what is permissible. It is at least 
an interesting jurisprudential debate.
    Senator Ashcroft. I thank the Senator.
    Senator Smith. Ambassador Holbrooke, on behalf of Chairman 
Helms and all members of the Foreign Relations Committee, we 
thank you for your candid and complete responses over these 
past 2 weeks.
    We will leave the record open for any Senators who wish to 
put other questions to you and tell you we expect the committee 
to reconvene by Wednesday, where there is an expectation, 
barring some unforeseen development, that your nomination will 
move from the committee to the floor of the U.S. Senate and I 
believe, with this said, I think it is safe to say your 
nomination hearings are concluded and we are adjourned.
    [Whereupon, at 12:25 p.m., the committee adjourned.]
                            A P P E N D I X

                              ----------                              


                    U.S. General Accounting Office,
      National Security and International Affairs Division,
                                      Washington, DC, July 7, 1999.
Honorable Jesse Helms,
Chairman, Committee on Foreign Relations,
U.S. Senate.
    Subject: United Nations Reform Initiatives: Answers to Hearings 
Questions
    Dear Mr. Chairman: This letter responds to your Committee's request 
for additional information related to the June 22, 1999, hearing on the 
nomination of Richard C. Holbrooke to be Ambassador to the United 
Nations, which covered, among other topics, the status of reform 
initiatives underway at the United Nations. We are also providing a 
copy of this letter to Senator Grams and Senator Biden, Ranking 
Minority Member. We will make copies available to others on request.
    Our responses are based on prior and ongoing work at the United 
Nations focusing on management issues, as well as additional 
information on U.N. reform initiatives obtained from the United Nations 
and the State Department during the course of preparation for testimony 
before your Committee.
    If you have any further questions or would like to discuss any of 
these issues in more detail, please call Tetsuo Miyabara or me.
            Sincerely yours,
                        Harold Johnson, Associate Director,
                          International Relations and Trade Issues.
    Enclosure.

GAO Responses to Questions From Senator Rod Grams of the Senate Foreign 
                          Relations Committee

    The following text provides our response for the record to 
questions submitted by Senator Rod Grams to follow up on GAO testimony 
at the June 22, 1999 hearing on the confirmation of Richard C. 
Holbrooke as the Permanent Representative of the United States to the 
United Nations.
                      organizational restructuring
    Question 1. A fundamental problem confronting the U.N. has been a 
lack of coordination and cooperation among the various organizations 
within the U.N. system, resulting in duplication of efforts and 
inefficient programs. The primary goal of the Secretary General's 
reform plan was to define the core missions of the United Nations and 
to restructure the organization accordingly. I am concerned that the 
U.N. appears to be committing to emphasize new priorities like drug 
interdiction, disarmament, and terrorism--without curtailing its 
efforts in other areas.
  <bullet> Has the Secretary General proposed to eliminate a single 
        function of the U.N. in order to devote more resources to the 
        core missions which he outlined?

    Answer. The Secretary General has not proposed to eliminate any 
functions of the United Nations. Based on our preliminary analysis, all 
major budget programs that existed in 1996 were continued as a line 
item in the 1998-99 biennium budget. However, the Secretary General has 
restructured some departments and offices, and this has led to 
reductions in staff and budget in these areas. For example, three 
Departments--Policy Coordination and Sustainable Development, Economic 
and Social Information, and Development Support and Management 
Services--were consolidated into the Department for Economic and Social 
Affairs, resulting in 48 posts being eliminated and the budget for the 
consolidated office being reduced by $9.1 million. The 48 posts were 
abolished and were not reclassified or moved to another unit.

    Question 2. Two years ago, the Sectretary General created four new 
executive committees to coordinate the implementation of U.N. programs 
and activities.
  <bullet> Has the U.N. permitted the GAO to have full access to the 
        new executive committees in order to evaluate its 
        effectiveness?

    Answer. We do not yet know whether the executive committees will 
provide us with the access needed to complete our evaluation. Thus far, 
the United Nations has given us adequate access, including access to 
the Deputy Secretary General and the Under Secretaries General who head 
the departments.

  <bullet> Are there specific examples that you can cite of how this 
        new structure is working to better coordinate and reduce 
        duplication of effort?

    Answer. There are several examples of how the new structure has 
worked to improve coordination and reduce duplication. The Executive 
Committee on Peace and Security recently developed a unified plan for 
the September 1999 referendum in East Timor, coordinating the work of 
the Office of Human Rights and the Departments of Peacekeeping 
Operations, Political Affairs, and Management. U.N. officials viewed it 
as a breakthrough for these departments to work together as a cohesive 
team. Another example is where the Executive Committee on Economic and 
Social Affairs commissioned a study of its six major publications, such 
as World Population Monitoring and The State of the World Population. 
The review found considerable overlap and redundancy among the 
publications, although the committee has not yet moved to terminate 
publications or take other steps to reduce the overlap. Other examples 
indicate that the Secretariat is making progress in coordinating some 
work in the field, where the true test of the new management structure 
will occur, but also faces challenges. We will provide a more 
systematic analysis of the work of the executive committees in our 
report to be issued later this year.

    Question 3. In response to Senator Kassebaum's efforts in 1985, the 
U.N. agreed to reduce the number of Under Secretaries General by 25%. 
It now appears that we are getting back to the number of Under 
Secretaries General we had before this reform. Secretary General Annan 
has created a number of new Under Secretaries General, including one 
for the Millenium, one for the C.I.S, and one for the E.U.
  <bullet> Are you confident that all the Under Secretaries General are 
        counted in the budget proposals?

    Answer. The authorized number of Under Secretaries General has 
increased from 21 in the 1994-95 biennium to 26 in 1998-99. This count 
includes all under secretaries general authorized in the U.N. regular 
budget and the extra-budgetary accounts. We could not identify any 
other Under Secretaries General.

  <bullet> Do you see a management need for these new Under Secretaries 
        General?

    Answer. We have not completed our assessment of the organizational 
changes and the reforms in managing human resources, consequently we do 
not yet have an informed view on this matter. We will provide further 
information on this question in our report to be completed later this 
year.
                           reducing overhead
    Question 4. Two years ago, the Secretary General stated his 
intention to reduce by one-third the proportion of resources from the 
regular budget which are devoted to administration and other non-
program activities.
  <bullet> In this regard, does the U.N. have a cost accounting system 
        so that overhead costs can be properly allocated to program 
        activities?

    Answer. The United Nations does have a cost accounting system that 
can allocate overhead costs to program activities. After costs are 
incurred, they are billed to an allotment account and the cost is 
classified under an object of expenditure in accordance with the U.N. 
financial rules and regulations. For example, overhead costs for 
servicing the General Assembly, such as translation services, office 
supplies, hospitality, temporary assistance, printing, and editorial 
services are classified under objects of expenditure such as general 
operating expenses and supplies and material. These expenses are then 
charged to the program for General Assembly Affairs. Organizational 
overhead, such as the costs for preparing budgets, ensuring financial 
control, contracting for goods and services, arranging transportation, 
and recruiting and hiring employees are charged to the administrative 
offices that deal with these issues. In its most recent report, the 
Board of Audit, stated that the income and expenditures they examined 
on a test basis were properly classified and recorded.

  <bullet> Has there been any measurable success in reducing overhead 
        at all?

    Answer. The Secretariat has reported measurable savings of at least 
$13 million in its efforts to reduce overhead costs. Some examples of 
savings that the Secretariat reports are $1.5 million saved by 
eliminating unnecessary documents for conferences and over $3 million 
saved by outsourcing services such as security, maintenance, and food 
service. The Secretariat has also reported that it saved travel costs 
of $5 million by negotiating better rates and leasing planes to 
transport police monitors and other staff rather than purchasing them 
individual tickets.
                          development dividend
    Question 5. One of the Secretary General's reforms was to have any 
administrative savings transferred into development projects instead of 
back to countries with advanced economies in the form of lower 
assessments.
  <bullet> Does this violate the longstanding U.S. Government policy 
        that U.N. regular budget contributions must not be used to pay 
        for technical assistance programs in developing countries?

    Answer. The development account will use savings from the regular 
budget to fund technical assistance projects in developing countries. 
However, regular budget funds are already being used to fund technical 
assistance. According to State Department officials, the United States 
discourages the use of the regular budget to fund technical assistance 
programs in developing countries, but does not have a formal policy 
against this practice. We are currently examining whether 22 USC Sec. 
1896(a) restricts the use of U.N. funds for technical assistance 
projects and will provide this information in our report to be issued 
later this year.

  <bullet> Could this provide an incentive to over-budget on a 
        permanent basis since the Secretariat would retain all unspent 
        funds at the end of the budget cycle?

    Answer. Yes. For example, in developing the proposed 2000-01 
biennium budget, the Secretary General proposed that the development 
account receive $13 million to be funded by anticipated savings in 
overhead costs. The Secretary General further estimated that the 
Secretariat would save an additional $20 million by undertaking greater 
administrative efficiencies, and he proposed that these savings be used 
to lower the budget level. However, in deciding on a preliminary budget 
level, the General Assembly included the $13 million for the 
development account and also added back into the budget the anticipated 
savings of $20 million that the Secretariat's estimates showed was not 
needed. The proposed budget for the 2000-01 biennium is currently $125 
million higher than the previous biennium. The State Department also 
concluded that the preliminary budget was much more than necessary to 
carry out all mandated programs efficiently and effectively and that 
any budget containing $2.5 billion would easily contain substantially 
more than $20 million in savings opportunities.
           oversight and monitoring effectiveness of programs
    Question 6. Does the U.N. have an established set of guidelines for 
evaluating program effectiveness?

    Answer. The United Nations does not have an established set of 
guidelines for evaluating program effectiveness. The existing 
guidelines on evaluating effectiveness consists of the following two 
sentences: ``The assessment should examine both the efficiency with 
which the activity is conducted and the effectiveness of the results. 
Findings should be based on evidence, including records of opinions of 
independent experts and the views of clients and users.''

  <bullet> If the evaluation process does not focus on program 
        effectiveness, and only looks at the number of reports and 
        conferences, what value do you see in it?

    Answer. The current system for monitoring program performance 
reports only program outputs and is of limited value in providing 
information about whether programs are accomplishing their intended 
objectives. Member States have also identified this weakness in the 
current monitoring and evaluation system and some have come to the 
conclusion that the current system no longer meets the needs of the 
United Nations.
                 sunset provisions for program mandates
    Question 7. The Secretary General's reform initiatives have 
included calls for new program mandates to include specific time limits 
or sunset provisions.
  <bullet> Has the Secretary General been successful in his attempts to 
        ensure that sunset provisions are included in all new program 
        mandates?

    Answer. No. The proposal to include sunset provisions on all new 
programs was tabled during the session of the Committee on Programs and 
Coordination. There are no further proposals to implement this measure.

  <bullet> What is the source of resistance to sunset provisions?

    Answer. Many developing countries are opposed to this measure. U.S. 
officials and U.S. and U.N. documents indicate that the Group of 77, 
representing many of these countries, is reluctant to support this 
measure because they perceive it could threaten the continuation of 
programs they consider important.
                               personnel
    Question 8. While the number of authorized posts has decreased 
since the Secretary General announced his intention to eliminate 1,000 
posts, the number of people working for the U.N. appears to have 
increased. Two years ago, the State Department certified that there 
were 8,500 regular budget posts filled.
  <bullet> In your opinion, why couldn't the Secretary General succeed 
        in eliminating 1,000 posts given that over 1,000 were vacant at 
        the time he made the proposal?

    Answer. The Secretary General has currently abolished 954 posts, 
but has not been able to eliminate the 1,000 posts because the posts 
targeted for abolition were not vacant and Member States have passed 
several resolutions indicating that no staff were to lose their jobs as 
a result of the downsizing.

  <bullet> Does the Secretary General propose increasing or decreasing 
        the number of U.N. posts in his most recent budget proposal?

    Answer. For the regular budget for the 2000-01 biennium, the 
Secretary General proposes an increase of 61 posts, from 8,741 to 
8,802. The 8,741 posts are the number authorized for the end of the 
1998-99 biennium.

  <bullet> Do you know how many U.N. regular budget posts are actually 
        filled at this time?

    Answer. No. The United Nations provides information on an annual 
basis about the level of its on-board staff paid through the regular 
budget. As of the end of 1998, the U.N. Secretariat had an on-board 
staff of 7,738 posts (a 12 percent vacancy rate). U.N. officials 
informed us that the vacancy rate in 1999 is running higher than 
anticipated.
                                 ______
                                 

Prepared Statement of Harold J. Johnson, U.S. General Accounting Office

           united nations--observations on reform initiatives
    Mr. Chairman and Members of the Committee:
    I am pleased to be here today to discuss the status of initiatives 
intended to reform the United Nations. Reform, according to the U.N. 
Secretary-General, means embracing fundamental measures that strengthen 
the organization and its efficiency. Among these measures are 
initiatives demanded by member States, such as increased accountability 
and budget restraint. Other measures include initiatives the Secretary-
General announced in 1997.\1\ To help Congress assess what progress has 
been made in reforming the United Nations, you asked us to examine U.N. 
efforts intended to (1) unify and focus its organizational structure; 
(2) control its budget and institute new budget procedures; (3) improve 
oversight, program monitoring, and evaluation; and (4) improve its 
human resources management. This testimony represents our preliminary 
assessment. As requested, we will provide you a comprehensive report 
later this year.
---------------------------------------------------------------------------
    \1\ Renewing the United Nations: A Programme for Reform, A/51/950 
(New York, N.Y.: United Nations, July 14, 1997); letter dated 17 March 
1997 from the Secretary-General addressed to the President of the 
General Assembly.
---------------------------------------------------------------------------
    My testimony is based on publicly available U.N. documents as well 
as documents available only to member delegations and our prior work on 
U.N. activities, such as our recent report on procurement reform.\2\ We 
also reviewed working files and records obtained from U.N. officials 
and documents obtained from the Department of State and the U.S. 
Mission to the United Nations. In addition, we held discussions with 
numerous U.N. officials, including the Deputy Secretary-General and 
several assistant secretaries-general.
---------------------------------------------------------------------------
    \2\ United Nations: Progress of Procurement Reform (GAO/NSIAD-99-
71, Apr. 15, 1999).
---------------------------------------------------------------------------
    To provide context for my observations, I will first provide a 
brief background on the conditions that led to the reform measures and 
initiatives.
                               background
    For the past 25 years, U.N. member States and others have made 
attempts to reform the United Nations, citing problems such as 
bureaucratic rigidity, poor program performance, duplication and 
rivalry across its many programs, and its high cost. A specific concern 
of member States, particularly the major donors, was the constantly 
growing budget of the Secretariat and the seeming inability to restrain 
costs. Demands were made that U.N. member States adopt procedures to 
control the budget, and, in 1986, the U.N. General Assembly adopted 
consensus budgeting--a process for reaching broad agreement without 
calling for a vote. The United States supported this measure as a step 
toward ensuring that sufficient attention would be paid to the views of 
the major contributors in the development of the budget. Member States 
demanded other initiatives to increase financial discipline, such as 
the adoption of results-based budgeting and sunset provisions on new 
U.N. programs. In the early 1990s, the United States and other member 
States identified the lack of effective internal oversight at the 
United Nations as a major problem. They cited concerns about 
administrative waste and inefficiency. The Secretariat itself 
identified a crisis in the U.N.'s procurement system that raised 
serious concerns about financial controls. The U.N. Office of Internal 
Oversight Services (OIOS) was created in 1994 in response to concerns 
such as these. At the same time, member States also demanded systems 
that could evaluate and monitor the relevance and effectiveness of U.N. 
programs so they could decide which programs to retain.
    In 1994, the Secretary-General reported that the U.N.'s management 
of human resources was in crisis. The organization was faced with new 
challenges, and its human resources management had failed to adequately 
respond. Among the concerns of the Secretariat were a performance 
appraisal system that did not rate staff fairly or consistently, the 
lack of a code of conduct that clearly laid out staff rights and 
consequences for misconduct, and the inability to plan its human 
resource needs.
    These problems and the demands for change by member States 
culminated in reform initiatives announced in 1997 by the Secretary-
General. According to the Secretary-General, the United Nations had 
become fragmented, rigid, and, in some areas, irrelevant. The United 
Nations had also created duplicative bodies, rather than instituting 
effective management structures. To build a cohesive organization that 
acted with a unity of purpose and deployed its resources strategically, 
the Secretary-General incorporated many of the earlier demands for 
reform into his initiatives, as well as other initiatives to 
restructure the United Nations.
                                summary
    The Secretary General has said, and I agree, that reform is a 
process and not an event. Based on our preliminary assessment, we 
believe that the Secretary-General has undertaken a serious effort to 
reform the United Nations to improve its relevance to member States and 
enhance its operational efficiency. Although clear progress has been 
made in some areas, the initiatives we examined have not been fully 
implemented.
    Progress has been made in unifying and focusing the organizational 
structure of the U.N. Secretariat, and the programs that are part of 
the United Nations proper, to make the Secretariat a more cohesive 
management unit. The Secretary-General appointed a deputy secretary-
general to function as the chief operating officer and to strengthen 
internal coordination. A senior management group, composed of the under 
secretaries-general and the heads of those programs that report to the 
Secretary-General, was also created. This group meets weekly to ensure 
U.N. actions are unified and focused on the same objectives. In sharp 
contrast with the past, where under secretaries operated with great 
autonomy, this new structure provides regular opportunities to 
communicate, coordinate, and focus the work of U.N. departments, 
offices, and programs on common objectives. While we believe this new 
structure, now about 2 years old, is a positive move, the proof of its 
success will be measured in the field, where programs are actually 
implemented. Because we are still in the preliminary phase of our 
evaluation, we have not yet tested the new structure's actual impact on 
improving program delivery and effectiveness. Also, I should add that 
this new structure does not include the specialized agencies, such as 
the Food and Agricultural Organization, the International Labor 
Organization, and the World Health Organization, and consequently, the 
long-standing concerns about overlap, duplication, and coordination 
within the U.N. system as a whole are not being addressed by this 
organizational restructuring.
    While budgets have been level for the past two bienniums, our 
assessment thus far indicates that no fundamental changes have been 
made to the budgeting process to control the growth of the regular 
budget. The process for developing budgets is largely unchanged, and, 
adopting regular budgets by member state consensus does not assure 
control of budget growth, as initially hoped. For example, in 
developing the budget for 2000-2001 the United States and Japan, which 
provide over 45 percent of the U.N.'s financial support, objected that 
the preliminary budget ceiling was set too high. However, no vote was 
taken to record their dissent, and the measure passed by consensus. 
Also, the largest donors do not have permanent seats on the Advisory 
Committee on Budgetary and Administrative Questions, where they could 
most effectively advocate budget restraint. Moreover, although the 
Secretariat supports implementing results-based budgeting and sunset 
provisions, initiatives intended to bring more discipline to the 
budgetary process, these measures have not been adopted. Nonetheless, 
some progress has been made. The Secretariat has instituted a program 
intended to cut costs and increase efficiencies. It has thus far 
reported over $13 million in savings by introducing more than 600 
efficiency projects.
    An area where important improvements have been made is in the 
oversight of U.N. programs and activities; however, even here the 
effort should not be considered complete. Through the efforts of 
Congress, the executive branch, and other U.N. member States, the U.N. 
Office of Internal Oversight Services was created in 1994. As we 
reported to you in 1997, OIOS has established itself as the internal 
oversight mechanism for the U.N. Secretary-General \3\ and, based on 
our continuing work at the United Nations, this office appears to have 
become an institutional part of the United Nations. OIOS has clearly 
enhanced and strengthened the audit, inspection, and investigations 
functions at the United Nations. However, progress has been much slower 
in developing and implementing a monitoring and evaluation system to 
measure and report on program performance and effectiveness that would 
help member States make program decisions.
---------------------------------------------------------------------------
    \3\ United Nations: Status of Internal Oversight Services (GAO/
NSIAD-97-59, Apr. 9, 1997).
---------------------------------------------------------------------------
    To begin addressing what the U.N. Secretariat considered a crisis 
in its human resources management, it recently introduced several 
initiatives and adopted a strategy to carry them out. These initiatives 
include a new performance appraisal system, adoption of a staff code of 
conduct, and actions to begin human resources planning. However, these 
initiatives have not yet been fully implemented, and some problems have 
developed in their implementation. For example, after the new merit-
based appraisal system, introduced in 1996, was applied during the most 
recent rating period, the Secretary-General asked three departments to 
revise the ratings because they were too high and were out of line with 
the rest of the Secretariat. Also, the code of conduct, adopted in 
December 1998, does not provide the Secretariat with clear procedures 
for applying related disciplinary measures for systematic management 
problems, negligence, and gross negligence. Additionally, while the 
Secretariat has begun using an automated database as the basis for its 
human resources planning, the information system is unable to account 
for and track all staff working for the U.N. Secretariat.
    With that brief summary, I would like to discuss each of these 
reforms in greater detail.
                      organizational restructuring
    To begin unifying and focusing the United Nations, the Secretary-
General announced a major reorganization in 1997 and since that time, 
has taken action to implement the changes. In particular,

  <bullet> a deputy secretary-general was appointed to essentially 
        perform the functions of a chief operating officer and ensure 
        coordinated U.N. operations;
  <bullet> a senior management group was established to set overall 
        policy direction;
  <bullet> four executive committees were formed to implement the 
        policies and ensure that the actions were coordinated among the 
        U.N. organizations;
  <bullet> the U.N. Development Assistance Framework was implemented to 
        coordinate the U.N.'s development efforts in the field;
  <bullet> various departments and offices were restructured and 
        consolidated to strengthen and focus the U.N.'s response to 
        humanitarian emergencies; and
  <bullet> human rights activities were consolidated, and steps were 
        taken to strengthen human rights activities and integrate them 
        into the overall activities of the organization.

Deputy Secretary-General and the Senior Management Group
    As an integral part of building a cohesive and unified management 
structure, the Secretary-General asked the General Assembly to approve 
the position of deputy secretary-general, whose job would be to 
strengthen coordination, collaboration, and uniformity of focus in U.N. 
operations. The General Assembly approved the position in December 
1997, and the Secretary-General appointed an experienced diplomat as 
Deputy Secretary-General in January 1998. Since then, the Deputy 
Secretary-General has worked on many of the day-to-day operational 
issues to ensure that U.N. activities are unified. The Deputy 
Secretary-General chairs the senior management group in the Secretary 
General's absence and has also worked on ensuring a consistent U.N. 
response to personnel reforms and a coordinated approach to U.N. 
activities, such as in Afghanistan.
    The Secretary-General also established a senior management group, 
composed of all the under secretaries-general and the heads of the U.N. 
funds and programs, to provide unified and clear leadership for the 
organization. (See App. I for a list of the members of the senior 
management group.) According to the Under Secretary-General for 
Internal Oversight, through the leadership of this group, communication 
and coordination among U.N. organizations has improved. The senior 
management group meets weekly with the Secretary-General to discuss 
U.N. operations and agree on unified actions and policy direction. Full 
attendance almost always occurs (sometimes by videoconference) because 
important decisions for the United Nations as a whole are made, and the 
senior managers all have a stake in these decisions. Previously, the 
heads of the funds and programs and other senior managers had no 
regular mechanism to coordinate overall U.N. activities; some met with 
each other only once a year at the General Assembly.
    According to the Deputy Secretary-General, the senior management 
group discusses all major issues affecting the United Nations and 
agrees on a common strategy for them. For example, decisions such as 
how the United Nations would develop a unified response to the crisis 
in Kosovo and how to implement personnel reforms consistently across 
the organization have been discussed and agreed upon. In deciding on 
its responses to the unfolding events in Kosovo, the High Commissioner 
for Refugees regularly reports to the group and describes her field 
visits. Since the Emergency Relief Coordinator is also one of the 
group's members, a unified U.N. response has been planned. As such, it 
has been agreed that the High Commissioner's office will lead the 
U.N.'s immediate response to the humanitarian crisis in Kosovo with 
help from the Emergency Relief Coordinator. According to the Deputy 
Secretary-General, the work of the executive committees provides a good 
indicator of how well the senior management group is working because 
the executive committees plan and implement programs in accord with the 
direction set by the senior management group.
Executive Committees
    Four new executive committees--(1) peace and security, (2) 
humanitarian affairs, (3) economic and social affairs, and (4) 
development operations--were established to plan and implement focused 
and unified U.N. action as agreed to by the senior management group. 
The Secretary-General placed U.N. departments, offices, and the 
programs and funds into appropriate groups; named a convenor of each 
committee from the senior management group; and expected the committees 
to coordinate, plan, and implement U.N. activities as teams, (App. II 
compares the U.N. organization before and after these reforms.) 
According to senior U.N. officials, the concept of the senior 
management group and executive committees grew out of recognition that 
the U.N. system was too vertical, with each organization operating in a 
stovepipe fashion, reporting only to the Secretary-General and, in some 
cases, their governing committees. There was also frustration that some 
programs, with their own sources of funding, did not consider 
systemwide U.N. programming a priority.
    All executive committees have been meeting regularly since late 
1997. For example, as of April 1999, the economic and social affairs 
committee had met formally 15 times. According to members of these 
committees, the under secretaries-general and heads of offices 
frequently attend the meetings because they all have a stake in shaping 
overall U.N. programming in their areas. Some examples of the 
committees' work include the following:

  <bullet> The Executive Committee for Peace and Security developed a 
        unified plan for the referendum in East Timor, involving the 
        Departments of Peacekeeping Operations and Political Affairs, 
        the Human Rights Coordinator, and other committee members.
  <bullet> The Executive Committee for Humanitarian Affairs developed a 
        unified U.N. response to Hurricane Mitch and negotiated U.N. 
        access to areas controlled by the Union for the Total 
        Independence of Angola, on behalf of all committee members 
        including the High Commissioner for Refugees, the U.N. 
        Development Program, and the U.N. Children's Fund.
  <bullet> The Executive Committee for Economic and Social Affairs 
        developed an online statistical database of all activities 
        undertaken by 12 of its members, which can sort the activities 
        by issue, type of activity (such as a conference or 
        publication), location, and date.
  <bullet> The Executive Committee for Development Operations has begun 
        implementing the U.N. Development Assistance Framework after 
        completing pilot tests in 18 countries. (The framework is more 
        fully described below.)
U.N. Development Assistance Framework
    To better coordinate the efforts of U.N. organizations and build an 
integrated program for its development activities, the United Nations 
is implementing the U.N. Development Assistance Framework in countries 
where it provides assistance. One view of the framework is that it 
translates a country's need for development assistance into a 
coordinated operational plan of action among U.N. agencies. The 
framework document is prepared jointly by a team composed of all U.N. 
organizations in a country. The team agrees upon and specifies U.N. 
objectives; strategies of cooperation; projects to be undertaken; and 
proposals for follow-up, monitoring, and evaluation. In August 1997, a 
pilot phase was initiated to test the framework in 18 countries. In May 
1998, an assessment of the pilot phase was started, with all the 
principal framework organizations in attendance. In April 1999, the 
United Nations approved the guidelines for preparing and implementing 
the framework, and the General Assembly passed a resolution recognizing 
the move to full implementation.\4\ As of April 1999, final frameworks 
had been completed in 11 countries, with 6 frameworks co-signed by the 
World Bank.\5\
---------------------------------------------------------------------------
    \4\ Resolution Adopted by the General Assembly, A/RES/53/192 (New 
York, N.Y.: United Nations, Feb. 25, 1999).
    \5\ The World Bank has introduced the Comprehensive Development 
Framework to involve all aid donors in planning assistance activities 
within a country. The U.N. Development Assistance Framework and the 
Bank's Comprehensive Development Framework are intended to be 
complementary.
---------------------------------------------------------------------------
    While progress has been made in implementing the framework, the 
critical question is whether participating U.N. organizations will work 
together. At the assessment workshop in September 1998, it was noted 
that a cultural change is required for the framework to succeed. This 
necessitates commitment at all levels of the U.N. system. The 
experience in Guatemala illustrates the issue. Seventeen U.N. system 
organizations have activities in Guatemala, with a portfolio of about 
$400 million and a total staff of about 800 local and international 
workers. The U.N. organizations and the World Bank participated in 
developing the framework and identifying priority objectives with the 
Guatemalan govermnent. A shared information database with indicators 
was also developed, and lead agencies were given specific tasks. 
However, according to the U.N. country team's report to the U.N. 
Economic and Social Council, the headquarters of each U.N. agency set 
the tone for cooperation. The message from headquarters to the field 
was that individual agency results were more important than overall 
U.N. system results. Our own reports have found similar problems in 
U.N. cooperation. Our 1998 evaluation of the Joint U.N. Program on the 
Human Immunodeficiency Virus/Acquired Immunodeficiency Syndrome found 
that U.N. agencies in the field had difficulty working together and 
coordinating their activities.\6\ Concerns about a joint program led to 
lack of commitment to working together on the part of some agency 
officials.
---------------------------------------------------------------------------
    \6\ HIV/AIDS: USAID and U.N. Response to the Epidemic in the 
Developing World (GAO/NSIAD-98-202, July 27, 1998).
---------------------------------------------------------------------------
Restructuring Humanitarian Affairs
    In March 1998, the United Nations began reorganizing Secretariat 
units to launch coherent and coordinated humanitarian operations. The 
Department of Humanitarian Affairs was dissolved and replaced with the 
Office for the Coordination of Humanitarian Affairs, headed by the 
Emergency Relief Coordinator. The office's role was narrowed to focus 
on three core functions: (1) policy planning and development, (2) 
advocacy (including fund-raising), and (3) coordination of humanitarian 
emergency response. Other emergency-related activities were 
redistributed within the U.N. system. For example, demining activities 
were transferred to the Department of Peacekeeping Operations, and 
demobilization of combatants was transferred to the U.N. Development 
Program. In addition, the Office of the Emergency Relief Coordinator 
was reorganized and its staff was reduced from 250 to 137 
professionals. According to a Department of State official, this change 
represented the most visible and positive indication of reform, as the 
previous directorate was overstaffed and lacked leadership.
    As part of the restructuring of humanitarian affairs, the United 
Nations initiated the Strategic Framework concept. The framework is 
intended to unify the actions of U.N. agencies in countries that are in 
conflict or have just completed peace agreements. To date, the 
Strategic Framework has been employed only in Afghanistan, but the 
United Nations plans to utilize the approach in Sierra Leone. According 
to Department of State officials, the Strategic Framework faces 
challenges of coordination similar to the U.N. Development Assistance 
Framework. A U.N. report on the experience in Afghanistan has not been 
completed.
Human Rights
    In his reform proposals, the Secretary-General committed to 
strengthening the U.N.'s human rights programs and fully integrating 
them into the organization's activities. As a first step, 
representatives from the High Comnmissioner for Human Rights were 
placed on all four executive committees. According to a senior official 
in the New York Human Rights Office, the High Commissioner has taken 
advantage of this opportunity and made human rights activities a part 
of all programs. For example, the High Commissioner provided input into 
the formulation of guidelines for the development assistance framework. 
Human rights activities are now a component of each framework and are 
included in country programs such as Guatemala, Malawi, and Mozambique 
in the form of specific training and outreach programs on human rights. 
According to U.N. officials, the elevation of human rights as an issue 
and its inclusion into these programs represents a marked change from 
less than 2 years ago.
    The United Nations has taken other steps to strengthen human rights 
activities, such as

  <bullet> consolidating the Center for Human Rights into the Office of 
        the High Commissioner for Human Rights and restructuring the 
        Office by reducing the number of divisions from five to three,
  <bullet> upgrading the head of the High Commissioner's office in New 
        York to the level of director and adding five staff,
  <bullet> conducting an analysis of technical assistance related to 
        human rights provided by U.N. agencies in order to formulate 
        proposals for their improvement, and
  <bullet> working to establish a human rights data bank to disseminate 
        information and analysis.

    Despite the gains made in reforming the U.N.'s human rights 
program, challenges persist. For example, including human issues rights 
as a basic consideration in U.N. activities is not supported by all 
countries. According to a Department of State official, human rights 
issues are highly political for member States, and U.N. agency 
officials are often hesitant to raise these issues with member 
governments out of fear of jeopardizing their access in the country and 
damaging their particular program. Reforms related to increasing the 
efficiency of the human rights entities have also not progressed. 
According to State Department officials, the High Commissioner has not 
reduced the duplication and overlap in human rights reporting by the 11 
treaty bodies and 37 Special Rapporteurs because member States control 
the requirements and have not agreed to changes.\7\
---------------------------------------------------------------------------
    \7\ Several U.N. human rights treaties, aimed at providing 
increased protection to vulnerable groups, have been adopted and come 
into force upon ratification by the requisite number of States parties, 
such as the International Convention on the Elimination of All Forms of 
Racial Discrimination (1965) and the Convention against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment (1984). The 
implementation of these core human rights treaties is monitored by 
committees, or ``treaty monitoring bodies.'' The Commission on Human 
Rights and the Economic and Social Council have established a number of 
extra-conventional procedures and mechanisms that have been entrusted 
to Special Rapporteurs or experts. Their mandates are to examine, 
monitor, and publicly report on human rights situations in specific 
countries or on major human rights violations worldwide.
---------------------------------------------------------------------------
               budget control and results-based budgeting
    Although the United Nations has maintained level budgets for the 
past two bienniums, our preliminary assessment indicates that no 
fundamental changes have been made to the budgeting process to control 
the growth of the regular budget--an area of long-standing concern of 
your Committee. Under procedures adopted by the General Assembly in 
1986, the U.N.'s regular budget is approved by consensus.\8\ Under 
consensus budgeting, the Secretary-General submits to the General 
Assembly a budget outline that contains a preliminary estimate of 
funding requirements. The Advisory Committee on Administrative and 
Budgetary Questions reviews the proposed funding requirements. A larger 
administrative committee, the Fifth Committee, then tries to obtain the 
broadest possible agreement among members in approving a level for the 
Secretary-General to use in preparing the budget.
---------------------------------------------------------------------------
    \8\ Review of the Efficiency of the Administrative and Financial 
Functioning of the United Nations, GA Res. 41/213 (New York, N.Y.: 
United Nations Dec. 19, 1986).
---------------------------------------------------------------------------
    The process does not appear to have assured that the views of the 
major donors have been sufficiently considered thus far in formulating 
the 2000-2001 budget. In 1998, the General Assembly approved a 
preliminary budgeting level equivalent to $2.655 billion for the 2000-
2001 biennium, in comparison to the estimated $2.527 billion for 1998-
99 budget. Any member state can request a vote in the General Assembly 
if it dissents, thus breaking the consensus on the preliminary 
level.\9\ The United States and Japan, which together pay about 45 
percent of the regular budget, did not agree. However, neither member 
requested a vote. Consequently, the level was formally approved by 
consensus, even though the two largest donors dissented. State 
officials predicted that the actual budget--developed later in the 
year--would be lower than the preliminary estimate. State officials 
said they would consider requesting a vote if the final budget level 
was considered to be too high.
---------------------------------------------------------------------------
    \9\ Rules and Procedures of the General Assembly (A/520/Rev.15) 
(New York, N.Y.; United Nations, Dec. 31, 1984).
---------------------------------------------------------------------------
    Another aspect of controlling the level of the budget involves the 
work of the Advisory Committee on Administrative and Budgetary 
Questions. Although the advisory committee plays a crucial role in 
determining the regular budget level, member States that pay the 
largest share of the budget do not have permanent seats on the 
committee. For example, the United States, Japan, Germany, France, and 
Italy combined are assessed about 67 percent of the regular budget, but 
none has a permanent seat on this key financial committee.\10\ The 
committee's role is to review the budgets and finances of the United 
Nations and make recommendations to the General Assembly on budget 
levels and other financial issues. According to State Department 
officials, the committee is particularly influential because its 
members have the most knowledge of and expertise about the U.N. budget 
process.
---------------------------------------------------------------------------
    \10\ France, Italy, and Japan are current members of the Advisory 
Committee on Administrative and Budgetary Questions. The 16 members of 
the committee are elected by the General Assembly and serve 3 year 
terms. The rules of procedure of the Committee are confidential.
---------------------------------------------------------------------------
    You requested that we examine whether the regular U.N. budget for 
1998-99 will have zero nominal growth. At this point, it is uncertain 
whether there will be zero nominal growth in the 1998-99 budget 
compared to the prior biennium, although the Secretariat estimates that 
the final budget amount for 1998-99 will be lower than the final amount 
for 1996-97. However, the uncertainty comes about because in comparing 
budgets, the amount for 1998-99 needs to be adjusted to reflect new 
accounting procedures used in determining the budget levels.\11\ To 
make a valid comparison with the 1996-97 biennium, the costs of jointly 
funded activities would need to be included in the 1998-99 budget.
---------------------------------------------------------------------------
    \11\ Under the accounting change adopted in 1998-99, net budgeting 
is used. Member States are assessed only their share of costs payable 
for jointly funded activities. Programme Budget for the Biennium 1998-
1999. First Performance Report, A/53/693 (New York, N.Y.: United 
Nations, Nov. 23, 1998).
---------------------------------------------------------------------------
    Another indicator of budget restraint is holding spending to the 
level initially approved. For the 1996-97 biennium, U.N. budget 
expenditures were about $61 million less than the initially approved 
budget. However, expenditures were lower than forecast because the 
strong U.S. dollar resulted in currency exchange gains of about $49 
million and the United Nations hired fewer staff than it had budgeted 
for, saving an additional $34 million. Some savings were used to pay 
for the costs for special political missions, such as the mission in 
Guatemala.\12\ The United Nations will likely maintain a budget level 
at or below the approved level for the 1998-99 biennium. The United 
Nations estimates that it will spend about $6 million less than the 
initially approved budget. However, savings of more than $56 million 
from a strong U.S. dollar, lower-than-expected staff costs, and a 
lower-than-expected inflation rate are expected to provide the 
Secretariat a cushion.\13\
---------------------------------------------------------------------------
    \12\ Programme Budget for the Biennium 1996-1997. Second 
Performance Report, A/C.5/52/32 (New York, N.Y.: United Nations, Dec. 
11, 1997).
    \13\ The Advisory Committee on Administrative and Budgetary 
Questions has considered ways to stabilize the budget from currency 
fluctuations, neither creating a windfall when the dollar is strong nor 
a deficit when the dollar is weak. To accomplish this, a separate 
account needed to be established, and this action was not supported by 
member States.
---------------------------------------------------------------------------
Results-based Budgeting and Sunset Provisions
    The Secretary General recommended a shift to performance, or 
results-based budgeting, to focus the organization more on 
accountability for achieving results rather than completing tasks. 
Although strongly supported by the United States and other major 
donors, this measure was not adopted because some members, mainly 
developing countries, did not support it. Results-based budgeting 
requires program managers to identify indicators for judging the 
substantive impact of their programs and justify their programs' 
effectiveness based on these results. According to senior U.N. and U.S. 
officials, implementing this system would require ``a major cultural 
shift'' among members and U.N. managers and a valid system for 
evaluating program effectiveness. At the General Assembly's request, 
the Secretary-General has produced several reports in support of this 
initiative \14\ and provided prototypes of a results-based budget for 
sections of the Secretariat.\15\ Although the General Assembly has 
considered these reports, it has not adopted the initiative.
---------------------------------------------------------------------------
    \14\ See, for example, Report of the Secretary General: Addendum 
Results-based Budgeting, A/51/950/Add. 6 (New York, N.Y.: United 
Nations, Nov. 12, 1997).
    \15\ United Nations Reform: Measures and Proposals, A/53/500/Add. 1 
(New York, N.Y.: United Nations, Oct. 15, 1998).
---------------------------------------------------------------------------
    The Secretary-General's initiatives also called for new program 
mandates to include specific time limits, or ``sunset'' provisions. 
Sunset provisions would require the General Assembly to renew programs 
periodically, based on an evaluation of their effectiveness. As with 
results-based budgeting, this initiative was supported by the United 
States and other major donors, but some member States, particularly 
developing countries, did not support it. Many of these members are 
reluctant to approve an initiative that they perceive could threaten 
the continuation of programs they deem important.
Initiatives to Reduce Overhead Costs
    As part of the overall effort to improve U.N. operations, the 
Secretary-General proposed to reduce overhead costs from 38 percent of 
the U.N. regular budget to 25 percent and set a savings goal of $200 
million. These savings would be placed in a development account. 
Projects to eliminate duplication and waste were to generate these 
savings. The Secretariat has initiated over 600 such projects, some of 
which have resulted in considerable savings. The Secretariat has not 
released an estimate of the total savings generated by efficiency 
projects, but officials believe the goal of saving $200 million is 
optimistic. Thus far, the Secretariat reports that $13 million from 
these projects, primarily from consolidation of services and 
departments, has been put into a development account. Examples of some 
efficiency projects undertaken with estimated savings are

  <bullet> abolishing the High-level Board on Sustainable Development, 
        which saved an estimated $362,000;
  <bullet> shifting from subsidizing food services to a profit-sharing 
        arrangement with contractors, which generates at least $500,000 
        in income annually;
  <bullet> chartering air service for police monitors rather than 
        purchasing individual tickets, which saved an estimated $1 
        million in 1997; and
  <bullet> consolidating mainframe computer operations, which saved an 
        estimated $1.2 million annually.

                 oversight, monitoring, and evaluation
    At the insistence of member States, the United Nations took steps 
to improve internal oversight of its programs by establishing OIOS. 
Since then, the United Nations has improved oversight and 
accountability is being taken more seriously. For example, in 1997, we 
reported to you that OIOS had resolved its start-up and operational 
problems in an organizational environment that had previously operated 
without effective internal oversight mechanisms for almost half a 
century.\16\ We noted, however, that OIOS is not required to and does 
not submit all reports to the Secretary-General and the General 
Assembly, and we suggested that it clarify its criteria for which 
reports it will submit. In response, the Under Secretary-General for 
Internal Oversight said he would publish the titles of all reports in 
the annual report. Since then, he has done so. As of April 1999, OIOS 
had completed 64 reports that were available to all member States. Some 
have been hard-hitting reports. One found serious deficiencies, 
improprieties, and weaknesses in management control in the U.N. 
operation in Angola that may have fostered fraud and financial abuse. 
\17\ Another report found that a senior U.N. official had used his 
position to commit 59 separate instances of fraud to steal large 
amounts of the organization's project funds, without triggering 
internal alarms.\18\ As of June 1998, OIOS had issued 4,042 
recommendations for management improvement or action to address 
misconduct. The Secretariat had implemented 73 percent of these 
recommendations, according to OIOS records. We have not analyzed the 
recommendations or the actions taken to implement them.
---------------------------------------------------------------------------
    \16\ United Nations: Status of Internal Oversight Services.
    \17\ Report of the Secretary-General on the Activities of the 
Office of Internal Oversight Services: Note by the Secretary-General, 
A/52/881 (New York, N.Y.: United Nations, Apr. 28, 1998).
    \18\ Allegations of Theft of Funds by a United Nations Conference 
on Trade and Development Staff Member: Note by the Secretary-General, 
A/5381 (New York, N.Y.: United Nations, Jan. 28, 1999).
---------------------------------------------------------------------------
    An indication that oversight and accountability are being taken 
more seriously is the consistent number of waste, fraud, and abuse 
reports made to OIOS' investigations section. Between 1994, when OIOS 
was established, and December 1998, the investigations section received 
846 reports. In 1994, it received 110 reports and since then has 
received at least 165 reports a year. According to the head of OIOS' 
investigations unit, 595 investigations have been completed, and action 
has been taken on every report in which a corrective persounel measure 
or disciplinary action was recommended. Also, unit managers have 
increasingly asked OIOS to conduct investigations within their units 
because they know they have a problem and need advice on how to deal 
with it, according to the Under Secretary-General for OIOS.
Monitoring
    An adequate system of monitoring program performance is essential 
in ensuring greater accountability. However, not much progress has been 
made in improving the Secretariat's system for monitoring programs. 
Although many U.N. offices and departments now provide online data 
about program outputs, such as the number of conferences held, member 
States find this data to be of limited value because it does not 
indicate whether the program is accomplishing its mandate. For example, 
the performance report on crime control states that 78 programs on 
planning, crime prevention, and collaborative effort have been 
implemented. The narrative explains that an implementation rate of 77 
percent was achieved, including over 70 advisory missions to member 
States. However, there are no indicators or assessment of what was 
achieved in planning and crime prevention or on these advisory missions 
or how they helped the beneficiaries. For years, the U.N. Committee for 
Programme and Coordination has recognized the limitations of this 
system and has recommended improvements. In 1998, the Committee 
concluded there was a need to monitor and evaluate the quality of 
performance and recommended that the Secretary-General propose ways in 
which the quality of mandated programs and activities could be better 
assessed and reported to member States.\19\
---------------------------------------------------------------------------
    \19\ Report of the Committee for Programme and Coordination on the 
first part of its thirty-eighth session. A/53/16, part 1 (New York, 
N.Y.: United Nations, July 8, 1998); Report of the Secretary-General: 
Methodology for Monitoring and Reporting the Programme Performance of 
the United Nations, A/46/173 (New York, N.Y.: United Nations, May 14, 
1991).
---------------------------------------------------------------------------
Evaluation
    Currently, the United Nations does not have an adequate system for 
evaluating the effectiveness of its programs, including a standard 
methodology that uses performance indicators and would support results-
based budgeting. Although many U.N. departments and offices have their 
own evaluation units and they conduct various types of evaluations, 
ranging from efficiency reviews to self-evaluations to lessons learned, 
they do not have standard methodology guidelines or criteria.\20\ 
According to the Director of OIOS' Central Evaluation Unit, evaluation 
guidelines on methodology are being drafted but do not focus on program 
effectiveness.\21\ Evaluation emphasis is moving away from determining 
program effectiveness in meeting goals and objectives to management and 
problem-solving reviews, according to this official.\22\
---------------------------------------------------------------------------
    \20\ Strengthening the Role of Evaluation Findings in Programme 
Design, Delivery and Policy Directives, A/53/90 (New York, N.Y.: United 
Nations, Mar. 25, 1998).
    \21\ Existing U.N. monitoring and evaluation guidelines do not 
provide methodologic guidance but state that each major activity should 
be the subject of a critical assessment every 4 years that examines 
both the efficiency of the activity and its effectiveness. The 
guidelines also note that findings should be based on evidence, 
including records of opinions of independent experts and the views of 
clients and users.
    \22\ Strengthening the Role of Evaluation Findings in Programme 
Design, Delivery and Policy Directives, A/49/99 (New York, N.Y.: United 
Nations, Mar. 23, 1994).
---------------------------------------------------------------------------
    Despite the emphasis on broad-based management reviews, developing 
an adequate system for determining program effectiveness is important 
for member States. The U.N. Committee for Programme and Coordination 
recently stressed that evaluation should be based on standards that 
enable member States to assess the efficiency and effectiveness of the 
program. It further stressed that evaluation standards and analysis 
should utilize performance indicators.\23\ According to the Under 
Secretary-General for OIOS and other U.N. officials, the United Nations 
still has a long way to go in developing a framework to evaluate the 
effectiveness of its programs. The Secretary-General also agreed that 
evaluations of U.N. programs have been primarily management oriented 
and have not addressed the question of the continuing validity of the 
programs themselves.\24\
---------------------------------------------------------------------------
    \23\ Report of the Committee for Programme and Coordination on the 
work of its thirty-eighth session.
    \24\ Report of the Secretary-General on the Activities of the 
Office of Internal Oversight Services.
---------------------------------------------------------------------------
                       human resources management
    The Secretariat has begun to reform its human resources management, 
introducing initiatives such as a new merit-based staff appraisal 
system and a code of conduct and beginning to plan for its human 
resources needs. The Secretariat also developed a comprehensive plan 
for reforming its management of human resources and laid out a strategy 
for implementing it.\25\ According to U.N. officials, the success of 
their plan will require the full cooperation of managers and staff and 
the support of member States. Currently, however, the initiatives we 
examined have not been fully implemented, and there have been problems 
in carrying them out.
---------------------------------------------------------------------------
    \25\ Human Resources Management Reform: Report of the Secretary-
General, A/53/414 (New York, N.Y.: United Nations, Oct. 13, 1998).
---------------------------------------------------------------------------
    For example, for the year 1996, the United Nations introduced a 
merit-based performance appraisal system. The appraisal requires the 
rater and the ratee to agree on goals that the ratee will achieve 
during the rating period and to specify measurable criteria or 
indicators of success in reaching these goals. The ratee is rated on a 
5-point scale, ranging from ``does not meet performance expectations'' 
to ``consistently exceeds performance expectations.'' The guidelines 
state that the rating system is not intended to impose a mandatory bell 
curve. However, the guidelines also state that when staff are honestly 
and appropriately appraised, about 5 percent will have the highest and 
lowest rating.
    The Secretariat used its performance appraisal system for a third 
time in its 1998 annual assessment cycle. About 8,000 of the 14,000 
staff directly supervised under U.N. authority were covered by the 
appraisal system, according to U.N. human resources officials. Out of 
the 8,000 staff participating in the 1998 appraisal cycle, U.N. 
officials stated that fewer than 10 individuals had received the bottom 
rating, the consequences of which could be dismissal for poor 
performance. Three departments were judged to have inflated ratings, 
and the Secretary-General sent letters to the managers of these 
departments, telling them to ensure the ratings were consistent with 
the rest of the Secretariat. The Secretariat did not provide us with 
summary statistics for the 1998 performance appraisal cycle, stating 
that the results are under review.
    One problem with the current performance appraisal system is that 
organizational skills are not clearly defined and benchmarks for 
determining performance on those skills are lacking. In October 1998, 
the Secretary-General reported that a statement of core and managerial 
competencies was still under development and that it would become a 
base for building other human resource systems, including performance 
appraisals.\26\
---------------------------------------------------------------------------
    \26\ Performance Management: Report of the Secretary-General, A/53/
266 (New York, N.Y.: United Nations, Aug. 14, 1998).
---------------------------------------------------------------------------
Code of Conduct and Disciplinary Procedures
    In December 1998, the United Nations issued a code of conduct for 
its employees: Status, Basic Rights and Duties of United Nations Staff 
Members. The United Nations used the new code to clarify the 
applicability of the U.N. regulations and rules to all staff under the 
Secretary-General's authority, including the funds and programs. The 
code established systemwide guidelines for conduct rooted in the U.N. 
charter. The code stated that the paramount considerations for staff 
employees are competence, efficiency, and integrity. Accountability is 
also of primary concern. For example, the code has conflict-of-interest 
provisions such as that staff members shall not be actively associated 
with the management of or hold a financial interest in any profit-
making, business, or concern, if the staff member or the profit-making 
business or other concern might benefit from such association because 
of the staff member's position with the United Nations. Staff members 
at the Assistant Secretary-General level and above are also required to 
file financial disclosure statements. In another section of the code, 
staff are obligated to respond fully to requests for information from 
officials of the United Nations authorized to investigate possible 
misuse of funds, waste, or abuse. Finally, the code makes it clear that 
failure to comply with the code's obligations and the U.N.'s standards 
of conduct will subject a staff member to disciplinary procedures.
    Although the United Nations has adopted a code of conduct, member 
States have questioned the Secretariat's ability to follow up and 
discipline staff for misconduct. Concern about actions such as this 
have been an issue for years.\27\ Recently, the U.N. General Assembly 
requested the Secretary-General to submit to it a report on the follow-
up of management irregularities that caused financial losses to the 
organization. The Secretary-General submitted his report to the General 
Assembly in March 1999,\28\ but the General Assembly considered it 
incomplete. It did not explain what had been done since 1994 to develop 
procedures to deal with cases of fraud and other actions causing 
financial losses to the organization.\29\
---------------------------------------------------------------------------
    \27\ Alleged Cases of Fraud in the United Nations: Study of the 
Possibility of the Establishment of a New Jurisdictional and Procedural 
Mechanism or of the Extension of Mandates and Improvement of the 
Functioning of Existing Jurisdictional and Procedural Mechanisms, A/
AC.243/1994/L.3 (New York, N.Y.: United Nations, Apr. 4, 1994).
    \28\ Management Irregularities Causing Financial Losses to the 
Organization, A/53/849 (New York, N.Y: United Nations, Mar. 3, 1999).
    \29\ Management Irregularities Causing Financial Losses to the 
Organization: Report of the Advisory Committee on Administrative and 
Budgetary Questions, A/53/954 (New York, N.Y.: United Nations, May 11, 
1999).
---------------------------------------------------------------------------
    The Secretariat does have procedures for dealing with fraud, 
including summary dismissal. However, according to the Assistant 
Secretary-General for Human Resources, the Secretariat does not have 
clear procedures or policies for dealing with cases such as systematic 
management problems, negligence, and generally poor performance. Its 
record on taking action against individuals falling into these 
categories has been inconsistent, Commenting generally on the 
situation, an official in the Human Resources section said the 
Secretariat recognizes it has a problem in this area and is now acting 
to address it.
Human Resources Planning
    As part of its reform measures, the United Nations has committed to 
long-range human resources planning so it can place the right staff in 
the right place at the right time. As part of this effort, it has been 
developing an automated database that would account for and track staff 
employed worldwide. The automated database is the U.N.'s Information 
Management System (IMIS), which uses satellite relays to link field 
offices with headquarters. The IMIS database contains basic management 
information, such as data on employees, including position, years of 
service, specialization, and payroll information. However, IMIS is not 
yet functioning worldwide.\30\ According to U.N. officials, they still 
have to contact individual field offices and posts to get the number of 
various employees and manually incorporate them into the database at 
headquarters.
---------------------------------------------------------------------------
    \30\ Report of the Office of Internal Oversight Services on the 
Increase in Costs of the Integrated Management Information System 
Development Contract: Note by the Secretary-General, A/53/829 (New 
York, N.Y.: United Nations, Feb. 16, 1999).
---------------------------------------------------------------------------
    Also, as part of the U.N. reform initiatives, the Secretary-General 
set a goal of reducing 1,000 posts paid for under the regular budget. 
Based on a comparison of the number of posts authorized in the 1996-97 
and 1998-99 biennium budgets, 954 posts have been eliminated. The 
number of posts has been reduced from 10,012 to 9,058. According to 
Secretariat officials no staff were let go as a result of the 
reduction. As staff retired or voluntarily left the organization, their 
posts became vacant, and many of these posts were eliminated. As you 
requested, we provide additional information in Appendix III about the 
number of staff hired by the U.N. system.
    Mr. Chairman and Members of the Committee, this completes my 
prepared statement. I will be happy to respond to any questions you may 
have.
                      contact and acknowledgments
    For future contacts regarding this testimony, please contact Harold 
J. Johnson. Individuals making key contributions to this testimony 
included Tet Miyabara, Richard Boudreau, Pat Dickriede, Mike Rohrback, 
Mark Speight, Richard Seldin, and Rona Mendelsohn.

                               Appendix I

              members of the u.n. senior management group
    Secretary-General
    Deputy Secretary-General
    Under Secretary-General for Humanitarian Affairs
    Under Secretary-General for Economic and Social Affairs
    Under Secretary-General for Political Affairs
    Administrator, U.N. Development Program
    Under Secretary-General for Disarmament Affairs
    Under Secretary-General for Administration and Management
    Under Secretary-General for Internal Oversight
    Under Secretary-General for Legal Affairs
    Under Secretary-General for General Assembly Affairs and Conference 
Services
    Under Secretary-General for Peacekeeping Operations
    Chef de Cabinet, Executive Office of the Secretary-General
    Under Secretary-General, Executive Director for the U.N. Fund for 
Population Activities
    Under Secretary-General, Special Representative of the Secretary-
General for Children in Armed Conflict
    Under Secretary-General and Director General of the U.N. Office in 
Geneva
    High Commissioner for Refugees
    High Commissioner for Human Rights
    Secretary-General of the U.N. Conference on Trade and Development
    Under Secretary-General and Director General of the U.N. Office in 
Vienna
    Under Secretary-General and Director General of the U.N. Office in 
Nairobi and the Executive Director of the U.N. Environment Program
    Executive Director, World Food Program

                              Appendix II

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Appendix III

      staff of the united nations system, as of december 31, 1998
    Table III.1 that follows provides a snapshot of U.N. staff with an 
appointment or contract of 1 year or more within the U.N. Secretariat, 
the funds and programs, and the Specialized Agencies--commonly referred 
to as the U.N. system--as of December 31, 1998. As of December 31, 
1998, staff financed from the U.N. Secretariat's regular budget 
numbered 7,738 or 15 percent of system-wide total U.N. staff of 51,832. 
These numbers reflect the actual total of staff on-board, including all 
U.N. employees with a contract of 1 year or longer. This total number 
differs from the number of authorized posts, which may be vacant.

                                 Table III.1--U.N. Staff as of December 31, 1998
----------------------------------------------------------------------------------------------------------------
                                                                                  Extrabudgetary
                                                                  Regular budget       funds           Total
----------------------------------------------------------------------------------------------------------------
U.N. Secretariat:
Secretariat.....................................................           7,738           6,385          14,123
Peacekeeping Missions (Support account).........................               0             319             319
    Secretariat Total...........................................           7,738           6,704          14,442
----------------------------------------------------------------------------------------------------------------

U.N. Development Program........................................           3,631           1,325           4,956
U.N. Fund for Population Activiites.............................             816              74             890
U.N. High Commissioner for Refugees.............................             218           3,827           4,045
U.N. Children's Fund............................................           1,811           5,193           7,004
U.N. Relief and Works Agency for Palestine Refugees in the Near               97              12             109
 East...........................................................
U.N. Training Institute.........................................               0              16              16
U.N. Office for Project Services................................               0           1,032           1,032
U.N. Staff College..............................................               0              22              22
U.N. University.................................................               2             113             115
International Court of Justice..................................              31               0              31
International Civil Service Commission..........................               0              38              38
International Trade Commission..................................               0             186             186
Joint U.N. Program on HIV/AIDS..................................             151               0             151
World Food Program..............................................               0           1,038           1,038
    Total for U.N. Subsidiary Bodies............................           6,759          12,876          19,633
----------------------------------------------------------------------------------------------------------------

Food and Agricultural Organization..............................           2,768           1,322           4,090
International Civil Aviation Organization.......................             639              74             713
International Fund for Agricultural Development.................             272              32             304
International Labor Organization................................           1,560             228           1,788
International Maritime Organization.............................             252              22             274
International Telecommunications Union..........................             710              27             737
U.N. Educational, Scientific, and Cultural Organization.........           2,049             256           2,305
U.N. Industrial Development Organization........................             610               0             610
Universal Postal Union..........................................            1151             122             173
World Health Organization.......................................           2,437           1,178           3,615
World Intellectual Property Organization........................             683               0             683
World Meteorological Organization...............................             204              45             249
International Atomic Energy Agency (IAEA).......................           1,674             542           2,216
    Total for U.N. Specialized Agencies and the IAEA............          14,009           3,748          17,757
================================================================================================================
    Grand Total U.N. System.....................................          28,504          23,328          51,832
----------------------------------------------------------------------------------------------------------------
Source: United Nations.

                                 ______
                                 

                [From the New York Times, June 22, 1999]

             Deny Rape or Be Hated: Kosovo Victims' Choice

                        (By Elisabeth Bumiller)

    Zrze, Kosovo, June 18.--The 22-year-old woman, married four months 
ago, said she was taken from this small southern village by Serbian 
forces, held for a day in the local police station, beaten, then 
threatened with death. But she was not, she said, raped.
    Her husband, Behan Thaqi, thinks differently. ``I am 100 percent 
certain that they raped her,'' said Mr. Thaqi, 34, a farmer imprisoned 
by the Serbs for supplying weapons to the Kosovo Liberation Army, the 
Albanian guerillas who fought Serbian forces. ``I know that when women 
get in their hands, there is no chance to escape.''
    Mr. Thaqi says his wife, who did not want her name published, 
denies the rape because ``she doesn't dare tell that kind of story.'' 
If she admitted it to him, he said, ``I would ask for a divorce--even 
if I had 20 children.'' As his wife listened, silent an shamefaced, in 
a corner of their empty home, looted of all furniture and possessions 
by the Serbs, Mr. Thaqi added: ``I don't hate her, but the story is 
before my eyes. I feel very cold toward her.''
    Kissing her, he said, ``is like kissing a dead body.''
    There are few more harsh illustrations of the difficulties in 
getting Kosovo Albanian women to talk about being raped by Serbian 
forces than these words from Mr. Thaqi, a rough-spoken man with an 
eighth grade education. Not all Kosovo Albanian men share his 
attitudes, but interviews with villagers and others made it clear that 
it is a majority view.
    A horrific social stigma accompanies rape in Kosovo, bringing 
lifelong shame to a woman and her family. It is the biggest problem 
that rights groups face as they begin to collect information on whether 
Serbian forces used rape as a premeditated tactic. The act has been 
classified as a war crime by the international war crimes tribunal for 
the former Yugoslavia in The Hague.
    In Interviews during the last two weeks, dozens of women and men in 
Kosovo and in refugee camps in Albania told stories suggesting that 
sexual assault and intimidation, if not rape, were widespread, used by 
Serbian forces to strike at the heart of a Muslim society in which the 
virginity and fidelity of women are central.
    So far, there is no solid evidence of systematic rapes by the 
Serbs, as was reported in Bosnia, and not a single woman said in the 
interviews that she was sexually penetrated by a Serbian soldier. But 
one woman, Vase Racaj, 35, said she saw women being raped. She said 
that on the afternoon of April 27, Serbian paramilitary forces in black 
masks pulled 10 young women out of a refugee convoy of trucks, cars and 
tractors that she was in. It had been heading toward the town of 
Prizren and the Albanian border.
    Ms. Racaj, who is from the southern town of Klina, said 10 men then 
raped the women in an open field about 30 feet from the road, in view 
of the women's families, who were held at gunpoint by Serbian soldiers.
    An hour later, Ms. Racaj said, the paramilitary forces slashed the 
women's pants around their thighs, then put the women on a truck 
heading toward the border with her and their families.
    ``They were crying and saying, `Better dead than what they did to 
us,' '' Ms. Racaj said, as her own eyes filled with tears.
    A 28-year-old teacher from the city of Mitrovica, who agreed to be 
identified only by her last name, Avdullahi, said that she had been 
threatened with rape on a bridge while a Serbian soldier held a gun to 
her father-in-law's throat, but that she had eventually been allowed to 
go free.
    Another woman, who asked that only her first name, Zyrafete, be 
used, said she had been sexually assaulted at knifepoint in the village 
of Dragocina in southern Kosovo. Both Zyrafete, 23, and another woman 
from the same village, Sherife Trolli, 48, said about 300 women were 
held in three houses for three days in the village, with about one-
third of them in each house.
    Every night Serbian soldiers dragged three to four women out of 
each house for an hour or two each, Zyrafete and Ms. Trolli said. The 
women were returned to the house sobbing and refused to tell the other 
women what had happened to them.
    Other refugees told of Serbian soldiers who took away the most 
beautiful women from the groups driven from their homes, and five men 
from Mitrovica said Serbs had written on a wall at a city high school, 
``We're going to rape your women, and they will give birth to Serbian 
children.''
                 waiting for evidence to come to light
    So far, there is no solid proof in Kosovo of the kind of systematic 
rape of tens of thousands that was reported in Bosnia, or of Bosnian 
``rape camps'' where women were held captive for days, repeatedly 
assaulted and often killed afterward. Nor was there any mention of rape 
in the war crimes tribunal's indictment last month of Slobodan 
Milosevic, the Yugoslav President, for crimes against humanity, 
although the chief prosecutor has said she expects to expand the 
charges.
    But just as in Bosnia, where a post-Communist urban feminist 
movement encouraged rape victims to speak, investigators expect that 
more testimony from women will come to light during the next several 
months, after one million refugees settle back home and bury their 
dead. ``It's too soon,'' said Valentina Gjuraj, 24, a journaifst in the 
western city of Djakovica, where one of the worst massacres of the 
Serbian terror campaign occurred. ``I found five bodies yesterday,'' 
she said. ``They were the bodies of my best friends.''
    For now, State Department officals in Washington say they have 
received refugee reports that Serbs were using the Hotel Karagac in Pec 
and an army camp near Djakovica as rape camps. Human Rights Watch has 
reported the rape of two women held with the 300 in Dragocina. And the 
United Nations Population Fund has released a report that Kosovo 
Albanian women ``were individually raped by many men,'' and ``sometimes 
even for days.''
    But the report did not specify the number of women raped, or 
interviewed; nor did it give details of specific cases.
    Djakovica, once beautiful, is a city in the shadow of the Accursed 
Mountains where last week shocked citizens asked reporters they met on 
the street to come see the burned bodies in their backyards. Virtually 
everyone questioned there reported hearing talk about the existence of 
a rape camp, either near the Serbian army barracks by a stadium or near 
additional barracks next to a church.
    One woman said she had heard that 12 women committed suicide after 
being in the rape camp. But no one had any real information. Some had 
just come back from refugee camps; some had been hiding for two months 
in their homes; some, perhaps, were afraid to speak.
    Yet at the Djakovica offices of the Kosovo guerrillas, who only 
days ago moved into the cultural center to operate as an unofficial 
local government, there was no uncertainty at all.
    ``We know there was a camp,'' said Shkendije Hoda, 28, a slight 
woman with a revolver in her back pocket, who described herself as the 
commander for information and who said she had just come out from 
hiding in the hills two days before.
    Ms. Hoda based her assertion on information from women she knows, 
describing them as witnesses to the camps, and she said the guerrilla 
group would soon be collecting its own information on rape. For now, 
Ms. Hoda said, the stories are secret. She added that rape was a 
Serbian strategy of war, ``to destroy the spirit of the brave soldiers 
of the Kosovo Liberation Army.'' The Serbs, she said, left many raped 
women alive as psychological torture. Women ``are not as afraid of 
death as they are of rape,'' Ms. Hoda said. ``This is the weakest side 
of women.''
    Over in Cabrat, the once lovely neighborhood that is Djakovica's 
oldest--where house after big house was burned to ashes and rubble--
Afrim Domi spoke in a neighbor's still-standing home about his 
daughter, Yllka, 17. He said she shouted, ``Better to kill me than to 
rape me!'' while running out into the woods to escape Serbian soldiers 
who had surrounded the family on May 17.
    Mr. Domi said that his daughter was shot in the leg while fleeing, 
and that he has not been able to find her since. She ran, he said, 
because Serbian soldiers had tried to rape her days earlier. She 
escaped that time, he added, after she witnessed the rape of another 
Djakovica teen-ager--whose family witnessed it, too.
    But that victim's father, whose hands trembled in an interview, 
said the Serbs had not touched his daughter, who was at that moment 
safe with him at home. As he spoke on the family porch, his brother, 
the young woman's uncle, came out to interrupt loudly that there had 
been no rapes in Djakovica, but, ``If rape was going on here, they only 
raped women from other towns.''
    One of the most extensive accounts of sexual assault was given by 
Zyrafete, who was held with the 300 others in Dragocina. Zyrafete said 
she and her 4-year-old son were herded with a large group of women and 
children into a central area of the village on April 20. After she 
wound up with about 100 of the women in a house, Serbs pulled her out 
of the group one morning, she said, and ordered her to make them 
coffee.
                      fearing death less than rape
    When she told them she wanted to bring along her son, they said no, 
then pushed him into the basement with some other women. Her son became 
hysterical, Zyrafete said, and cried out to his mother, ``Do they want 
to kill you?'' Zyrafete told him not to worry, that she would be back.
    The police took her into another room, she said. They demanded 
money and asked if her husband was a rebel, She said no. Then they 
ordered her at gunpoint to wash dishes, make coffee and clean their 
rooms.
    ``When I finished all these things, one policeman said, `Take off 
your clothes,' '' Zyrafete said. ``I said, `Better that you should kill 
me.' '' She said the policeman kicked her, slapped her in the face, 
then ordered others to continue beating her. One policeman, she said, 
put a knife to her throat. ``He said, `Take off your clothes or I will 
kill you.' ''
    At this point, Zyrafete said, she fainted, and regained 
consciousness some time later, dressed only in her underwear. ``I was 
crying,'' she said. ``I didn't know what had happened to me.'' She 
dressed, and a policeman returned her to the room.
    Despite the crucial missing details of her account, Zyrafete says 
she is convinced that she was not raped. Two weeks after the assault--
when it is unclear how much physical evidence there might have been--
she said she went to the gynecologist at her refugee camp in Kukes, 
Albania.
    ``The doctor said I hadn't been raped,'' she said, adding: ``I 
think a lot of women have been raped. But women don't want to talk 
about it.''
    Officials at the maternity hospital in Kukes, the grimy mountain 
border town where 120,000 refugees made their temporary home during the 
war, say that abortions tripled after the refugees began arriving in 
April, going from around one a day to three. But the director of the 
hospital, Safet Elezi, said that no refugee woman had admitted being 
raped and that many had sought abortions because their husbands were 
missing and they were living in tents.
    Last week, across the border in Zrze, the 22-year-old woman who 
said she had not been raped, and whose husband said she had, arrived 
home from Kukes. The neighbors had been asking her, she said, what 
happened when the Serbian soldiers took her away. She told them she had 
been beaten, not raped, but said she was still ashamed that she was the 
one the soldiers had singled out.
    To her husband of four months, everything is ``black,'' and the 
future with his young wife is grim.
    ``I have no will to have children,'' he said.

                                  <all>

</pre></body></html>
